<html>
<title> - ESEA REAUTHORIZATION: MEETING THE NEEDS OF THE WHOLE STUDENT</title>
<body><pre>[Senate Hearing 111-1116]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1116

      ESEA REAUTHORIZATION: MEETING THE NEEDS OF THE WHOLE STUDENT

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

        EXAMINING ELEMENTARY AND SECONDARY EDUCATION ACT (ESEA) 
  REAUTHORIZATION, FOCUSING ON MEETING THE NEEDS OF THE WHOLE STUDENT

                               __________

                             APRIL 22, 2010

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions






<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                  U.S. GOVERNMENT PRINTING OFFICE
56-196 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming
BARBARA A. MIKULSKI, Maryland        JUDD GREGG, New Hampshire
JEFF BINGAMAN, New Mexico            LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             RICHARD BURR, North Carolina
JACK REED, Rhode Island              JOHNNY ISAKSON, Georgia
BERNARD SANDERS (I), Vermont         JOHN McCAIN, Arizona
SHERROD BROWN, Ohio                  ORRIN G. HATCH, Utah
ROBERT P. CASEY, JR., Pennsylvania   LISA MURKOWSKI, Alaska
KAY R. HAGAN, North Carolina         TOM COBURN, M.D., Oklahoma
JEFF MERKLEY, Oregon                 PAT ROBERTS, Kansas
AL FRANKEN, Minnesota                  
MICHAEL F. BENNET, Colorado            

                      Daniel Smith, Staff Director

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)






                            C O N T E N T S

                               __________

                               STATEMENTS

                        THURSDAY, APRIL 22, 2010

                                                                   Page
Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  prepared statement.............................................     2
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia...     3
Reed, Hon. Jack, a U.S. Senator from the State of Rhode Island...     4
Canada, Geoff, President and CEO, Harlem Children's Zone, New 
  York, NY.......................................................     5
    Prepared statement...........................................     6
Pittman, Karen, Co-Founder, President, and CEO, Forum for Youth 
  Investment, Washington, DC.....................................    10
    Prepared statement...........................................    11
Schwarz, Eric, Co-Founder and CEO, Citizens Schools, Boston, MA..    16
    Prepared statement...........................................    16
Sugai, George, Ph.D., Professor and Carole J. Neag Endowed Chair, 
  Positive Behavior Interventions and Supports, Storrs, CT.......    25
    Prepared statement...........................................    26
Greene, Jamie, President, Rhode Island School Library 
  Association, Warren, RI........................................    27
    Prepared statement...........................................    28
Struck, Clare, Elementary Counselor, Price Lab School, Cedar 
  Falls, IA......................................................    30
    Prepared statement...........................................    31
Rittling, Nikki, Educator, Wonderful Willards Elementary School, 
  Willards, MD...................................................    38
    Prepared statement...........................................    39
Jefferies, Lynsey Wood, Executive Director, DC Metro Higher 
  Achievement, Washington, DC....................................    41
    Prepared statement...........................................    42
Henderson, Anne T., Senior Consultant, Community Organizing and 
  Engagement, Annenberg Institute for School Reform, Washington, 
  DC.............................................................    45
    Prepared statement...........................................    46
Cardinali, Daniel J., President, Communities in Schools, 
  Arlington, VA..................................................    53
    Prepared statement...........................................    59
Bennet, Hon. Michael F., a U.S. Senator from the State of 
  Colorado.......................................................    63
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    65
Dodd, Hon. Christopher J., a U.S. Senator from the State of 
  Connecticut....................................................    68

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Al Brandel, Lions Club International.........................    85
    Lynn E. Linde, Ed.D., American Counseling Association (ACA)..    87

                                 (iii)



 
      ESEA REAUTHORIZATION: MEETING THE NEEDS OF THE WHOLE STUDENT

                              ----------                              


                        THURSDAY, APRIL 22, 2010

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:09 a.m. in 
Room SD-106, Dirksen Senate Office Building, Hon. Tom Harkin, 
Chairman of the committee, presiding.
    Present: Senators Harkin, Dodd, Reed, Hagan, Franken, 
Bennet, and Isakson.

                  Opening Statement of Senator Harkin

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will please come to order.
    I would like to thank all of you for being here today as we 
continue our series of hearings in discussing the 
reauthorization of the Elementary and Secondary Education Act.
    Through our previous hearings, we have gained valuable 
insight into the need for education reform, insight into the 
Administration's views on how best to meet this challenge. We 
have heard of various efforts around the country to turn around 
our lowest performing schools, how to recruit and develop 
talented educators and school leaders. Today, we will hear from 
experts who specialize in addressing the needs of the whole 
student.
    Research proves that students learn best when their 
academic, emotional, physical, and social needs are all met. 
Twenty-first century jobs require that our students graduate 
with not only a strong foundation in reading, writing, math, 
and other core subjects, but also in the ability to work in 
teams, think critically, communicate effectively, and be able 
to solve complex problems. More importantly, our civic strength 
rests on educating our children to appreciate the diversity in 
the world around them.
    The current No Child Left Behind Act mostly focuses on 
academic achievement. Obviously, that is critically important. 
As I am beginning to learn, I think others are pointing out--
that is part of a complete educational system.
    One of the most stinging criticisms leveled at the No Child 
Left Behind Act is that it has caused schools, especially those 
serving disadvantaged students, to narrow the curriculum and 
rely on what is called a ``drill and kill'' approach to 
teaching. Obviously, these were not requirements of Federal 
law, but it is important to explore why that is happening and 
what we need to do about it.
    For example, is it a result of trying to teach a set of 
skills and knowledge needed for a 21st century economy in a 
school day designed for the industrial age and a school year 
based on an agrarian calendar? Do schools need more time to 
help students reach higher expectations? Or is it because 
educators do not have the curricular tools and training they 
need to create rich, interdisciplinary courses that teach 
reading and math without losing students' interest?
    If schools are not meeting students' basic health and 
nutrition and other needs--things that are necessary for 
academic success--are there approaches, such as those we will 
hear about today pioneered by the Harlem Children's Zone or 
Communities In Schools. I just mention two of them--that can 
help them succeed?
    I believe it is essential that we support every aspect of 
the development of our students to maximize their chances of 
success in school and in life. I think it is incumbent upon us 
to take a look at the broad array of things that are going on 
out there, in elementary and secondary education, where we can 
see very successful patterns that people have pioneered that 
might point us in the right direction as we reauthorize this 
important bill.
    I look forward to hearing from our witnesses about their 
thoughts on what it takes to address the needs of the whole 
child, the whole student, and how we can best measure the 
effectiveness of programs and activities that are addressing 
these issues.
    Senator Enzi cannot be here right now. He has a mark-up he 
must attend to. We are honored to have Senator Isakson as our 
Ranking Member today. With that, I now turn to Senator Isakson.
    Senator Isakson. Well, thank you very much, Chairman 
Harkin.
    I would like to ask unanimous consent that the statement of 
Senator Enzi be included in the record.
    The Chairman. Without objection.
    [The prepared statement of Senator Enzi follows:]

                   Prepared Statement of Senator Enzi

    Thank you, Senator Harkin, for holding this roundtable as 
part of our series of hearings on the reauthorization of the 
Elementary and Secondary Education Act. I also want to thank 
each of our witnesses for joining us today. I apologize that I 
am not able to be there this morning, but have read your 
statements and will be submitting questions to each of you to 
be answered for the record.
    As we have progressed through this series of hearings I 
have two key questions in mind. First, what can we do to fix 
the current version of ESEA--commonly known as the No Child 
Left Behind Act? Second, how will any proposed changes effect 
or impact schools and school districts in rural areas?
    These two questions are particularly important for this 
roundtable. The role of school personnel such as counselors and 
librarians can be very different in rural Wyoming compared to 
urban settings. Many of the smallest schools in Wyoming are 
lucky to have even a small collection of books, referred to as 
the library, let alone a trained librarian.
    In rural communities across Wyoming the utilization of 
outside partners is very different from what we will hear about 
today from the participants and from what we heard about last 
week from Chancellor Joel Klein and Beverly Donohue. Few 
communities in Wyoming are large enough to support nonprofit 
agencies with which they can partner, but that doesn't mean 
that the community is not involved in schools.
    I travel to every county in Wyoming at least every 2 years 
and am often struck by the strong sense of community I 
encounter. This demonstrates itself not only during the fall 
football season or the spring rodeo season, but also when 
families are struggling and need the support of the community.
    Today's topic is definitely one area where one size cannot, 
and does not, fit all. An afterschool program in Washington, DC 
has to support different student needs compared to an 
afterschool program in Lander, WY. Extended learning time 
programs will look and operate differently in urban compared to 
rural settings. The Federal policy that we set must recognize 
and embrace these differences and allow programs the 
flexibility to meet the needs of the students, teachers, and 
parents they serve.
    Finally, I do want to talk for a moment about the 
importance of parental involvement in the education of 
children. Parents are a child's first, and often most 
important, teacher. I am amazed when I watch my grandchildren 
discover new things and learn how the world around them 
operates. Parental involvement is essential to the success of 
any student, and is key to the quality of a school. I will 
continue to support parental involvement and parental options 
for students as we work on this reauthorization of ESEA.
    I want to thank each of the participants for being here 
today and for sharing their perspectives.

                      Statement of Senator Isakson

    Senator Isakson. I will just take a minute to open. This is 
a very important hearing, and I apologize. I will slip out for 
a minute, but I am coming back because I recognize the value of 
those testifying today, for a couple of particular reasons.
    One, when I chaired the Board of Education in Georgia, I 
brought Communities In Schools to our State 14 years ago, and I 
saw the remarkable difference they made in what I would refer 
to as nontraditional students, who are students that the 
system, one way or another, was losing, and turned those 
students around and met the needs of those students.
    I was also chairman of the State Board of Education when 
the university system of Georgia raised the mathematics 
Carnegie unit requirement from 3 to 4 for a college preparatory 
diploma and held a hearing attended by 5,000 angry arch band, 
PE, and music students who were going--or parents who were 
going to lose their students' ability to take arts or PE as an 
elective because of the additional math they were being 
required to take in terms of the university requirements.
    I understand the rich diversity that is represented here. 
What Mr. Canada has done in Harlem, what so many of you have 
done to reach nontraditional students in an afterschool 
framework or in the academic framework is very important. When 
we re-craft and reauthorize ESEA, it is very important for us 
to understand that there are a lot of moving parts in the whole 
student, and we don't have to have such a rigid regimen of 
Federal compliance that by its very application constrains the 
ability to meet the needs of nontraditional students and 
schools.
    I look forward to this. I appreciate the chairman calling 
this hearing today, and I appreciate all of you who have come 
to testify for your time and for what you do for the children 
of America.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Isakson.
    Before we get started, let me take a moment to introduce 
each of the witnesses and sort of talk about how we do this 
here.
    First, we have Geoffrey Canada, president and CEO of the 
Harlem Children's Zone, which uses a comprehensive model to 
address the educational, developmental, social and medical 
needs of children, families, and communities.
    Then we have Karen Pittman, president and CEO of the Forum 
for Youth Investment, a nonprofit organization that provides 
assistance to States and communities to develop policies and 
practices that improve student outcomes and support positive 
youth development.
    After Ms. Pittman, we have Eric Schwarz, co-founder and CEO 
of Citizen Schools, a nonprofit organization that partners with 
middle schools to expand the learning day for low-income 
children to better engage students and to increase achievement.
    Next, we have Dr. George Sugai, director of the Center for 
Behavioral Education and Research. His research focuses on 
strategies to improve social and behavioral outcomes for 
students.
    I want to recognize Senator Jack Reed to introduce our next 
witness, Ms. Greene.

                       Statement of Senator Reed

    Senator Reed. Thank you very much, Mr. Chairman, not only 
for recognition, but also for holding this hearing. We have 
assembled quite a group of experts and leaders in the education 
community.
    I am delighted to introduce Jamie Greene, who hails from 
Little Compton, RI. Jamie is the president of the Rhode Island 
Educational Media Association, where she acts as an advocate 
for students' access to libraries, school libraries in 
particular. And she has been a school librarian herself at Cole 
Elementary School in Warren, RI, for 8 years. She is one of our 
leading lights when it comes to libraries and education and 
teaching.
    Thank you very much, Jamie.
    I also notice Harris Wofford out there, who is not an 
elementary school teacher, but a colleague.
    Thank you.
    The Chairman. Good to see you, Harris.
    Thank you very much, Senator Reed.
    Following Ms. Greene, we will hear from Clare Struck from 
the No. 1 State in the Nation, whose name I don't even have to 
mention.
    [Laughter.]
    Clare is an elementary school counselor at the Malcolm 
Price Laboratory School in Cedar Falls, IA. Founded at the 
University of Northern Iowa, the Price Lab School has been 
recognized for their work in developing students' knowledge, 
health, civic-mindedness, artistic, and real-life aptitude. As 
the first winner of the ASCD Whole Child Award last month, 
Clare has been instrumental in developing and implementing 
Iowa's school counseling framework.
    Next we have Nikki Rittling, a physical education teacher 
and team leader of the integration network at Wonderful 
Willards Elementary School in Maryland.
    After that, we will hear from Lynsey Wood Jefferies, the 
executive director of Higher Achievement in Washington, DC.
    Following Lynsey, we will hear from Ms. Anne Henderson, a 
senior consultant for community organizing and engagement at 
the Annenberg Institute for School Reform.
    And finally, Mr. Dan Cardinali, president of Communities In 
Schools, will wrap up our testimony. Communities In Schools is 
a national organization that works to connect community 
resources with schools to help young people succeed.
    We will proceed in a roundtable format. All of your 
statements will be made a part of the record in their entirety. 
I read through them last night before I went to bed, and they 
are all very good.
    I ask that you give me your best thoughts in a couple of 
minutes. Your clock says 2 minutes. I know that doesn't sound 
like much time, but again, I want to better understand the one 
or two things that highlight what you or your organization has 
done to focus on the needs of the whole student?
    I ask for the highlights because I want to engage into a 
discussion, rather than a formal presentation.
    Once we hear from each of you, I will ask the Senators who 
are here, who want to be recognized, turn your name plate up. 
Then I will call on you.
    I don't have any regular order here or anything like that. 
We just want to get into a general free-flowing discussion 
concerning this whole student approach and how you think we 
ought to be approaching it in the reauthorization. Fair enough?
    With that, I will turn to Mr. Canada, and we will just go 
down the line like that.

STATEMENT OF GEOFF CANADA, PRESIDENT AND CEO, HARLEM CHILDREN'S 
                       ZONE, NEW YORK, NY

    Mr. Canada. Great. Thank you very much, Mr. Chairman. Thank 
you, Senators, for having us here.
    Let me say that I know this collection of peers, and you 
have really assembled an all-star team of people. I am excited 
to be included in this group.
    My interest in the whole child really came from my work in 
central Harlem. I have been working in that same community for 
27 years, and I have watched young people simply fail decade 
after decade after decade. The education system just insists on 
doing the same thing that failed in the 1970s. They want to do 
it in the 1980s, and then they do it in the 1990s.
    I really began to push that we need to bring real change 
into education. We thought in communities where kids are 
failing in record numbers, you can not just do one thing, that 
you really have to meet all of the needs of that child. We work 
in a 97-block area. We try and make sure we get adults 
involved. We start with children at birth, and we stay with 
those children until they graduate from college.
    We provide health services and social services and dental 
services. We have a core group of social workers that work with 
the families because you can't save children if their families 
are falling apart all around you. We have also gotten involved 
in running schools because we think that we have to innovate in 
schools.
    Mr. Chairman, you mentioned, you know, the agrarian school 
system. Our schools are open 11 months a year because that is 
what it takes for our kids to be successful. If I could do it 
shorter, I would. We can't.
    But in the end, we have to make sure children succeed. We 
think that, in the end, you have to create for young people a 
series of supports that really meets all of their needs. We 
have great sports teams, great arts teams, as well as great 
academic programs for our young people. And so that is what we 
found it took in Harlem to change the cycle of children failing 
to one where they succeed.
    [The prepared statement of Mr. Canada follows:]
                 Prepared Statement of Geoffrey Canada
                                summary
    Thank you for this opportunity to speak in support of comprehensive 
services for poor children and President Obama's Promise Neighborhoods 
program which I believe will break the cycle of generational poverty 
for hundreds of thousands of poor children.
    Like our work at the Harlem Children's Zone (HCZ), Promise 
Neighborhoods will transform the odds for entire communities. High-
achieving schools must be at the core of Promise Neighborhoods, but it 
is not only about creating a successful school. It is about programs 
for children from birth through college, supporting families and 
rebuilding community. Doing this changes the trajectory of an entire 
community.
    In the mid-1990s it became clear to me that despite heroic efforts 
at saving poor children, success stories remained the exception. Our 
piecemeal approach was of limited value against a perfect storm of 
problems and challenges. So we created the HCZ project in Central 
Harlem in order to work with kids, their families and their community. 
Starting with one building, we have grown to 97 blocks. Last year, the 
HCZ Project served 14,230 clients including 8,163 youth and 6,067 
adults. HCZ, Inc., which includes the HCZ Project plus our Beacon 
Centers and Preventive Foster Care programs, served 21,279 clients 
including 10,462 youth and 10,817 adults.
    Our theory of change is embodied in the application of all of the 
following five principles:

    <bullet> Serve an entire neighborhood comprehensively and at scale.
    <bullet> Create a pipeline of high-quality programs that starts 
from birth and continues to serve children until they graduate from 
college. Provide parents with supports as well.
    <bullet> Build community among residents, institutions, and 
stakeholders, who help to create the environment necessary for 
children's healthy development.
    <bullet> Evaluate program outcomes; create a feedback loop that 
cycles data back to management for use in improving and refining 
program offerings; and hold people accountable.
    <bullet> Cultivate a culture of success rooted in passion, 
accountability, leadership, and teamwork.

    Ten years later, the Children's Zone model is working. Parents are 
reading more to their children. Four-year-olds are school-ready. 
Students are closing the black-white achievement gap in several 
subjects. Teenagers are graduating from high school and going to 
college in record numbers. Parents are filing for EITC and spending 
their returns locally.
    The HCZ model is not cheap. We spend on average $5,000 per child 
each year to ensure our children's success. For far less money than we 
are already spending on incarceration, we can educate, graduate our 
children, and bring them back to our communities ready to be 
successful, productive citizens. We think the choice is obvious.
    HCZ's achievements are not magic. They are a result of hard work 
and a comprehensive effort. I applaud the President for taking the war 
on poverty to the next phase and I urge you to support Promise 
Neighborhoods.
                                 ______
                                 
    Chairman Harkin, Ranking Member Enzi and members of the committee: 
Good Morning. I am Geoffrey Canada, President/CEO of the Harlem 
Children's Zone, and President of the Harlem Children's Zone Promise 
Academy Charter Schools. Thank you for this opportunity to speak 
broadly in support of comprehensive services for children within the 
reauthorization of the Elementary and Secondary Education Act; and more 
specifically for President Obama's Promise Neighborhoods program. I 
believe Promise Neighborhoods will break the cycle of generational 
poverty for hundreds of thousands of poor children in America.
    Like our work at the Harlem Children's Zone (HCZ), Promise 
Neighborhoods will transform the odds for entire communities by 
addressing the needs of the whole child. High-achieving schools must be 
at the core of Promise Neighborhoods, but it is not only about creating 
a successful school. It is about programs for children from birth 
through college, supporting families and rebuilding community. By 
providing the same level of comprehensive supports found in middle 
class communities, Promise Neighborhoods will change the trajectory of 
entire communities of poor children.
    The challenges facing poor urban and rural communities across 
America are the same ones we face in Central Harlem, a community in New 
York City where I have worked for over 25 years. The fabric of the 
community is in tatters. Things that middle-class communities take for 
granted--working schools, useable playgrounds, decent housing, 
supportive religious institutions, functioning civic organizations, 
safe streets--are all but nonexistent. When they do exist, their 
effectiveness is marginalized by a toxic culture that overwhelms any 
small scale efforts.
    As today's poor children enter tomorrow's economy, under-educated 
and ill-prepared, the cost to America's future competitiveness in the 
world marketplace is incalculable. In fact, 75 percent of young people 
in the United States today can't join the military because they are too 
poorly educated, are overweight or have a criminal record.\1\ In 
America's inner cities, more than half of all black men do not finish 
high school.\2\ The impact of this is devastating communities: ``By 
their mid-30's, 6 in 10 black men who had dropped out of school had 
spent time in prison.'' \3\
---------------------------------------------------------------------------
    \1\ Mission Readiness, Ready Willing, And Unable To Serve. 
(Washington, DC: Mission Readiness, 2009)
    \2\ Eckholm, Eric. Plight Deepens for Black Men. New York Times, 
March 20, 2006.
    \3\ Ibid.
---------------------------------------------------------------------------
    Fortunately, there are solutions.
    In the mid-1990s it became clear to me that despite heroic efforts 
at saving poor children, success stories remained the exception. My 
kids in Harlem faced not just one problem that could be tackled by any 
one specific program, but encountered obstacles everywhere that they 
turned.
    Our piecemeal approach was of limited value against a perfect storm 
of problems and challenges. Vast numbers of kids were still failing out 
of high school leading to unemployment, antisocial behavior, drug abuse 
and prison.
    We need to work with these kids and their families and their 
communities, enveloping them in healthy and encouraging environments at 
every stage of life, starting from birth all the way up until they 
graduate from college. Through this process, we are beginning to see a 
new generation of successful adults, coming back to Harlem to not only 
bring economic prosperity back to their neighborhood, but also to be 
the parents of and role models for the next generation of youth growing 
up here. So instead of seeing our kids drop out of school and get 
involved in crime, we will see a whole new Harlem community prepared to 
thrive in the global economy, competing with children from both the 
United States and the world.
    This was our idea 10 years ago when we started the Harlem 
Children's Zone in Central Harlem, an area in which the child poverty 
rate is more than double the national average. We started with one 
building on West 119th Street and over the last decade have grown in 
three phases to a neighborhood encompassing 97 blocks. Last year, the 
HCZ Project served 14,230 clients including 8,163 youth and 6,067 
adults. HCZ, Inc. served 21,279 clients including 10,462 youth and 
10,817 adults.
    Ten years later, the Children's Zone model is working. A few 
examples of outcomes from our programs:

    <bullet> Parents are reading more to their children. At The Baby 
College, a program for parents of children aged 0-3, our pre- and 
post-surveys of parents showed that 86 percent of parents who read to 
their children fewer than 5 times per week at pre-test increased the 
amount of time they spent reading to the children.\4\
---------------------------------------------------------------------------
    \4\ HCZ Internal data.
---------------------------------------------------------------------------
    <bullet> Four-year-olds are school-ready. After a year in our early 
childhood programs, 99.4 percent of our children attained a ``school 
readiness'' classification of average or above compared to 83 percent 
at pre-test on the Bracken Basic Concept Scale-Revised. Also, at pre-
test, 35.4 percent of children (57 of 161) had a school readiness 
classification of advanced or very advanced; at post-test, 73.3 percent 
(118 of 161) were in these categories (based on national norms, one 
would expect 15.9 percent of students to be advanced or very 
advanced).\5\
---------------------------------------------------------------------------
    \5\ HCZ Internal data.
---------------------------------------------------------------------------
    <bullet> Poor minority youth are narrowing and closing the racial 
achievement gap. Harvard economist Roland Fryer and his colleague Will 
Dobbie evaluated the outcomes of Harlem Children's Zone Promise 
Academy Charter Schools and HCZ programs combined. They found that we 
increased the achievement of the poorest minority children. They wrote,

          ``Taken at face value, the effects in middle school are 
        enough to close the black-white achievement gap in mathematics 
        and reduce it by nearly half in English Language Arts. The 
        effects in elementary school close the racial achievement gap 
        in both subjects.'' \6\
---------------------------------------------------------------------------
    \6\ Dobbie, W., & Fryer, R.G., Jr., (2009). Are high-quality 
schools enough to close the achievement gap? Evidence from a social 
experiment in Harlem. (NBER Working Paper No. 15473). Cambridge, MA: 
National Bureau of Economic Research.

    <bullet> Teenagers are graduating from high school and going to 
college in historic numbers. Our College Success Office helps young 
people complete their college degrees, the ultimate outcome we seek as 
an agency. Currently, we have 490 students in college. Each year, we 
increase the size of our cohorts. For example, of those 490 college 
students, 181 just started college in the fall of 2009.\7\
---------------------------------------------------------------------------
    \7\ HCZ Internal data.
---------------------------------------------------------------------------
    <bullet> Parents are filing for their Earned Income Tax Credits and 
spending these resources back in the local economy. As of April 9, 
2010, our free tax filing program had helped families file 4,530 
returns worth just under $8 million. Of the total returns, 1,285 were 
eligible for the Earned Income Tax Credit.\8\
---------------------------------------------------------------------------
    \8\ HCZ Internal data.

    The theory of change for the Harlem Children's Zone model is 
embodied in five key principles. When policymakers or other communities 
ask us how to create similar models, we recommend that they replicate 
our five principles, and not our specific programs. The five principles 
---------------------------------------------------------------------------
are:

    <bullet> Serve an entire neighborhood comprehensively and at scale. 
Engaging an entire neighborhood helps to achieve three goals: it 
reaches children in numbers significant enough to affect the culture of 
a community; it transforms the physical and social environments that 
impact the children's development; and it creates programs at a scale 
large enough to meet the local need.
    <bullet> Create a pipeline of high-quality programs that starts 
from birth and continues to serve children until they graduate from 
college. The continuum should include everything that children need to 
succeed: parenting education, early childhood programs, strong schools 
and after-school programs, health initiatives, social services; support 
before and during college. Programs must be: high quality, accessible 
and linked to one another so that they provide uninterrupted support 
for children's healthy growth, starting with prenatal programs for 
parents and finishing when young people graduate from college. The 
pipeline must be surrounded by additional programs that support 
families and the larger community such as family counseling, benefits 
counseling, legal services and assistance filing for taxes, especially 
the Earned Income Tax Credit.
    <bullet> Build community among residents, institutions, and 
stakeholders, who help to create the environment necessary for 
children's healthy development.
    <bullet> Evaluate program outcomes; create a feedback loop that 
cycles data back to management for use in improving and refining 
program offerings; and hold staff and partner organizations 
accountable.
    <bullet> Cultivate a culture of success rooted in passion, 
accountability, leadership, and teamwork.

    One key component of the HCZ pipeline is strong schools. Charter 
public schools provide the opportunity for innovation, but I do not 
believe that they alone are the answer. Proven reforms must be 
incorporated into traditional public schools. And children in 
communities with poor outcomes need both high-quality, comprehensive 
supports and strong schools.
    HCZ charter schools have longer school days and a longer school 
year, merit pay and bonuses, data-driven decisionmaking, and school 
leaders with the ability to hire and fire employees. We believe that 
these reforms--coupled with our early childhood programs, out-of-school 
time programs for all ages, medical, dental, and mental health 
services,\9\ and healthy food, nutrition, and fitness opportunities--
generated the terrific improvements in our student achievement that 
Fryer and Dobbie found in their study.
---------------------------------------------------------------------------
    \9\ The Children's Health Fund, Harlem Hospital and HCZ provide 
medical, dental and mental health services to our charter schools.
---------------------------------------------------------------------------
    While all of the supports are critical, we cannot expect that only 
adding supports to schools will transform academic outcomes. This 
approach must be paired with the type of structural reforms to 
education that the Obama administration has proposed in their blueprint 
for revising the ESEA and encouraged through Race to the Top. For 
example, we must have effective teachers and leaders alongside high-
achieving after-school programs.
    The HCZ model is not cheap. We spend on average $5,000 per child 
each year to ensure childrens' success. Compare this to the costs of 
not spending this money:

    <bullet> New Yorkers spend roughly $210,000 per youth on detention 
annually. A recent report from New York State Governor David Paterson's 
Task Force on Transforming Juvenile Justice highlighted the fact that 
three-quarters of those released from detention were arrested again 
within 3 years and 45 percent were reincarcerated.\10\
---------------------------------------------------------------------------
    \10\ A Report of Governor David Paterson's Task Force on 
Transforming Juvenile Justice. Charting A New Course: A Blueprint for 
Transforming Juvenile Justice in New York State. (New York: 2009)
---------------------------------------------------------------------------
    <bullet> In the 97 square blocks that constitute the HCZ project, 
the government will spend $42 million incarcerating some residents of 
our community.\11\
---------------------------------------------------------------------------
    \11\ Cadora, E. and L. Kurgan. Columbia University Spatial 
Information and Design Lab Geographic Information Systems. (New York: 
Justice Mapping Center 2007)

    Poverty now costs the United States about 4 percent of its gross 
domestic product annually in lost production, decreased economic 
output, and increased social expenditures.\12\ Yet for far less money 
than the costs of poverty or what we are already spending on 
incarceration, we can educate our children, have them graduate from 
college, and bring them back to our communities ready to be successful, 
productive citizens. We think the choice is obvious.
---------------------------------------------------------------------------
    \12\ Holzer, H., Schanzenbach, D.W., Duncan, G.J., Ludwig, L. The 
Economic Costs of Poverty: Subsequent Effects of Children Growing Up 
Poor. (Washington, DC: Center for American Progress, 2007)
---------------------------------------------------------------------------
    HCZ's achievements are not magic. They are a result of hard work 
and a comprehensive effort. Communities recognize that this is not 
easy, but they are already getting started. PolicyLink and HCZ recently 
held a conference focusing on the HCZ model and 1,400 people 
representing over 100 communities came. HCZ has a Practitioners 
Institute where other communities can come for several hours or several 
days to learn about our model. Since we launched our Institute in 2003, 
HCZ has welcomed over 120 communities from the United States and more 
from around the world.
    I applaud the President for taking the war on poverty to the next 
phase and I urge you to support Promise Neighborhoods and comprehensive 
supports for children.

    The Chairman. Thank you very much, Mr. Canada.
    I read your statement last night, and you grew up in 
Harlem, right?
    Mr. Canada. I grew up in the South Bronx in the 1950s when 
it was actually doing worse than Harlem was doing. I grew up in 
circumstances that my kids are growing up in today.
    The Chairman. One of the things I want to keep coming back 
to is this idea of how we get parents involved. We have heard 
that from other groups and other witnesses, but I hope you have 
some ideas for that--for strengthening parent, family and 
community engagement. This is just one aspect of focusing on 
the needs of the whole student.
    Ms. Pittman, please.

  STATEMENT OF KAREN PITTMAN, CO-FOUNDER, PRESIDENT, AND CEO, 
           FORUM FOR YOUTH INVESTMENT, WASHINGTON, DC

    Ms. Pittman. Good afternoon, Mr. Chairman and members of 
the committee. Thank you very much for having us here today.
    I want to thank you for your leadership in bringing up this 
issue of the whole child because I think it is critical that we 
think not just about how we fix the education pipeline of 
connecting early childhood of K-12 to higher education, but 
also how we actually insulate that pipeline so that young 
people have all the services that Mr. Canada was just talking 
about.
    That really is what my organization, the Forum for Youth 
Investment, has been focused on, how we can really build those 
connections between schools, specifically the K-12 system, and 
that array of family, community, and public service supports 
that are outside of the school, to bring those together so that 
we have complete insulation from early childhood through young 
adulthood for young people. Nothing short of that will allow us 
to achieve our goals.
    I was very pleased to hear you talk about broadening 
student outcomes to include critical thinking and communication 
and problem-solving. Clearly, that is what higher education, 
business leaders, youth development leaders, and young people 
themselves tell us that they need to have. Our challenge is to 
actually figure out how to measure those, how to build those 
into class plans and educational plans, not just give lip 
service to them.
    I urge you, when we are thinking about the reauthorization, 
that everywhere the legislation calls for accountability that 
focuses on a specific narrow set of outcomes like literacy and 
math, not that those are unimportant, that we really with equal 
specificity define those other outcomes that young people want 
to have because we know that 4 out of 10 young people who show 
up with a high school diploma still aren't ready for work.
    The second thing that I would suggest that we emphasize is 
that we find a way to formalize and support the roles of 
families and community organizations. I think that their 
commitment and expertise in helping young people has earned 
them a seat at the planning table, not just a spot on the 
providers list. We have to get them into the schools and into 
this conversation early on, and we have to figure out how, as 
we are looking at funding, we have ways to adequately support 
their roles as partners.
    The last thing that I want to suggest that we do is focus 
not just on the content of student learning, as you mentioned, 
but on the context of student learning. We understand that the 
quality of the learning environment that a young person has is 
as important as the content, the quantity of what they are 
getting in terms of academic information. We really do know 
very much about how we can make quality happen inside schools 
and outside of schools.
    We can measure it. It is malleable, and it really does 
matter. It matters most important for those young people who 
are suffering not just from being in inadequate schools, but 
being in underfunded and under-resourced communities. 
Insulating this education pipeline is critically important for 
all of them.
    Thank you.
    [The prepared statement of Ms. Pittman follows:]
                  Prepared Statement of Karen Pittman
                                summary
     Good afternoon Mr. Chairman and members of the committee. I thank 
you for your leadership on educating the whole child--focusing not only 
on the traditional education pipeline that links early childhood 
programs to schools to higher education, but also on the families and 
community organizations that form the insulation that wraps around this 
pipeline. It is this dual focus on both the traditional educational 
pipeline and the layer of insulating family and community supports that 
will allow this legislation to truly be an Elementary and Secondary 
Education Act, as opposed to merely an Elementary and Secondary Schools 
Act.
    As the founder and president of an organization that helps 
communities across the country create Ready by 21 plans to educate the 
whole child, I urge the committee to consider taking three steps that 
would facilitate this ``whole community'' focus.
               broaden the definition of student outcomes
    Everywhere that the legislation calls for accountability for a 
specific narrow set of outcomes, such as literacy and math, I urge you 
to consider striking and replacing that language with a broader set of 
outcomes that incorporates the list of ``21st century skills'' that 
students, parents, business and higher education professionals all 
agree are necessary to be ready for college, work and life. We must 
ensure that young people are not only academically prepared, but also 
are prepared socially, physically, vocationally and civically.
formalize and support the roles of families and community organizations
    ESEA is primarily about schools, teachers and principals. But to 
fully educate the whole child, it must also be about supporting 
families, community organizations, and other public services. I urge 
you to ensure that this broader set of institutions beyond schools is 
adequately funded, and that a broader set of professionals such as 
after-school providers and youth workers are invited along with 
teachers and principals to develop and participate in quality 
improvement plans and accountability systems. Their commitment and 
expertise should earn them a seat at the planning table, not just a 
spot on the providers list.
  focus on improving both the content and context of student learning
    Everywhere the legislation addresses the need for better-qualified 
teachers and administrators, I urge you to define and measure not only 
their capacity to deliver content, but also their capacity to create 
classrooms, schools and communities where young people feel physically 
and emotionally safe, feel challenged and supported by peers and 
adults, and feel that they have opportunities to apply what they know. 
The quality of the learning environment is as important as the 
qualifications of the instructors; this is true both in school and out. 
Improving the climate in schools and in after-school programs is as 
critical to advancing learning as is improving STEM courses.
    While a well-insulated pipeline will benefit all youth, it is 
particularly important for young people who are most in need: those 
entangled in the foster care and juvenile justice systems and young 
people facing poverty, unemployment, and dead ends. Not only are these 
young people more likely to be in low-performing schools, they are also 
more likely to be in struggling, under-resourced communities. Not only 
is their educational pipeline broken, but the layer of insulation is 
missing for them as well. For these young people in particular, we must 
ensure that ESEA supports the fully insulated educational pipeline. 
Thank you for your leadership and I look forward to your questions.
                                 ______
                                 
                              introduction
    Good afternoon Mr. Chairman and members of the committee. I thank 
you for your leadership on educating the whole child--focusing not only 
on the traditional education pipeline that links early childhood 
programs to schools, and schools to higher education, but also on the 
families and community organizations that insulate this pipeline.
---------------------------------------------------------------------------
    \1\ From ``Bringing Precision to Your Passion: A Quick Overview of 
the Ready by 21 Approach to Data-Driven Decision-Making.'' Forum for 
Youth Investment, Washington DC. (2010)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The first layer of insulation is the family, supported by a range 
of formal and informal organizations; this should include community-
based organizations that connect youth and families to critical 
supports and resources, as well as employers who provide students with 
opportunities to apply their learning, pursue their interests and build 
social capital. A second layer of insulation should ensure that young 
people have access to quality basic services that will allow them to 
successfully make their way through the pipeline--health care, 
transportation, housing, and financial supports. It is this dual focus 
on both the traditional educational pipeline and the layers of 
insulating family and community supports that will allow this 
legislation to truly be an Elementary and Secondary Education Act, as 
opposed to merely an Elementary and Secondary Schools Act.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Every parent knows that they cannot attend to only one aspect of 
their child's growth and ignore the others. Yet as policymakers, we too 
often forget what we know to be true as parents. We too often pick one 
area to focus on, such as test scores, and think we can succeed in this 
one area while ignoring the rest of our children's lives. We can't.
---------------------------------------------------------------------------
    \2\ Ibid.
---------------------------------------------------------------------------
    I have spent my career working to reconcile the wisdom of parents--
who tell us that we need to attend to the whole child--with the 
intricacies of public policy--which tells us we must focus, crafting 
narrow policies that seek to influence only one type of development or 
behavior at a time. I have done so from an academic perspective, as the 
founder of the Center for Youth Development and Policy Research at the 
Academy for Educational Development; I have done so from an 
international philanthropy perspective as Senior Vice President of the 
International Youth Foundation; and I have done so from a Federal 
policy perspective, as the director of the President's Crime Prevention 
Council, chaired by Vice President Gore, which brought together the 
Secretaries of all major Federal departments to forge an overarching, 
interagency approach to educating the whole child.
    Currently, as co-founder and president of the Forum for Youth 
Investment, I oversee the development and promulgation of the Ready by 
21 Strategy, which helps communities improve the odds that all youth 
will be ready for college, work and life. The Ready by 21 Strategy 
embodies a ``whole child'' or ``youth development'' approach to 
education. With effective local leaders and public structures like 
schools, community centers and libraries working together, communities 
can prepare a competitive workforce, strengthen social networks, 
support families and help all young people realize their potential. 
Using innovative strategic planning tools designed to maximize 
resources and developed by national experts, Ready by 21 mobilizes 
communities including State and local leaders to improve the odds for 
youth.
    Chief among these activities has been the formation of the Ready by 
21 National Partnership, a coalition of prominent organizations such as 
United Way Worldwide, Corporate Voices for Working Families, and the 
American Association of School Administrators--whose members 
collectively reach more than 1 million children and youth across the 
country. Each of the Ready by 21 National Partners delivers the Ready 
by 21 Strategy to their respective constituencies, helping their 
affiliates use the Ready by 21 Strategy to strengthen their work. My 
remarks today, however, are my own and do not necessarily reflect the 
positions of any other Ready by 21 National Partner or the Ready by 21 
National Partnership as a whole, which does not take official policy 
positions.
                            recommendations
    As the founder and president of an organization that helps 
communities across the country create Ready by 21 action plans to 
educate the whole child, I urge the committee to consider taking four 
steps that would facilitate this ``whole community'' focus.
Broaden the Definition of Student Outcomes
    Everywhere that the legislation calls for accountability for a 
specific narrow set of outcomes, such as literacy and math, I urge the 
committee to consider striking and replacing that language with a 
broader set of outcomes that incorporates ``21st century skills'' that 
students, parents, business and higher education professionals all 
agree are necessary to be ready for college, work and life. These 
skills have been well-documented by The College Board,\3\ the Search 
Institute,\4\ Harvard and MIT professors,\5\ the Partnership for 21st 
Century Skills,\6\ and the Gallup Organization,\7\ among others.
---------------------------------------------------------------------------
    \3\ In addition to their detailed standards that align with 
expectations for entrance into core content college level courses in 
English Language Arts, Science and Mathematics, the College Board's 
standards include practical skills such as critical thinking, 
collaboration, problem-solving and technology literacy that the Board 
believes are critical to success in any content area. College Board 
College Readiness Standards. http://professionals.collegeboard.com/k-
12/standards.
    \4\ Two decades ago, the Search Institute brought adolescent 
development research into the school building with the release of their 
Developmental Assets Survey which demonstrated a powerful, direct 
relationship between the number of assets in a young person's life, 
their involvement in pro-social or anti-social behaviors, and their 
attitudes and performance in school. Search Developmental Assets list. 
http://www.search-institute.org/content/40-developmental-
assets-adolescents-ages-12-18.
    \5\ In 1997, Murnane and Levy, the Harvard-MIT education-economics 
duo gained traction with the education and business leaders with the 
introduction of ``new basic skills.'' They identified three skill sets 
that young people need to succeed in the workplace--hard skills (e.g. 
mathematics, problem solving, and reading); soft skills (e.g. oral and 
written communications, team work) and information technology. Murnane 
and Levy, The New Basic Skills. http://www.infibeam.com/Books/info/
Richard-J-Murnane/Teaching-the-New-Basic-Skills/0684827395.html.
    \6\ In 2002, the Partnership for 21st Century Skills introduced 
skill sets that acknowledged the importance of: core subject matter 
content infused with 21st century themes; learning and innovation 
skills; information, media and technology skills, and life and career 
skills. The Partnership for 21st Century Skills. http://
www.21stcenturyskills.org/documents/P21_Framework.pdf.
    \7\ In 2008, the Gallup Organization introduced a student poll that 
measures students' hope, engagement and well-being. The Gallup Student 
Poll National Report. Dr. Shane Lopez. Gallup. 2009. http://
www.gallupstudentpoll.com/121019/Gallup-Student-Poll-National-
Report.aspx.
---------------------------------------------------------------------------
    We know that by any of these broader measures of success, young 
people are not doing well. At best, only 3 in 10 seniors are college-
ready.\8\ Only 4 in 10 high school graduates are work-ready.\9\ Up to a 
fourth of all students at 4-year colleges do not return for their 
second year of school.\10\
---------------------------------------------------------------------------
    \8\ College readiness rates are rising slowly, but the problem is 
huge. Only 23 percent of high school graduates who took the ACT in 2009 
scored as college-ready in all four core subjects. Earlier 
calculations, done by the Manhattan Institute for Policy Research based 
on calculations using graduation rates, high school transcripts and 
NAEP reading scores, found that one third of seniors ready, with white 
students almost twice as likely to be ready than African-American and 
Hispanic students.
    \9\ In 2007, Corporate Voices for Working Families, the Conference 
Board and other national business organizations surveyed over 400 
employers across industries to document the skills they expect in entry 
level workers and assess their satisfaction with high school graduates. 
Employers report that 4 in 10 high school graduates are grossly 
deficient in the necessary skills, all of which, were important skills 
in the 20th century.
    \10\ Dropout rates are particularly high for African-American, 
Hispanic and first-generation college students--as many as 30 percent 
of students will take at least one remedial class during their college 
years, according to national studies.
---------------------------------------------------------------------------
    Employers, while acknowledging the need for ``21st century 
skills,'' are not equipped to train in these areas. According to a 2009 
study by Corporate Voices for Working Families, 40 percent of the 
business respondents that offer some form of workforce readiness 
training have no on-the-job training to offer in these ``high need'' 
areas.\11\
---------------------------------------------------------------------------
    \11\ Corporate Voices for Working Families, July 2009 http://
cvworkingfamilies.org/publication-toolkits/ill-prepared-us-workforce-
exploring-challenges-employer-provided-workforce-read.
---------------------------------------------------------------------------
    We must ensure that young people are not only academically 
prepared, but also are prepared socially, physically, vocationally and 
civically. In general, the Blueprint for Reform: The Reauthorization of 
the Elementary and Secondary Education Act uses a narrow set of 
outcomes when setting the criteria for receiving major funding streams, 
and uses broad definitions of outcomes when setting the criteria for 
small competitive grants. The opposite should be true.
Formalize and Support the Roles of Families and Community Organizations
    ESEA is primarily about schools, teachers and principals. But to 
fully educate the whole child, it must also be about supporting 
families, community organizations and other public services (such as 
21st Century Learning Centers, Supplemental Educational Services and 
Parent Information and Resource Centers). This requires educators to 
overcome what Daniel Domenech, executive director of the American 
Association of School Administrators, refers to as the ``edifice 
complex.'' I urge the committee to ensure that these important 
institutions beyond schools are adequately funded, and that a broader 
set of professionals such as after-school providers and youth workers 
are invited to work in conjunction with teachers and principals to 
develop and implement quality improvement plans and accountability 
systems. Their commitment and expertise should earn them a seat at the 
planning table, not just a spot on the providers list. At the 
committee's hearing on teachers and leaders, critical questions were 
raised about how to measure and support quality teachers and 
principals. There is a parallel conversation underway in the 
afterschool field, with assessments and capacity building tools such as 
the Youth Program Quality Intervention having passed rigorous research 
scrutiny on measuring and improving the quality of youth workers. I 
urge the committee to ensure that the reauthorization includes not only 
a plan to improve the quality of teachers and principals, but youth 
workers as well.
Focus on Improving Both the Content and Context of Student Learning
    Everywhere the legislation addresses the need for better-qualified 
teachers and administrators, I urge the committee to define and measure 
not only their capacity to deliver content, but also their capacity to 
create classrooms, schools and communities where young people feel 
physically and emotionally safe, feel challenged and supported by peers 
and adults, and feel that they have opportunities to apply what they 
know. The quality of the learning environment is as important as the 
qualifications of the instructors--in school and out. Improving the 
climate in schools and afterschool programs is as critical to advancing 
learning as is improving STEM courses. The research is clear: the 
overall quality of the learning environment counts. When community 
after-school programs are sorted according to quality, the students in 
high-quality programs net significant gains in academic, social and 
emotional skills; the programs in low-quality programs show no gains. 
They might prevent pregnancy and violence, but they do not build 
skills. Quality is measurable; researchers can quantify school climate 
and classroom or afterschool programs quality. Quality is malleable; 
studies show that modest investments in quality improvement can net 
quick and lasting results. Quality matters if we are going to leverage 
the considerable investments already being made in school and community 
programs.\12\
---------------------------------------------------------------------------
    \12\ See, for example, Durlak, J.A. and Weissberg, R.P. (2007). The 
Impact of After-School Programs that Promote Personal and Social 
Skills. Chicago, IL. Collaborative for Academic, Social and Emotional 
Learning, and Smith, C., ET al. ``Continuous Quality Improvement in 
Afterschool Settings: Impact Findings from the Youth Program Quality 
Intervention Study,'' Spring 2010.
---------------------------------------------------------------------------
Infuse Youth Voice
    A wise 17-year-old once said:

          ``If you had a problem in the Black community, and you 
        brought in a group of White people to discuss how to solve it, 
        almost nobody would take that panel seriously. In fact, there'd 
        probably be a public outcry. It would be the same for women's 
        issues or gay issues. But every day, in local arenas all the 
        way to the White House, adults sit around and decide what 
        problems youth have and what youth need, without ever 
        consulting us.''

    He was right. Most education reforms involve everyone else--
teachers, principals, parents, afterschool program providers, business 
leaders--but when does anyone bring young people to the table? Young 
people have unique perspectives that make them essential to any reform 
process and ESEA should look for ways to engage young people as core 
partners in shaping and implementing educational reforms.
                               conclusion
    While a well-insulated education pipeline will benefit all youth, 
it is particularly important for young people most in need: those 
entangled in the foster care and juvenile justice systems and facing 
poverty, unemployment, and dead ends. Only half of all students of 
color graduate high school.\13\ Nearly 6 million youth (ages 16-24) are 
not in school and do not have a job.\14\ Researchers have identified 
the cohorts of youth who rarely make a successful transition to 
adulthood: 14-17-year-old adolescents that do not complete high school, 
are deeply involved in the juvenile justice system, are young, 
unmarried mothers, or are in a foster placement.\15\ Not only are these 
young people more likely to be in low-performing schools, they are also 
more likely to be in struggling, under-resourced communities. They are 
students who are least connected to the worlds of work or post-
secondary education, are more likely to delay the pursuit of a post-
secondary credential, more likely to spend college loans on remedial 
courses, more likely to leave college before completion. For these 
young people, ensuring that ESEA supports the fully insulated 
educational pipeline may be the only way we will get them through 
successfully.
---------------------------------------------------------------------------
    \13\ Harvard Civil Rights Project, http://
www.civilrightsproject.harvard.edu/news/press
releases/dropout05.php.
    \14\ Annie E. Casey Foundation, Kids Count Data Center, http://
datacenter.kidscount.org/.
    \15\ Urban Institute, http://www.urban.org/UploadedPDF/
411283_alternative_education.pdf.
---------------------------------------------------------------------------
    In the world of education policy, we tend to get tunnel vision. We 
think of the school system as a complete educational experience in and 
of itself--it is not. Education systems alone simply cannot provide the 
comprehensive supports necessary to succeed by themselves. Equality of 
schools alone does not guarantee equal educational opportunity. Schools 
are merely one aspect of a child's education, much of which occurs 
beyond the school doors, beyond the school day, and beyond the realm of 
academics. Equal opportunity for success requires equality of the 
education of the whole child. This requires legislation that goes 
beyond academics to include a full range of outcomes, beyond schools to 
strengthen a full range of institutions, and beyond teachers and 
principals, to ensure quality child care workers and youth workers.
    In conclusion, I commend the committee's efforts to incorporate a 
Ready by 21 whole child approach to ESEA. Above and beyond this work, 
the committee may find that forging a truly overarching approach to 
children and youth requires strategies which transcend any one 
particular piece of legislation. In my work at the International Youth 
Foundation, I studied numerous countries that have forged an 
overarching child and youth strategy that brought increased alignment 
and efficiencies to the myriad policies focused on children and youth. 
In addition to the work on ESEA, I would be delighted to explore with 
the committees opportunities like the Federal Youth Coordination Act 
which calls for the creation of such an overarching national strategy 
for children and youth.
    Thank you for your leadership and I look forward to your questions.

    The Chairman. Very good. Thank you very much, Ms. Pittman.
    Mr. Schwarz.

STATEMENT OF ERIC SCHWARZ, CO-FOUNDER AND CEO, CITIZEN SCHOOLS, 
                           BOSTON, MA

    Mr. Schwarz. Thank you, Mr. Chairman and members of the 
committee.
    I am with Citizen Schools, and for 15 years, we have been 
working with school districts, now 18 across the country--large 
communities, small communities, urban and rural--to 
dramatically expand the learning day, turning that 6- to 7-hour 
agrarian era schedule into a 9- to 10-hour learning day. And 
then filling up those extra hours with real-world learning 
opportunities, where kids get a chance to be producers and 
learn with experts from the community, as well as a skilled 
staff of second-shift educators.
    As one example, we worked last year across the country with 
100 engineers from Google, who had a chance to work with our 
middle school kids in the afternoon hours to actually design 
video games--not just play video games, but design video 
games--learning algebraic concepts in the process.
    The main point I would like to make today that the whole 
child approach is not sort of just a touchy-feely approach to 
making kids feel good. It is an essential element of driving up 
proficiency, of driving up graduation rates, of driving up 
college readiness.
    I want to illustrate that, just telling a brief story about 
one school in Boston, which is our home community, the Edwards 
Middle School. Four years ago, the Edwards Middle School 
struggled. It was the lowest performing middle school in the 
city. Only 17 families the previous year had chosen to send 
their kids to that school. It had a typical 6 hour and 20 
minute day.
    In a partnership with Citizen Schools, the school went from 
a 6 hour and 20 minute day to a 9 hour and 20 minute day. They 
became the first middle school in the city to have a football 
team and a dance program, but they also offered every kid 
through Citizen Schools four apprenticeships a year, academic 
coaching, an extra hour a day of academic coaching.
    That school went from worst to first in the last 3 years. 
It is now the highest-performing middle school in Boston. It 
has closed 80 percent of the achievement gap in science and 
English with State averages and created a reverse achievement 
gap in math. We think the Edwards is a leading example of what 
we can bring to the country, not just Citizen Schools, but 
other organizations on this panel partnering with schools to 
dramatically expand the learning day in a very high-quality 
way, focused on results.
    Thanks very much for the chance to speak with you today.
    [The prepared statement of Mr. Schwarz follows:]
                   Prepared Statement of Eric Schwarz
                                summary
    Chairman Harkin, Ranking Member Enzi, and members of the committee, 
I thank you for the opportunity to testify before the Committee on 
Health, Education, Labor, and Pensions on the important issue of 
educating the whole child, and for highlighting this issue through the 
reauthorization of the Elementary and Secondary Education Act (ESEA).
    Citizen Schools is a national afterschool and expanded learning 
time model that works directly with schools and school districts across 
the country. Through our program, thousands of adult volunteers are 
mobilized and trained by a second shift of educators (including 
AmeriCorps teaching fellows) to help improve student achievement and 
close the achievement gap for low-income students. We run programs in 
seven States, including: North Carolina, New Mexico, California, Texas, 
New Jersey, New York, and my own State of Massachusetts. Citizen 
Schools serves nearly 4,500 students annually. At Citizen Schools, we 
partner closely with high-need schools to expand the learning day and 
bring more time, more relevant learning, and more caring adults into 
the lives or our students. Our programs include:

    <bullet> 90-minute apprenticeships twice a week with professionals 
from the community who volunteer to give hands-on lessons to students 
on a wide variety of real world subjects.
    <bullet> 60-90 minutes of daily supervised homework and study time.
    <bullet> Weekly lessons targeting the specific educational needs of 
6th, 7th, and 8th graders to build study-skills and help them navigate 
middle school and prepare for high school and beyond.

    Citizen Schools is not just a solution to help raise student 
achievement. Through an extended school day our program engaged 
citizens and communities in the larger effort to meet the needs of the 
whole child. We hope our success can be replicated across the country 
to afford all students the benefits of quality afterschool programming 
and expanded learning time. As such, Citizen Schools is a strong 
supporter of the Time for Innovation Matters in Education (TIME) Act 
(S. 1410) and we hope these policies will be reflected in the 
reauthorization of ESEA.
    At Citizen Schools we view the education of the whole child as not 
simply an add-on to a student's education, but as essential to their 
development into productive adults. Our success in afterschool settings 
has led us to believe that all children in a school deserve well-
rounded supports and interventions in a re-imagined learning day. 
Edwards middle school in Massachusetts represents one clear example of 
how an expanded learning day helped turnaround one of the lowest 
performing middle schools in Boston. During a 3-year transformation 
effort the Edwards school restructured the school day to:

    <bullet> Add 35 percent more learning time;
    <bullet> Deeply engage outside community partners, including a 
strong leading partnership with Citizen Schools;
    <bullet> Focus relentlessly on academic instruction; and
    <bullet> Emphasize relevant, real-world learning activities and 
exposure to college and careers.

    As a result of this restructured school day and Citizen Schools' 
deep engagement, Edwards has achieved the following results:

    <bullet> 8th grade math proficiency increased from 12 percent to 56 
percent and ELA proficiency increased from 40 percent to 71 percent.
    <bullet> 6th grade math proficiency increased from 15 percent to 37 
percent and ELA proficiency increased from 27 percent to 49 percent.
    <bullet> Today the Edwards is the highest achieving middle school 
in Boston and 6th grade enrollment has tripled from 77 to 247 students.

    I am happy to answer any questions members of the committee may 
have, and, again, I thank you for the opportunity to share the Citizen 
Schools story with you.
                                 ______
                                 
    Chairman Harkin, Ranking Member Enzi, and members of the committee, 
I thank you for the opportunity to testify before the Committee on 
Health, Education, Labor, and Pensions on the important issue of 
educating the whole child, and for highlighting this issue through the 
reauthorization of the Elementary and Secondary Education Act (ESEA).
                         about citizen schools
    Citizen Schools is a national afterschool and expanded learning 
time model that works directly with schools and school districts across 
the country. Through our program, thousands of adult volunteers are 
mobilized and trained by a second shift of educators (including 
AmeriCorps teaching fellows) to help improve student achievement and 
close the achievement gap for low-income and minority students. We run 
programs in seven States, including: North Carolina, New Mexico, 
California, Texas, New Jersey, New York, and my own State of 
Massachusetts. Citizen Schools serves nearly 4,500 students annually. 
At Citizen Schools, we partner closely with high-need schools to expand 
the learning day and bring more time, more relevant learning, and more 
caring adults into the lives or our students.
    Citizen Schools is not just a solution to help raise student 
achievement. Through an extended school day our program engaged 
citizens and communities in the larger effort to meet the needs of the 
whole child. We hope our success can be replicated across the country 
to afford all students the benefits of quality afterschool programming 
and expanded learning time. As such, Citizen Schools is a strong 
supporter of the Time for Innovation Matters in Education (TIME) Act 
(S. 1410) and we hope these policies will be reflected in the 
reauthorization of ESEA.
    Citizen Schools programs directly complement classroom learning. 
Twice a week, students participate in apprenticeships led by 
professionals from the community who volunteer their time to give 
hands-on lessons in subjects ranging from business and finance, 
government and law, science technology, engineering and math, to arts 
and culture. At the end of each semester students present a portfolio 
of work developed through their apprenticeships in community sponsored 
WOW! events. Each year over 4,000 volunteer Citizen Teachers are 
engaged in our 37 sites.
    Citizen Schools' educators also supervise 60 to 90 minutes of daily 
homework and study time (4 days per week). Weekly lessons target the 
specific educational needs of 6th, 7th, and 8th graders and build the 
skills to help them navigate middle school and prepare for high school 
and beyond.
    For additional targeted support, Citizen Schools 8th Grade 
Academies provide intensive programming for 8th grade students. In 
these academies students make the connection between current learning 
and future opportunity. Citizen Schools helps these students analyze 
high school choices, visit college campuses, and take the necessary 
actions to make sure a college track is accessible and affordable. A 
long-term evaluation reports that Citizen Schools' 8th Grade Academy 
students are far more likely to graduate from high school in 4 years 
than the average for their district, despite starting middle school 
behind their peers.
    Our campuses are typically staffed by three sets of educators. 
First, the Campus Director works with school administrators and 
teachers to change school cultures, interface with the community, set 
the instructional vision for the campus, and lead our teams of 
educators. Second, our Team Leaders (many of whom are full-time 
Teaching Fellows, supported by AmeriCorps), work closely with targeted 
groups of students to raise student achievement in core subject areas. 
Lastly, our volunteer Citizen Teachers work to engage the students in 
learning through apprenticeships.
    We view our job as the education of the whole child, not simply as 
an add-on to a student's school day. This time is essential to the 
development of productive adults. Our success in afterschool settings 
has led us to see that all children in a school deserve these supports 
and interventions in a re-imagined learning day. It is our hope that 
Citizen Schools' success can serve as a model for other States and 
school districts looking to effectively expand the school day.
   the edwards middle school--an elt school turnaround success story
    Today, as one example of how Citizen Schools has helped turnaround 
a struggling school, I want to share with you the incredible story of 
how expanding learning time helped transform Boston's Edwards Middle 
School. Three and a half years ago, the Edwards--a school that serves 
90 percent low-income students in a tough neighborhood--was failing. 
Its test scores placed the school at or near the bottom in rankings 
with other schools in the city. Edwards scored 30-40 percentage points 
below the State average for proficiency. The school wasn't attracting 
any new students. Only 77 6th graders enrolled at the Edwards 3 years 
ago, and just a handful of them had actually chosen to do so. By most 
accounts, the school was a year from closing its doors. Today the 
Edwards is the highest achieving middle school in Boston and 6th grade 
enrollment has tripled to 247 students.
    Through this transformation effort Edwards has doubled and tripled 
its students' proficiency rates, increased students' engagement in 
learning, and added more academic enrichment. The most dramatic gains 
have been achieved by 8th graders, who have participated in the 
expanded learning time model for 3 years. Eighth grade math proficiency 
increased from 12 percent to 56 percent and English Language Arts 
proficiency increased from 40 percent to 71 percent. Edwards' 8th 
graders are out-performing the State average in math proficiency--in a 
State that leads the Nation in academic achievement. Among 6th graders, 
math proficiency more than doubled--from 15 percent in 2006 to 37 
percent in 2009--and English Language Arts proficiency jumped from 27 
percent to 49 percent. This school has essentially reversed the 
achievement gap.
    How has the Edwards done it? The Edwards school has restructured 
the school day to:

    <bullet> Add 35 percent more learning time;
    <bullet> Deeply engage outside community partners, including a 
strong leading partnership with Citizen Schools;
    <bullet> Focus relentlessly on academic instruction; and
    <bullet> Emphasize relevant, real-world learning activities and 
exposure to college and careers.

    As the Nation struggles to turn around low-performing schools--
particularly middle schools where early indicators show the first signs 
of the dropout crisis--Edwards demonstrates the importance of 
effectively using additional time. To meet the needs of the whole child 
and keep each student on the achievement track more time is a key 
variable.
    Three years ago the Edwards undertook an intensive redesign process 
to implement an expanded learning time (ELT) model. It made some key 
decisions that distinguished it from most other Expanded Learning Time 
schools. The Edwards' faculty and staff:

    <bullet> Added a full 3 hours of extra learning time Monday through 
Thursday and made Friday a shorter day to allow for joint professional 
development of teachers and outside partners. The Edwards added 
approximately 380 hours of learning, significantly above the State's 
requirement of 300 additional hours for ELT schools;
    <bullet> Forged a partnership with Citizen Schools and empowered 
our staff and volunteer Citizen Teachers to run all extra learning time 
for all 6th graders. Citizen Schools and other community partners 
worked to expand the menu of academic and enrichment activities for 7th 
and 8th graders;
    <bullet> Organized joint professional development and shared 
curriculum planning for teachers and outside partners, and used Citizen 
Schools' staff as a pipeline to fill administrative and faculty 
positions and to serve as substitute teachers;
    <bullet> Focused on math reinforcement through hands-on lessons for 
1 extra hour each day across all grades. These lessons were led by 
Citizen Schools' young educators (generally recent college graduates) 
and by school-day teachers;
    <bullet> Focused on relevant, fun learning activities and exposure 
to careers and colleges through apprenticeships taught by professionals 
from the community (trained and coached by Citizen Schools' staff). 
Older students also had access to cheerleading, dance, music, and 
athletic programs, including the city's only middle school football 
team; and
    <bullet> Enrolled a portion of the 8th grade class in an 8th Grade 
Academy, led by Citizen Schools. These students visited 10 college 
campuses while also learning about high school options and coaching 
their classmates on the best pathways to high school success and 
college and career readiness.
                    expanded learning time done well
    Expanded learning time holds great promise for American education. 
The transformation of the Edwards School demonstrates that ELT--if well 
designed and well implemented--can advance achievement and expand 
opportunity for low-income students. Citizen Schools is eager to work 
with school and district partners who have an appetite for change and 
who are ready to meet the substantial challenges of implementing ELT 
well. As Congress considers expanded learning time in the 
reauthorization of the Elementary and Secondary Education Act, high-
quality ELT should include:

    1. A substantial increase (at least 30 percent more) in total 
learning time, and enroll all, or a large portion (such as a whole 
grade level), of a school in the ELT schedule.
    2. Engaging talented outside educators and strong community/
nonprofit partners to complement traditional instruction and allow 
these providers to take lead responsibility for instruction for large 
chunks of the longer learning day. School principals should have the 
flexibility to form instructional teams comprising current teachers and 
nonprofit partners to meet the needs of students and improvement 
engagement and results.
    3. Including small-group academic coaching that is aligned with and 
supports the core academic subjects. Ideally, ELT programs will add a 
minimum of 60 minutes of small-group academic instruction per day at 
least 4 days per week.
    4. Offering relevant enrichment activities with embedded academic 
exercises to engage the interest of students, capitalizing on the 
special opportunities that an expanded schedule allows. Ideally, ELT 
programs will add a minimum of 90 minutes of enrichment per day at 
least 4 days per week to allow for deep learning and enrichment 
experiences such as hands-on apprenticeships connected to career 
opportunities, theater, arts and music activities, and participation on 
sports teams.
    5. Taking special note of students who are transitioning from 
elementary to middle school or from middle school to high school, and 
support these transitions through ELT activities.
   our afterschool and elt models replicate success across the nation
    While today I focused on our work at Edwards middle school in 
Massachusetts, we have seen similar student achievement results in our 
other sites across the country. Throughout all of our program sites, 
our students grades have improved, our partnerships with schools and 
districts have grown, we have engaged thousands of families on a 
regular basis to integrate them more fully into the school community, 
and we have mobilized thousands of professionals to bring the science, 
the law, engineering, the arts, finance, and many other disciplines 
into the classroom. Our goal is always to bring learning alive for our 
students. Our alumni are succeeding in and graduating from high school, 
attending college, and entering the world with knowledge, skills, and 
self confidence.
    We appreciate the committee's leadership on these important issues 
and look forward to working with you to expand quality afterschool and 
expanded learning time opportunities for students as ESEA 
reauthorization moves forward. I am happy to answer any questions 
members of the committee may have, and, again, I thank you for the 
opportunity to share the Citizen Schools story with you.


                               APPENDICES

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you very much, Mr. Schwarz.
    I have to ask you more about that 9- to 10-hour learning 
day. Do the students get physical exercise and nutrition and 
all that kind of stuff? We will get further into that during 
the discussion.
    Dr. Sugai.

STATEMENT OF GEORGE SUGAI, Ph.D., PROFESSOR AND CAROLE J. NEAG 
 ENDOWED CHAIR, POSITIVE BEHAVIOR INTERVENTIONS AND SUPPORTS, 
                           STORRS, CT

    Dr. Sugai. Good morning, Mr. Chairman and members of the 
committee. Thank you very much for this opportunity to share 
with you a little bit of thoughts about the whole child, the 
whole student.
    I am also co-director of the National Center on Positive 
Behavioral Supports, which is funded by the Office of Special 
Ed Programs and the Department of Education. We have been 
really fortunate to be able to contact and touch about 11,000 
schools across the country. Some from Minnesota and Colorado 
and Georgia, as well as from your own State of Iowa.
    What we have learned from that particular experience over 
the last 13 years is a couple of points I would like to make, 
and that reinforces what you said about the whole student and 
also all students as part of that. We have learned that it is 
very important to think about the interaction between effective 
instruction and positive behavioral supports for all kids.
    The good thing about that is, we know much about the 
technology that is needed to promote those positive social 
outcomes. I think one of the challenges we have, however, is 
how to ensure the infrastructure that people can implement 
those practices with high quality as well as durability. 
Because we can start something, but if it doesn't last past the 
90-day warrantee, we are in trouble with respect to the impact 
on kids.
    Some things we have learned at the center that have been 
helpful to us thinking about high quality and durability are 
some points I want to make about policy, and that is I think we 
need to be thinking about how we use flexible funding across 
all the different initiatives that are represented here to 
support all stakeholders, meaning students, families, 
communities, mental health, and so forth. We also, I think, 
need to think about data systems that allow us to measure 
really important educational outcomes not only for kids, but 
also for the schools that provide those services.
    Another thing I want to mention is that this whole notion 
about professional development, and what we are learning from 
there is that it needs to be a deliberate effort. It needs to 
be integrated. Our one-shot in-service models have not been 
very successful in changing how schools practice, and we are 
really thinking about what does that need to look like in the 
context of the whole student?
    The last piece I wanted to mention about the policy side is 
that we probably need to continue this notion of engaging in 
research and documents, what the impact of our work is and 
whether or not it is working.
    I would like to finish with four questions that we always 
like to use as a way to judge what we do. The first question 
is, do the students really benefit from our activities? If we 
can't answer that question, we really need to make a decision 
about what we are investing in.
    The second part that we need to ask is whether or not we 
are using the most effective practices to achieve those 
outcomes. I am not sure we have that link yet in a formalized 
way.
    Third question is are we creating the systematic supports 
needed to enable schools, families, and communities to work 
together to implement those practices, like I said before, with 
durability.
    And finally, the last question is are we collecting the 
data, as was mentioned earlier, that allows us to answer the 
previous three questions?
    I think if we do all those four or answer those four 
questions well, we should be able to address the needs of the 
whole student and, as I like to argue as a special educator, 
all students.
    I would be happy to entertain more questions around that at 
a later time.
    Thank you.
    [The prepared statement of Dr. Sugai follows:]
               Prepared Statement of George Sugai, Ph.D.
    Purpose Statement. The purpose of this testimony is to endorse 
efforts within the ESEA Reauthorization that:

    1. Authorize flexible education funding (e.g., title I) for local 
education agencies to improve school-wide climate with prevention-based 
approaches, like school-wide positive behavior support (SWPBS).\1\
---------------------------------------------------------------------------
    \1\ SWPBS is a comprehensive framework for enhancing implementation 
of evidence-based practices and interventions to achieve meaningful 
academic and behavioral outcomes for all students.
---------------------------------------------------------------------------
    2. Increase school-based mental health funding to encourage (a) 
collaboration with community mental health agencies and (b) 
implementation of prevention-based approaches, like SWPBS.
    3. Extend scope and funding for comprehensive implementation 
coordination and technical assistance to States and schools (e.g., OSEP 
National Center on Positive Behavioral Interventions and Supports).
    4. Establish policy for more positive and preventive approaches to 
substantially decrease the use of highly aversive procedures, like 
restraint and seclusion.
    5. Give priority to school practices and systems that are data-
driven, evidence-based, outcome-oriented, and supported to be 
implemented with high integrity.
    6. Collect and report at least annually school-level data on 
discipline, disaggregated by ESEA subgroups (race, gender, special 
education, SES, English learner status) to guide local decisionmaking 
regarding State and district technical assistance and the adoption of 
prevention-based approaches when high rates and/or disparities are 
noted.
    7. Increase family involvement in and contributions to establishing 
effective teaching and learning environments for all students.
    8. Promote effective and relevant professional development, 
technical assistance, and implementation approaches that give priority 
to (a) evidence-based practices, (b) data-based decisionmaking and 
evaluation, (c) measurable and meaningful outcomes, (d) continuous 
training and coaching, (e) sustained and accurate local implementation, 
(f) continuous improvement and regeneration, and (g) culturally and 
contextually appropriate practices and implementation.
    Rationale. These endorsements are important because:

    1. Meeting the needs of the ``whole student'' requires 
consideration of the academic and social behavioral success of all 
children and youth.
    2. Academic and social behavioral successes are inextricably 
intertwined.
    3. Prevention-based (teach, prompt, monitor, acknowledge) 
approaches are more effective and durable than reactive ``get-tough'' 
(punishment) methods.
    4. Individual student success is linked to classroom and school-
wide environments that are positive, preventive, predictable, engaging, 
respectful, responsible, and safe.
    5. Sustained, effective, and comprehensive implementation capacity 
(e.g., training, coaching, evaluation, expertise, coordination) is 
needed to maximize the impact of acquired knowledge and skills.
    6. Long-term systemic supports are needed at the Federal, State, 
and local levels to achieve meaningful improvements at the classroom 
and individual student levels.
    7. General and special education should be operating as ``one-for-
all'' rather than as competing priorities and mandates so the (a) needs 
of the whole student are addressed, (b) all students can be successful, 
and (c) students with disabilities can receive specially designed 
instruction and behavior supports.
    8. More competent, effective, and relevant teaching and learning 
environments are associated with classroom and school climates that are 
more culturally and contextually appropriate for all students, 
families, and communities.
    Outcomes. If we give priority to important student outcomes, 
evidence-based practices, data-based decisionmaking, and efficient 
implementation systems, we should expect:

    1. Improved student attendance, engagement, and completion.
    2. Improved resource utilization for accurate, sustained, and 
systemic implementation of evidence-based practices and systems.
    3. Increased teacher instructional time and student academic 
engagement and opportunities to learn.
    4. More respectful, responsible, and safe student behavior at the 
individual student, classroom, and school-wide levels.
    5. Decreased rates of problem behavior and use of reactive behavior 
management practices (e.g., in-school detention and out-of-school 
suspensions).
    6. Improved implementation of academic and social behavior supports 
for students who have characteristics that might place them at high 
risk for academic or social behavior failure.
    7. Improved academic achievement in basic, core, and specialized 
content areas.
    8. Enhanced family and community satisfaction and relations.

    The Chairman. Thank you, Dr. Sugai.
    Ms. Greene.

   STATEMENT OF JAMIE GREENE, PRESIDENT, RHODE ISLAND SCHOOL 
                LIBRARY ASSOCIATION, WARREN, RI

    Ms. Greene. Mr. Chairman and members of the committee, 
thank you for the opportunity to talk about our Nation's school 
libraries.
    Mr. Chairman, thank you for introducing the Keep Our 
Educators Working Act. I hope this allows school librarians to 
continue to teach their students. In fact, I have received my 
layoff notice.
    Let me also say a special thank you to Senator Jack Reed.
    I ask that my full remarks be made part of the record.
    School libraries serve as a hub for all literacies and 
learning in our Nation's schools. Research indicates a well-
funded and fully staffed school library with a State-licensed 
school librarian is crucial to preparing graduates for college, 
career, and life, educating the whole student to read, succeed, 
and achieve in any 21st century school.
    For countless students, school libraries are the only place 
where they have access to high-quality, multi perspective 
information and technology. School librarians teach the skills 
of how to draw conclusions or create new knowledge and share 
that knowledge with others. Yet with increasing frequency, we 
seem to be left behind in funding and policy debates at the 
national, State, and local levels.
    I asked my students to be the voice of students throughout 
the country. Pearse Adams had this to say.

          ``The library is a place of not only books, but 
        opportunities. The library contains not only shelves, 
        but imagination. The library is a battery with many 
        circuits connected to it. These circuits are people, 
        places, or things in a town. The library powers these 
        circuits and keeps the town, city, or even country 
        running. Without libraries, our lives would be a puzzle 
        with pieces missing, a riddle unsolved.''

    Here are four concrete steps to take now. First, amend 
title I and the Race to the Top fund to establish a State goal 
of having a school library staffed by a State-licensed school 
librarian in each public school.
    Second, maintain dedicated funding for the Improving 
Literacy through School Libraries program.
    Third, allow State and local professional development funds 
to be used for recruiting and training school librarians.
    Fourth, include libraries in any legislation you consider 
for education, training, or jobs.
    Thank you. And remember, to educate the whole student, 
children need school libraries and licensed school librarians.
    [The prepared statement of Ms. Greene follows:]
                   Prepared Statement of Jamie Greene
                                summary
    School libraries serve as a hub for all literacies and learning in 
our Nation's schools. Research proves a well-funded and fully staffed 
school library with a State-licensed school librarian is crucial to 
preparing graduates for college, career and life, educating the ``whole 
student'' to read, succeed and achieve in any 21st century school.
    To thrive in our global society, students need to be effective 
users of ideas and information. They must be able to access high-
quality, multi-perspective information, make sense of it, draw 
conclusions or create new knowledge, and share their knowledge with 
others. These are precisely the learning opportunities provided by 
licensed school librarians.
    For countless students, school libraries are the only place where 
they have access to quality books, electronic resources, to the 
Internet, and to technology programs. School librarians provide the 
only instruction in multiple literacies, including digital, visual, 
textual and technological. School librarians teach the skills and 
foster the attitudes and responsibilities learners need for critical 
and creative thinking, communication and problem solving.
    Yet, with increasing frequency, we seem to be ``left behind'' in 
funding and policy debates at the national, State, and local levels. 
Our school libraries are unable to update their collections or provide 
expanded access to resources because many licensed school librarians 
have been laid off and some schools have even closed their libraries. 
Sadly, the schools in economically disadvantaged neighborhoods are the 
most affected.
    Simply put, children need equal access to school libraries, and 
they need State-licensed librarians.
    America's school librarians understand these are tough economic 
times, but we believe there are four concrete steps you can take now to 
ensure that all students have access to school library programs:

    1. First, amend title I and the Race to the Top fund to establish a 
State goal of having a school library staffed by a State-licensed 
school librarian in each public school.
    2. Second, maintain dedicated funding for the Improving Literacy 
Through School Libraries program.
    3. Third, allow State and local professional development funds to 
be used for recruiting and training school librarians who are essential 
personnel to improve student academic achievement.
    4. Finally, please include libraries in any legislation you 
consider dealing with education, training, or jobs.
                                 ______
                                 
    Mr. Chairman and members of the committee--thank you for the 
opportunity to tell you about the wonderful things happening in our 
Nation's school libraries. Let me also say a special thank you to 
Senator Jack Reed, our State's senior Senator and, may I also add, the 
favorite Senator of librarians across the Nation. I ask that my full 
remarks be made part of the record.
    Since I only have a short time, I'd like to get right to the point. 
School libraries serve as a hub for all literacies and learning in our 
Nation's schools. Research proves a well-funded and fully staffed 
school library with a State-licensed school librarian is crucial to 
preparing graduates for college, career and life, educating the ``whole 
student'' to read, succeed and achieve in any 21st century school.
    Working collaboratively to provide cost-effective, data-driven 
educational solutions, Rhode Island Commissioner of Elementary and 
Secondary Education highlights the vital role of school librarians in 
the following quote:

          ``Tomorrow's graduates must be able to solve problems, think 
        for themselves, learn independently, and find accurate and 
        reliable information from among the millions of sources 
        available to them at the click of a mouse. Students learn these 
        valuable skills in school libraries and through effective 
        library-media programs. We must continue to support these 
        programs, which play a vital role in education today.''

    To thrive in our global society, students need to be effective 
users of ideas and information. They must be able to access high-
quality, multi-perspective information, make sense of it, draw 
conclusions or create new knowledge, and share their knowledge with 
others. These are precisely the learning opportunities provided by 
licensed school librarians.
    Accordingly, it should come as no surprise that our school 
libraries are being used now more than ever. In 2009, the American 
Association of School Librarians found that for each licensed school 
librarian, the average number of individual student visits per week to 
the school library was over 300 and groups visited nearly 30 times each 
week.
    For countless students, school libraries are the only place where 
they have access to quality books, electronic resources, to the 
Internet, and to technology programs. School librarians provide the 
only instruction in multiple literacies, including digital, visual, 
textual and technological. School librarians teach the skills and 
foster the attitudes and responsibilities learners need for critical 
and creative thinking, communication and problem solving.
    The simple fact is that children in schools need libraries, both 
school and public, and they need licensed librarians to provide access 
and instruction to evaluate information and resources.
    A Bill and Melinda Gates Foundation study, ``Primary Sources: 
America's Teachers on America's Schools'' released in 2010, reported 
that 83 percent of K-12 teachers say the No. 1 place students get books 
for their independent reading is at the school library.
    To most Americans, the importance of school libraries seems to be 
something that almost goes without saying. In fact, I have yet to come 
across anyone, anywhere who actually opposes school libraries--or for 
that matter, libraries of any type. In a January 2009 telephone survey 
by KRC Research, 97 percent of Americans agree school library programs 
are an essential part of the education experience because they provide 
resources to students and teachers. Ninety-two percent agreed that 
school libraries are a good value for their tax dollar.
    Yet, with increasing frequency, we seem to be ``left behind'' in 
funding and policy debates at the national, State, and local levels. 
Our school libraries are unable to update their collections or provide 
expanded access to resources because many licensed school librarians 
have been laid off and some schools have even closed their libraries. 
Sadly, the schools in economically disadvantaged neighborhoods are the 
most affected.
    The NCES School and Staffing Survey Report shows that the number of 
full-time licensed school librarians significantly decreased since 
2003. The American Association of School Administrators is reporting 
that 10 percent of Administrators had to cut school librarians in 2009-
2010, and that an additional 19 percent would be cutting librarians in 
2010-2011. For example, Iowa has lost 23 school librarian positions in 
this past year alone.
    We find ourselves in this predicament not because of outright 
opposition, but more as a result of pre-occupation with other, 
perceived to be more pressing, issues. But the fact remains that all 
students need equal access to the books, technology and instruction 
available through well-funded, fully staffed school libraries. To help 
ensure this equal access, libraries must be specifically included in 
new education programs such as the Race to the Top, and critical, 
dedicated funding must be maintained in programs like Improving 
Literacy Through School Libraries.
    I think researcher Douglas Achterman put it best in a 2008 
California study on school libraries,

          ``It is more than ironic that school districts are willing to 
        spend hundreds of thousands of dollars on reading programs and 
        staff development which have had limited success in boosting 
        test scores, but are unwilling to invest in school library 
        programs that show such direct correlations to student 
        success.''

    Simply put, children need equal access to school libraries, and 
they need State-licensed librarians.
    I asked my students to be the voice of students throughout the 
country. One of my fifth grade students, Pearse Adams had this to say 
about why school libraries are essential:

          ``The library is a place of not only books, but 
        opportunities. The library contains not only shelves, but 
        imagination. Many researchers use books from a library to 
        create wonderful writings, speeches or programs. Without the 
        libraries in our Nation, there would be no Harry Potter, there 
        would be no adventure, no genre, no splash of color in the 
        world of humans. Without librarians that dedicate their 
        precious time, there would be no guidance to help you find a 
        good book. Libraries can serve as a place for books, or much 
        more! The library is a battery with many circuits connected to 
        it. These circuits are people, places or things in a town. The 
        library powers these circuits and keeps the town, city, or even 
        country running. The library is like a support pole, without it 
        the town will fall over. The library keeps the town steady, 
        running and peaceful. Without libraries our lives would be a 
        puzzle with pieces missing, a riddle unsolved.''

    America's school librarians understand these are tough economic 
times, but we believe there are four concrete steps you can take now to 
ensure that all students have access to school library programs:

    1. First, amend title I and the Race to the Top fund to establish a 
State goal of having a school library staffed by a State-licensed 
school librarian in each public school. To make sure this happens, 
ensure that this goal is validated through accountability performance 
measures that include baseline data and annual reporting on progress in 
each of these programs.
    2. Second, maintain dedicated funding for the Improving Literacy 
Through School Libraries program. This program works (but in 2009, 
there were 450 qualified applications and only enough funding for 57 
grants). It helps to improve student learning by providing up-to-date 
school library materials; well-equipped, technologically advanced 
school library media centers; and well-trained, certified school 
librarians to provide access and instruction to these resources.
    3. Third, allow State and local professional development funds to 
be used for recruiting and training school librarians who are essential 
personnel to improve student academic achievement.
    4. Finally, please include libraries in any legislation you 
consider dealing with education, training, or jobs.

    Thank you, Mr. Chairman, for inviting me here today. And remember: 
To ensure that all children read, succeed and achieve, and to educate 
the ``whole student,'' children need school libraries and licensed 
school librarians.

    The Chairman. Thank you very much, Ms. Greene.
    Now we will hear from Ms. Struck from the Price Lab.

  STATEMENT OF CLARE STRUCK, ELEMENTARY COUNSELOR, PRICE LAB 
                    SCHOOL, CEDAR FALLS, IA

    Ms. Struck. Thank you, Mr. Chairman, and members of the 
committee, for this opportunity to speak on behalf of the 
students and staff of Price Laboratory School, as well as the 
170,000 educational leaders from ASCD.
    Pupil services providers are vital to fostering and 
sustaining a school culture that embraces the five tenets of 
the ASCD Whole Child Initiative--healthy, safe, engaged, 
supported, and challenged.
    The next ESEA reauthorization must include a more student-
centered, educator-supporting, instruction-driven model focused 
on teaching, learning, and meeting the needs of all students, 
both in and out of school. PLS embraces this whole child model 
and has seen tremendous results.
    As an elementary school counselor, I provide pupil services 
in four main areas--curriculum, individual student planning, 
responsive services, and system support. Examples of my 
responsibilities include developing and implementing a 
standards-base guidance curriculum, consulting with students' 
families and teachers to develop and implement differentiated 
learning plans, responding to the immediate needs of students 
through counseling, and referrals to appropriate agencies, 
helping to integrate school counseling in the school 
improvement process using the Iowa school counseling framework 
that is based upon the ASCA comprehensive model.
    The two biggest barriers to providing pupil services are 
the student-to-counselor ratio and the assignment of 
noncounseling duties. Nationally, the ratio is 460 to 1 and up 
to 1,000 to 1 in the rural and high-poverty areas. These 
numbers are far too high to adequately support students. The 
other impediment is the performance of noncounseling duties, 
such as substitute teaching, discipline, and filling in for 
principals when they are away.
    We appreciate all of your work, Chairman Harkin, on behalf 
of the whole child. We at Price Lab are so proud of you for 
being the first recipient of the Whole Child Leadership Award 
in 2006 and want to thank you for being such a champion for the 
interests of children not just in Iowa, but across the Nation.
    Pupil services providers can be the constant force in 
developing and maintaining a positive school climate and a 
culture of caring where all students feel connected and safe 
and able to learn, which facilitates greater student 
achievement and academic proficiency. Indeed, children who are 
hurting, hungry, scared, or disengaged cannot learn to the best 
of their abilities. We must recognize and address these needs 
if we are to have any hope of educating all students to 
academic proficiency.
    I hope you, your colleagues, and other national leaders 
will join with me and educators across the country to ensure 
that each child is healthy, safe, engaged, supported, and 
challenged.
    Thank you.
    [The prepared statement of Ms. Struck follows:]
                   Prepared Statement of Clare Struck
    Chairman Harkin, Ranking Member Enzi, and members of the committee, 
my name is Clare Struck and I am an elementary school counselor at the 
Malcolm Price Laboratory School in Cedar Falls, IA. Thank you for this 
opportunity to speak on behalf of the students and staff of the Price 
Laboratory School (PLS) as well as the 170,000 educational leaders who 
are members of ASCD. I appear before you today as a mother, an 
educator, and a strong advocate committed to meeting the needs of the 
whole child. It has been my life's work and the work of the Price 
Laboratory School to provide all of our children--from 6 weeks of age 
through high school--with a whole child education; one that ensures 
that they are healthy, safe, engaged, supported, and challenged.
    Before I begin, I want to acknowledge Chairman Harkin's work on 
behalf of the whole child. Throughout the course of your career in the 
House and Senate, you have been a staunch champion on issues affecting 
our children--everything from the foods they eat to the quality of the 
education they receive and the school buildings in which they learn. We 
at Price Lab were proud of your being chosen as the first recipient of 
the Whole Child Leadership Award in 2006. In accepting the award, you 
said,

          ``Educators, parents, and children rely on Congress to fund 
        education initiatives that will help our kids reach their full 
        potential. With help from organizations like ASCD, I am 
        confident we can persuade the Senate to meet this 
        responsibility. After all, there is no better investment we can 
        make than developing the minds of our children.''

    Thank you, Chairman Harkin, for your efforts on behalf of the whole 
child, not just in Iowa but across the Nation.
    I am also pleased to note that Price Laboratory School was awarded 
the first ever Vision in Action: The ASCD Whole Child Award in March 
2010 because of our efforts aimed at ensuring that all of our preK-12 
students are healthy, safe, engaged, supported, and challenged.
    As Congress begins work on the reauthorization of the Elementary 
and Secondary Education Act (ESEA), it is critical that the current 
overemphasis on standardized tests, punitive accountability systems, 
and rigid mandates be replaced by a more student-centered, educator-
supporting, instruction-driven model focused on teaching and learning 
and meeting the needs of all students, both in and out of school. We at 
PLS have embraced this model of providing a whole child education to 
all our children and have seen tremendous results.
    The Price Lab School is a preK-12 public school that is part of the 
College of Education at the University of Northern Iowa (UNI). PLS is 
home to 369 students, 53 faculty, and seven support personnel. The 
population is 71.5 percent Caucasian, 18 percent African-American, 6 
percent Asian American, 4 percent Hispanic American, and .5 percent 
Native American. Students with disabilities make up 7 percent of our 
population. Eighteen percent of our students qualify for free or 
reduced lunch prices. The majority of PLS students reside in Cedar 
Falls and 32 percent of our students attend through the State's open 
enrollment policy.
    PLS is accredited by the North Central Association Commission on 
Accreditation and School Improvement (NCA CASI) by meeting the high NCA 
standards for academic programs, learning materials, student needs, 
student interests, staffing, and facilities. PLS also works closely 
with the Iowa Department of Education to ensure that the PLS students 
and the UNI teacher education students experience the academic and 
character education standards required or recommended for the schools 
of Iowa.
    In May 2009, the Price Laboratory School was designated Iowa's 
first statewide Research & Development (R&D) School. As such, PLS 
creates innovative curriculum and evaluates promising instructional 
practices to support Iowa's 472,000 K-12 students and 34,600 full-time 
K-12 teachers.
                       the whole child initiative
    In 2006, ASCD convened the Commission on the Whole Child--a group 
composed of leading thinkers, researchers, and practitioners. It was 
charged with the redefining of a successful learner from one whose 
achievement is measured solely by academic tests to one who is 
knowledgeable, emotionally and physically healthy, civically inspired, 
engaged in the arts, prepared for work and economic self-sufficiency, 
and ready for the world beyond formal schooling. The Commission issued 
a call to action for educators, parents, businesses, health and social 
service providers, arts professionals, recreation leaders, and 
policymakers to forge a new compact with our children to ensure their 
whole and healthy development--a compact that strives to develop the 
whole child.
    A whole child is intellectually active; physically, verbally, 
socially, and academically competent; empathetic, kind, caring, and 
fair; creative and curious; disciplined, self-directed, and goal-
oriented; free; a critical thinker; confident; cared for; and valued. 
This is the goal of a whole child education. The Whole Child Initiative 
is built upon five basic tenets:

    1. Each student enters school healthy and learns about and 
practices a healthy lifestyle.
    2. Each student learns in an intellectually challenging environment 
that is physically and emotionally safe for students and adults.
    3. Each student is actively engaged in learning and is connected to 
the school and broader community.
    4. Each student has access to personalized learning and is 
supported by qualified, caring adults.
    5. Each graduate is challenged academically and prepared for 
success in college or further study and for employment in a global 
environment.

    Over the course of the last year, whole child advocates across the 
country have been working to spread the word about the need to provide 
each child with a whole child education. Several States have petitioned 
their State boards of education and State legislatures to adopt a 
resolution acknowledging the need to educate the whole child. I am 
excited to report that just this month, Senator Kay Hagan introduced S. 
Res. 478 designating March as National Whole Child Month and 
recognizing that making sure all children are healthy, safe, engaged, 
supported and challenged should be a national priority. We thank 
Senator Hagan for her efforts and ask that all of the members of this 
committee join us in our efforts to make the passage of this whole 
child resolution a reality.
                     why focus on the whole child?
    PLS has a longstanding tradition of focusing on the whole child, 
much of it delivered through the nuances of our school's climate and 
culture. Faculty, staff, students, and families alike foster an 
environment that promotes intellectual challenge, high standards of 
character, and the development of the whole child. This culture of 
support has been developed over many years, but can be traced to some 
specific catalysts.
    Our school improvement process, NCA CASI, has a significant history 
of focusing not only on our students' academic goals but also on whole 
child goals. As part of this process, one of the areas our school chose 
to focus on in 1999-2000 was school climate. This decision was based 
upon a wide assortment of student, parent, and staff data. Using the 
data analysis from the 1999 and 2002 National Study of School 
Evaluation Teacher Opinion Surveys, the 1999 and 2002 NCA Student 
Surveys (Grades 5-12), the 1999 and 2002 NCA Parent Surveys (Grades 
preK-12), and our ongoing school-wide NCA meetings, the following 
specific goal was determined. 2004 School Climate Goal: All members of 
the Price Laboratory School will demonstrate respectful, positive, and 
ethical behaviors in both verbal and nonverbal communication for the 
purpose of creating a positive school climate and effective school-wide 
discipline policies. Specific school-wide interventions in response to 
this goal were: the emphasis on respect in the Elementary Citizenship 
program, the PreK-5 ``Be a Buddy, Not a Bully!'' guidance curriculum 
and program, the Middle School Life Skills Class, the Notice of Concern 
and Notice of Success Forms for middle school and high school, the 
Character and Leadership Attribute Rating form for high school, and the 
development and implementation of the high school Extracurricular 
Involvement Plan.
    The well-known Elementary Citizenship Program grew out of a shared 
concern at the elementary level more than 15 years ago. In 1993, the 
elementary staff and administration expressed concerns about the 
students not transferring the level of respect they demonstrated in the 
classrooms to the more unstructured areas of recess, lunchtime, 
hallways, and before and afterschool. We collectively decided to move 
forward with a proactive response to instill the core tenets of 
citizenship. We taught students how to advocate for their own rights 
and the rights of others. Children are overtly charged with protecting 
our learning environment to ensure we always have a caring community.
    This program continues to transform in response to the current 
character education needs of our elementary students based upon input 
from students, parents, and faculty. For example, when PLS became a 
First Amendment School in 2005, we used the structure of the Elementary 
Citizenship Program to teach and reinforce the five freedoms of the 
First Amendment to all of our PreK-5 students. Our monthly citizenship 
themes and assemblies focused on what these five freedoms look like at 
our school.
    The high school advisory program was developed in response to 
changing student demographics at PLS. Over the past 15 years, we have 
seen an increasing number of parents choose to enroll their children at 
Price Lab School as a ``last resort.'' Some students enroll at PLS 
after being kicked out of other schools. Parents of children who have 
struggled academically and socially in other school settings choose 
PLS, hoping we would be able to meet their children wherever they were 
and move forward. This influx of ``at-risk'' students forced us to 
rethink what we do and how we do it.
    We engaged in a process of determining our core beliefs, some of 
which include: believing every child can be ready for work, life and 
college; embodying a relentlessness that does not allow us to write off 
any child; and developing a professional efficacy that means we believe 
we have greater power than any external factor to influence student 
achievement and personal development. We worked diligently to put these 
beliefs into action. We assigned our highest-need students to our 
strongest student advisors. We fostered a relationship between students 
and advisors through which our teachers act as ``in-school parents'' 
who not only advocate for the best interest of the student, but also 
demand the best from them.
    Putting these core beliefs into practice also sparked changes in 
classrooms. PLS courses are grounded in a student-centered and inquiry-
based curriculum where students are engaged in interactive and project-
based learning. We believe that every child is a full and rightful 
member of our learning community. Faculty members are well-seasoned in 
developing and delivering differentiated learning to meet the needs of 
each and every student.
    In 2005, Dr. Jeffrey Cornett, the former Dean of the College of 
Education at UNI, taught us another value we strive to live out every 
day--``Care & Excellence.'' He challenged us to be ``two for two.'' He 
explained that a lot of teachers care about kids and a lot of them have 
mastery of their teaching content, but many teachers are only one for 
two. The most effective teachers are two for two. Care & Excellence 
reinforces that if we don't deeply care about every child--even those 
children whose behavior makes them tough to love--then we cannot give 
them the first-class education they all deserve. Teaching is as much 
listening to the tear-stained story of a hurting child as it is 
engaging him or her in rigorous academic experiences. It is both 
cheering the basketball team on to a State championship and promoting 
deep conceptual and procedural knowledge of necessary 21st century 
skills and concepts.
            high standards and expectations for all students
    The learning environment at PLS has established a tradition of 
students believing in themselves and setting their aspirations high. 
Over 90 percent of our graduates go on to a post-secondary program of 
study. Our student-centered curriculum encourages all students to be 
engaged learners. As a result we have very few issues with absenteeism 
and dropouts are rare anomalies.
    Our desire to promote a community of learners is not only an 
expectation for students, but is mirrored in our professional 
development (PD) as well. PLS and ASCD recognize that the two most 
important school-based factors affecting student achievement are the 
effectiveness of the classroom teacher and the effectiveness of the 
school principal. In order to address the evolving needs of our 
students, schools and districts must build the capacity to support all 
educators in gaining and sustaining the professional knowledge, skills, 
and training they need to be successful.
    Over the past few years, the PLS faculty has adopted a variety of 
initiatives to support reflection and improvement in the design and 
delivery of curriculum, instruction, and assessment. Of these 
initiatives, Authentic Intellectual Work (AIW) is designed for faculty 
to collaborate in small groups, scoring videos of instruction, student 
work, and the teacher-created activities students are engaged in. Our 
PreK-12 building allows faculty from a variety of grade levels and 
disciplines to work together to share ideas, revise lessons, and 
monitor progress in our students' learning. The AIW initiative has been 
a helpful tool for our faculty to use to evaluate the success of our 
January Term (J-Term) projects. As the pilot school for the 
implementation of the Iowa Core Curriculum, PLS faculty have also 
centered our PD around revising courses and programs in order to ensure 
our students are prepared for success in the 21st century.
                        providing pupil services
    As the elementary school counselor at PLS for the past 27 years, I 
have provided pupil services in four main areas: curriculum, individual 
student planning, responsive services, and system support. In my role 
as a school counselor, I am fortunate to work with all of the students. 
They ``carry'' me with them from year to year as they move from teacher 
to teacher. Research shows that students do better academically when 
they feel supported by caring and qualified adults. Additionally, they 
are less likely to engage in risky, violent, or self-destructive 
behaviors.

    <bullet> Curriculum: In 2005, PLS developed a standards-based PreK-
5 guidance curriculum, which is integrated into the classroom teachers' 
curricula called the Buddy Circles program. Buddy Circles partners PLS 
4th graders with their peers from a school for children with severe 
disabilities. The accompanying guidance curriculum emphasizes that all 
people have abilities and limitations, all people have feelings, and 
friendship is important for all kids. The program promotes social-
emotional knowledge and skills. Pre- and post-data gathered each year 
through student interviews has shown that student empathy and 
compassion are heightened as a result of the program.
    <bullet> Individual Student Planning: School counselors are often 
the connecting link between students, parents, classroom teachers, 
special education teachers, school psychologists, and other support 
staff in developing and implementing individual learning and behavior 
plans. This kind of team support, coupled with setting specific goals 
and collecting data, has helped a group of 4th graders I work with to 
show significant improvement in being respectful, following directions, 
and getting their work done.
    <bullet> Responsive Services: In my capacity as a school counselor, 
I have been called upon to meet the immediate needs of students through 
individual and small group counseling, ongoing consultation with 
teachers and parents, and referrals to community agencies and programs 
for students and families. Recently, I teamed with PLS's other school 
counselor in assisting a family with an elementary school student and a 
middle school student to get support from the Iowa Department of Human 
Services and the justice system to keep them safe from their father--a 
methamphetamine dealer and user who is prone to unpredictable behavior 
and violent outbursts.
    <bullet> System Support: I provide and participate in ongoing PD 
that includes school counseling, the school improvement process, school 
climate, and character education data-gathering and interpretation. 
Since 2008, I have worked closely with the Iowa Department of Education 
and the Iowa Area Education Agencies to survey all Iowa school 
counselors about their roles and responsibilities and the kinds of 
support they need to ensure that all students are successful learners 
who feel safe.

    Pupil services providers are vital to fostering and sustaining a 
school climate that embraces the five tenets of the ASCD Whole Child 
Initiative--healthy, safe, engaged, supported, and challenged.
    Congress can best support the work of pupil service providers by 
establishing policies that promote:

    <bullet> Innovative and useful reform that requires State and local 
governments to dismantle the obstacles to collaboration between and 
among school systems and the social, health, and safety services that 
support children.
    <bullet> Alternate pathways to graduation that are available to all 
students.
    <bullet> An adult mentor for every student--one who supports 
individualized learning opportunities that engage students in relevant 
curriculum and challenging education plans.
    <bullet> The facilitation of school partnerships with community 
service agencies and other local entities.
    <bullet> Flexible grouping and flexible timeframes to measure 
success, which enables schools to develop alternative approaches to the 
Carnegie Unit and other traditional conventions such as the traditional 
school day and year.
    <bullet> Publicly reporting the ratio of counselors and support 
staff to students--with an effort toward meeting the goal of the ASCA-
recommended 250:1 student-to-counselor ratio.
    <bullet> School turnaround strategies that incorporate the tenets 
of the Whole Child Initiative--with special attention to fortifying the 
relationships and interpersonal connections among students, staff, and 
families--to support student achievement.
    <bullet> Content assessments that are valid, reliable, and 
comprehensible for English language learners and students with 
disabilities.

    ASCD believes each student deserves access to personalized learning 
and support from qualified, caring adults. Research shows that, in 
addition to improving students' academic performance, supportive 
schools also help prevent a host of negative consequences, including 
isolation, violent behavior, dropping out of school, and suicide. 
Central to a supportive school are teachers, administrators, and other 
caring adults who take a personal interest in each student and in the 
success of each student.
                                healthy
    PLS and ASCD believe that each student deserves to enter school 
healthy and ready to learn about and practice a healthy lifestyle. 
Research has confirmed that students do better in school when they are 
emotionally and physically healthy. PLS is committed to a culture of 
wellness. The K-10 daily physical education program and K-11 weekly 
health program focus on students as engaged and reflective learners who 
possess the knowledge, skills, fitness, and dispositions to pursue 
physical activities and make healthy choices. This leads directly into 
our Junior/Senior Healthy Active Lifestyles course, which allows 
students to use the tools they have learned in their previous daily PE 
experiences to effectively manage their time and take responsibility 
for their own health and fitness in real-world experiences. It is my 
hope that as Congress looks to reauthorize the Child Nutrition and WIC 
Reauthorization Act and ESEA, it will support policies that ensure 
physical education and health education classes emphasize lifetime 
healthy behaviors.
    Our most successful effort at school wellness has been the creation 
of our Grassroots Cafe. We have gone from purchasing processed foods to 
supporting local farmers by buying fresh meat, produce, and beverages 
from their farms. Students have also become educated on food and how it 
affects their own health, the local community, and the world. Students 
have planted and harvested vegetables from their own garden on campus 
under the leadership of a PLS volunteer. The students also maintain a 
composting pile near the garden. Our average number of students eating 
school lunch increased from 160 to 220 this year.
    I'd like to thank Chairman Harkin and Senators Murkowski, Brown, 
Casey, and Bennet for their leadership on efforts to improve the 
nutritional content of school meals provided by the Federal school 
lunch program. While not every school has the same access to local 
farmers and high-quality, nutritious foods as we do at PLS, every child 
deserves to have meals that are healthy and nutritious and that promote 
good eating habits.
    ASCD suggests Congress can promote healthy students by enacting 
policies that:

    <bullet> Use State report cards to measure and publicly report on 
the health, safety, and education of children and families and that 
offer a comprehensive look at the circumstances (e.g., hunger, poverty, 
crime, literacy, and health) of children and the factors that influence 
student success.
    <bullet> Establish coordinated school health advisory councils as 
part of schools' improvement efforts.
    <bullet> Ensure that physical education and health education 
classes emphasize lifetime healthy behaviors.
                                  safe
    PLS and ASCD believe that each student deserves to learn in an 
intellectually challenging environment that is physically and 
emotionally safe. Children who don't feel safe at school can't 
concentrate on their studies, don't connect well with their classmates, 
or don't go to school at all. At PLS, we have a well-established 
comprehensive and developmental school counseling program based upon 
the ASCA model, which addresses the academic, career, and personal/
social development of every PreK-12 student.
    Two licensed Iowa school counselors serve the PreK-12 enrollment of 
370. This student-counselor ratio allows the counselors to get to know 
all of the students and families they serve. These counselors developed 
a PreK-5 bullying prevention program--Be a Buddy, Not a Bully!--that 
has been successfully used at PLS as well as other schools throughout 
Iowa, the United States, and the world. The Des Moines Register 
reported in 2008 that graduates of PLS ranked second for grade point 
average in the most difficult courses and in the Top 10 for overall 
freshman grade point average at the three Iowa Regents universities. 
The 2007 and 2008 National Schools of Character Finalist evaluation 
reports cite the PLS school counseling program as a crucial link in 
this intellectually challenging environment and caring community.
    To promote school settings that are physically and emotionally safe 
for every student and adult, ASCD proposes that Congress develop a set 
of more comprehensive indicators of student well-being in ESEA:

    <bullet> Disaggregated statistics about student security, 
discipline, and support to help inform teacher professional development 
activities and integrate climate and culture strategies into school 
improvement plans at the school and district level.
    <bullet> Publicly reported survey data from students, staff, and 
families on the school climate, parent satisfaction, and family 
outreach.
    <bullet> Evidence of family communication and engagement plans at 
both the district and school level.
                                engaged
    PLS and ASCD believe each student deserves to be actively engaged 
in learning and connected to the school and broader community. To help 
facilitate this type of connectedness, PLS offers January and May Term 
courses that engage students in project-based learning. This year, J-
Term was a pilot for all elementary, 8th grade, and 11th grade 
students. May Term will be for all PreK-12 students. We anticipate this 
becoming a standing practice at PLS. Students propose a project or 
choose from a variety of teacher-developed projects.
    The 11th grade J-Term projects included hosting a talk radio show, 
investigating string theory, engaging in multiple service learning 
experiences, job shadowing, and learning how to play the guitar. The 
8th graders participated in The Empathy Project for J-Term. In small 
groups, students are effecting positive change in our school and 
community by developing films that create awareness, engender empathy, 
and call viewers to action. Elementary students created games to teach 
others about the floods in response to the widespread devastation in 
our community; planned and held a garage sale they titled ``Hope for 
Haiti,'' where they earned $313.09 they donated to the Red Cross; and 
engaged in Spanish cooking to complement what they learned in their 
elementary Spanish classes. These project-based learning experiences 
help PLS students develop 21st century skills such as demonstrating 
initiative and self direction, using individual talents and skills for 
productive outcomes, effectively managing time, and performing work 
without oversight. They also increase student options and voice in what 
they learn, as well as how they learn and demonstrate what they've 
learned.
    I was actively engaged in the overall planning and implementation 
of the J-Term and May Term projects at the elementary level. I also co-
taught a course to 3d through 5th graders titled, ``The Tibetan 
Culture: Building Community Through Compassion,'' in preparation for 
the Dalai Lama's visit to UNI in May 2010. Our group of 3d through 5th 
graders had the opportunity to visit with the Venerable Geshe Thupten 
Dorjee, an ordained Tibetan Buddhist monk from Drepung Loseling 
Monastery in southern India. They also did Tibetan cooking and music 
and created their own mandala with Tibetan students studying at UNI.
    According to ASCD, Congress can support systemic reforms to promote 
student engagement, such as intellectually challenging school 
environments; opportunities for community service, apprenticeships, and 
internships; a relevant and exploratory middle-level curriculum; high 
school redesign that includes a rigorous curriculum and meaningful 
relationship with caring adults; and incentives to businesses and local 
community services to become more involved in the educational process.
                               supported
    PLS and ASCD believe each student deserves access to personalized 
learning and support from qualified, caring adults.
    In 2005-2006, after participating in a book study of Nobody Left to 
Hate by Elliot Aronson, the PLS middle school teachers made the shared 
decision to revitalize the Advisory Program for grades 6-8. Our goal 
was to ensure that each student felt valued and respected at school. We 
decided to transition the advisory groups from meeting once a month to 
meeting daily. The PLS middle school students and teachers have 
benefited from an established meeting time every day of the week. Each 
day, the advisory groups meet in cooperative learning groups to 
participate in developmentally appropriate activities and moral 
discussions in order to meet the social-emotional needs of each 
student. The success of the PLS Middle School Advisory Program 
continues to be seen on a daily basis as trusting relationships are 
formed between students and teachers. It has been said that the 
students often view their advisor as an ``in-school parent.''
    Middle school is a difficult stage for many young people. Research 
tells us that this is where many of our students either make the 
unconscious decision to continue their journey toward high school 
graduation or begin the process of becoming a dropout. Numerous warning 
signs such as chronic absenteeism and truancy, behavior problems, and 
academic struggles prove to be early indicators of their academic 
future. It is with this in mind that I want to thank Senator Hagan and 
Senator Klobuchar for their leadership on combating middle school 
truancy. The Student Attendance Success Act's recognition of the need 
for a whole child approach to combat truancy reflects a true 
understanding of the complexities of this issue and the comprehensive 
solutions needed to deal with it.
    I teach guidance units to the PreK-5 classes. This provides a 
wonderful foundation for me to get to know all the students and a venue 
for me to teach them critical life skills through topics such as 
feelings, friends, differences and similarities, social skills, 
conflict resolution, diversity, choices, and so forth. I also 
facilitate many small groups to support children dealing with divorce, 
death of a loved one, family members with a serious illness, family 
members with addictions, friendship concerns, social skills needs, 
worries, and perfectionism. I provide individual counseling to many 
PreK-12 students to support them through difficult times in their 
lives.
                               challenged
    PLS and ASCD believe each graduate deserves to be challenged 
academically and prepared for success in college and further study and 
for employment in a global environment. To succeed in college, other 
post-secondary education, civic society, and the workplace, students 
need higher-level thinking, communication, and problem-solving skills. 
In order to prepare our students for success in their post-secondary 
experiences, PLS has created a multi-component Junior/Senior Options 
Program to serve as a launching pad for students to success after high 
school, whether in work, college, the military, or another experience.
    The Junior/Senior Options Program consist of viable alternatives 
for students to personalize their own curriculum that relates to and 
helps order their future plans. Some of the options students can choose 
to participate in are dual enrollment university courses, 
individualized study courses, internships with local businesses/
industry/organizations, cadet teaching, and a senior project designed 
and implemented by the student. The scheduling flexibility and 
personalized curriculum provides students the opportunity to refine 
their organizational skills, time management skills, and independent 
decisionmaking skills. Approximately 84 percent of the current seniors 
and 66 percent of the current juniors are participating in at least one 
of the Junior/Senior Options. From the 2009 graduating class, 94 
percent took the ACT and went on to further their education at 2- or 4-
year colleges or universities. These statistics strongly correlate with 
the number of students participating in the Junior/Senior Options 
Program.
    Innovative approaches to keeping secondary students engaged in 
their learning, coupled with flexible programs that incorporate various 
different student skills and school and community stakeholders, have 
proven effective to help students find relevance in their learning and 
encourage them to complete their studies. I want to thank Senators 
Bingaman, Dodd, Reed, Murray, Brown, Casey, Hagan, Merkley, Franken, 
and Bennett for their leadership on the Graduation Promise Act and the 
Secondary School Innovation Fund Act. These two pieces of legislation 
are aimed at providing the challenging learning environments all 
students deserve, by promoting the types of innovative approaches that 
we at PLS are incorporating into our practice.
    ASCD has recommended that the next iteration of ESEA include growth 
model accountability for each child, college- and career-readiness 
standards that go beyond proficiency solely in reading and math but 
include all core academic subjects, and enactment of the Secondary 
School Innovation Fund Act.
                               conclusion
    We can no longer afford to develop the range of education and 
noneducation policies affecting children or operate the resulting 
programs serving them in isolation; we must work to coordinate and 
integrate them for the benefit of students rather than the interests of 
adults or bureaucracies. Building this synchronization into policies at 
that outset will lead to more efficient and effective results for 
children.
    Pupil services providers such as school counselors, school 
psychologists, school social workers, and school nurses can be a 
constant force in developing and maintaining a positive school climate 
and a culture of caring where all students feel connected, safe, and 
able to learn.
    I want to close with the words written to me by two of our 
graduates:

          ``I was just thinking about elementary school and what it 
        meant to me and you were the first person to pop into my mind. 
        Visions of puppets and smiling children, small group and big 
        group sessions. The more I thought about this the more I 
        realized what a major role you played in my childhood and for 
        that I am most grateful.''
          ``Thank you for all the opportunities you gave me to grow and 
        experience new things like mentoring the little kids.''

    Children who are hurting, hungry, scared, and disengaged cannot 
learn. We cannot focus on achievement alone. Join with me to ensure 
that each child is healthy, safe, engaged, supported, and challenged.

    The Chairman. Ms. Rittling, please.

   STATEMENT OF NIKKI RITTLING, EDUCATOR, WONDERFUL WILLARDS 
                ELEMENTARY SCHOOL, WILLARDS, MD

    Ms. Rittling. Good morning, Chairman Harkin and members of 
the committee. Thank you for inviting me here today to talk 
about my efforts at my elementary school to ensure a rich 
curriculum for our students.
    I am the physical education teacher and team leader for the 
integration team at Wonderful Willards Elementary School on the 
Eastern Shore of Maryland. Willards is set in a farming 
community which lacks a variety of cultural and arts 
experiences nearby.
    Seven years ago, as a targeted title I school, Willards 
also struggled with low test scores in reading and math. For 
these reasons, the school's administration challenged the 
teachers to implement an arts integration program.
    Since then, we have implemented a successful arts 
integration program, which has been identified by both The Arts 
Education in Maryland Schools and The John F. Kennedy Center 
for Performing Arts as a Maryland School of Distinction. 
Because we are only a pre-K through second grade school, we 
don't have quantitative data, but we have seen our test scores 
rise.
    So, what does this all mean? We define arts integration as 
the seamless blending of arts area objectives and content area 
objectives within the same lessons where natural connections 
occur. The components embedded into our program meet our 
students' educational needs, cultural needs, and demographic 
needs by helping to differentiate instruction.
    The teacher and student work cooperatively to embrace 
creativity, innovation, high-level thinking, and risk taking. 
Not only do we explore the various art forms and how to 
integrate them, but we also examine how they impact children's 
motivation, learning, comprehension, development of critical 
thinking, and problem-solving skills.
    For the students, this not only means there is daily 
integration of the arts into the curriculum, but also to 
experience an artist in residence. In a residency, artists work 
cooperatively with the classroom teachers to align their art 
form with the core curriculum.
    As a school, we also study a country each school year. Last 
year, we experienced the cultures of South Africa, and 
currently, we are celebrating India. At the conclusion of our 
country study, all students participate in a year-end 
celebration where the students use the arts and sciences to 
build a parade with floats, costumes, banners, music, and dance 
as they travel through the community sharing their knowledge.
    To facilitate the program, we have in place a Willards 
integration network, which I lead. As the team leader, I am 
responsible for any number of things including writing grants, 
sharing to help other schools in the district begin their own 
program, working with parents in the community, and providing 
professional development.
    Getting together as a team is as important in sustaining 
our program as is the tremendous support we get from leaders in 
our district.
    Arts integration has impacted our entire school community 
and school environment, nurturing the whole child. I am often 
awestruck by the students' creativity, innovation, and 
willingness to take creative risks. As the students take risks 
in learning and creativity, the teachers do, too.
    I again thank you for the opportunity to share our story 
with you and welcome any questions the committee may have.
    [The prepared statement of Ms. Rittling follows:]
                  Prepared Statement of Nikki Rittling
    Good Morning.
    Chairman Harkin and members of the committee, thank you for 
inviting me here today to talk about efforts at my elementary school to 
ensure a rich curriculum for our students.
    My name is Nikki Rittling and I am the physical education teacher 
and team leader for the Integration Team at Wonderful Willards 
Elementary School on the Eastern Shore of Maryland. Willards is set in 
a farming community which lacks a variety of cultural and arts 
experiences nearby. Seven years ago, as a targeted title I school 
Willards also struggled with low test scores in reading and math. For 
these reasons, the school's administration challenged the teachers to 
implement an arts integration program. We happily took on that task. 
Since then, we have implemented a successful arts integration program 
which has been identified by both The Arts Education in Maryland 
Schools (AEMS) and The John F. Kennedy Center for Performing Arts as a 
Maryland School of Distinction. Because we are only a preK-2d grade 
school we don't have quantitative data, but we have seen our test 
scores rise. We are now consistently in the top 3 in our district and 
the only targeted title I school at the top of the ranks.
    So, what does it all mean? We define arts integration as the 
seamless blending of arts area objectives and content area objectives 
within the same lesson where natural connections occur. The four basic 
art forms that we focus on are: visual art, music, dance/movement and 
drama. The components embedded into our program meet our students' 
educational needs, cultural needs and demographic needs; while helping 
to differentiate instruction. The teacher and student work 
cooperatively to embrace creativity, innovation, high level thinking 
and risk taking. The students are safe and comfortable in an 
environment which values them as a lifelong creative learner. Not only 
do we explore the various art forms and how to integrate them, but we 
also examine how they impact children's motivation, learning, 
comprehension, development of critical thinking, and problem-solving 
skills.
    As the only full-time specialist, excitement for this type of 
teaching and my familiarity with most dance/movement standards, I was 
appointed as the Willards Integration Network (WIN) Team Leader. The 
WIN team plans and provides professional development opportunities and 
also facilitates school-wide arts activities. As the team leader, I am 
responsible for any number of things including writing grants, sharing 
to help other schools in the district begin their own programs, and 
providing professional development. Getting together as a team is as 
important in sustaining our program as is the tremendous support of the 
leaders in our school and district.
    For the students, this not only means there is daily integration of 
arts into the curriculum but also to experience an artist in residence. 
In a residency, artists work cooperatively with the classroom teachers 
to align their art form with the core curriculum. As a school we also 
study a country each school year. Last year, we experienced the culture 
of South Africa and currently we are celebrating India. At the 
conclusion of our country study, all students participate in a year-end 
celebration where the students use the arts and sciences to build a 
parade with floats, costumes, banners, music and dance as they travel 
through the community sharing their knowledge. When studying South 
Africa a group of students played South African rhythms on drums while 
other students performed the South African Gumboot dance. At times, it 
is natural to combine the cultural study with the arts. This provides 
students with a tremendous amount of knowledge. In learning about China 
the students used interpretative dance to share facts about Chinese 
culture. The students were charged to individually develop movements 
using long strips of fabric to match these facts and dance them to 
Chinese flute music. Because the students were able to work 
successfully and meet all expectations for the task, they performed 
this for our school community and about 100 visitors.
    In addition to the support of our school leaders, the success of 
the program also rests on continued and varied professional 
development. Within the school building, the WIN team hosts monthly 
teacher workshops to help provide strategies to integrate. An example 
was a recent workshop during which teachers paralleled visual arts, 
writing and language arts to create a story mural. Providing on-going 
professional development also pushes teachers to integrate weekly and 
sometimes daily. Other professional development has been for groups of 
specific subject-matter teachers within the district and collaborations 
with teaching artists and university professors. We have also 
participated in intensive 5-day workshops at the Maryland Artist 
Teacher Institute each summer, which helps to provide our school team 
the tools to plan for integration in the coming school year.
    Arts integration has impacted our entire school community and 
school environment nurturing the whole child. For those students who 
have been in the school for 4 years, I am often awe struck by their 
creativity, innovation and willingness to take creative risks. Over 
time, the students have trained themselves to think in an alternate 
way, to think independently and to learn beyond a text book. Arts 
integration has impacted the teachers and my own teaching. As the 
students take risks in learning and creativity the teachers do too. 
With the implementation of our program 7 years ago, teachers and their 
teaching were renewed. I find that teaching in this way challenges me, 
helps me to stay current and vary my teaching.
    Willards Elementary has come a long way in the 7 years of the arts 
integration program, all for the benefit of its students. We are proof 
that you can provide a rich curriculum while still focusing on the 
important academic needs of our students. I again thank you for the 
opportunity to share our story with you and welcome any questions that 
the committee may have.

    The Chairman. Thank you very much, Ms. Rittling.
    Now we will hear from Ms. Jefferies.

  STATEMENT OF LYNSEY WOOD JEFFERIES, EXECUTIVE DIRECTOR, DC 
            METRO HIGHER ACHIEVEMENT, WASHINGTON, DC

    Ms. Jefferies. Thank you, Senator Harkin, and thank you to 
the members of the committee.
    On behalf of Higher Achievement, I am delighted to be here 
today. I have witnessed over the last 10 years, as both a 
volunteer and a staff member with Higher Achievement, hundreds 
of lives changed through our program. I want to answer your 
questions, your two questions based on that experience.
    First, what do we do? Higher Achievement was founded in 
1975, and we currently serve more than 600 students in DC, 
Maryland, and Virginia. We are a year-round, meaning 
afterschool and summer, academic enrichment program.
    There are six things that I think make us special and 
relevant to this conversation. First is our year-round, 
multiyear commitment that the young people make during middle 
school.
    Second, that we intervene purposefully during this high-
risk middle school transition time.
    Third, that every child in our program has 3 weekly 
mentors. That is unique. I don't know of any other program that 
does that, certainly not in the District.
    Fourth, that our afterschool and summer curriculum is 
aligned to the school standards, but it is accelerated, and it 
is more engaging.
    Fifth, that we have close partnerships with schools and 
parents. We really see it as a three-legged stool--parents, 
schools, and then the afterschool and summer programs.
    And then, finally, that we create a culture of high 
expectations and support for our scholars. We measure our 
results in three ways--internal evaluation, external 
evaluation, and then individual stories.
    Internally, we have found that despite the fact that in DC, 
only 9 percent of students finish college, of Higher 
Achievement scholars, 93 percent finish college. That is 
awesome.
    Second, externally, we have a study going on. We are the 
subject of a randomized study right now by Public/Private 
Ventures, and it is getting a lot of national attention. We 
will have the results next year.
    Then, third, personal stories. I might go a little over, 
but I want to share one personal story.
    Tariq West is an alum of Higher Achievement. He grew up in 
southeast Washington, the sixth of eight siblings in southeast 
Washington, and he should have been a statistic. In that 
neighborhood, only 40 percent of students finish high school, 
and it is riddled with violence.
    Tariq worked with his Higher Achievement mentors 
afterschool, in the summer, and was placed into one of the best 
high schools in DC. I am delighted to say he has been very busy 
since then. He has done internships with Deloitte, with 
Microsoft. He started nonprofits, including ones around human 
rights in Sudan. He is now, I am delighted to say, next month 
going to graduate with honors from Stanford University. And in 
this economy, Booz Allen is holding a job for him, has been 
holding it for 4 months.
    I just think it is a wonderful story. On top of that, a 
testament to his condition and his commitment to Higher 
Achievement, he is a frequent and generous donor to us. And 
when he moves back to Washington, he has promised to be a 
mentor with Higher Achievement.
    Thank you.
    [The prepared statement of Ms. Jefferies follows:]
              Prepared Statement of Lynsey Wood Jefferies
                                summary
                        about higher achievement
    Higher Achievement's rigorous after-school and summer academic 
program gives youth from at-risk communities their best opportunity to 
succeed in middle school--and in life. Our research-based program 
challenges middle school students to meet their full potential in three 
key areas: academics, social skills, and leadership. When students get 
the skills and support they need to invest in their own success, they 
discover that they can be scholars. On average, 95 percent of Higher 
Achievement scholars who complete the program advance to top academic 
high schools and 93 percent graduate from college.
    Founded in 1975, Higher Achievement currently serves more than 600 
scholars per year and, in partnership with local schools, operates 
achievement centers in Washington, DC; Alexandria, VA; and Baltimore, 
MD. The organization is expanding to an additional five cities in the 
next 5 years, with plans to serve 2,300 scholars per year by 2015. 
Higher Achievement is funded by support from foundations, businesses, 
government, and individuals. The organization has been honored with 
numerous national awards.
                  how do we measure our effectiveness
    Higher Achievement provides 650 additional hours of academic 
instruction and mentoring during out-of-school time, on top of the 900 
hours students spend in school. This intensity pays off with a proven 
track record of tangible results:

    <bullet> Seventy-seven percent of scholars improved or maintained 
As and Bs in reading, and 65 percent in math, in 1 year.
    <bullet> One hundred percent of scholars improved their DC CAS 
(standardized test) score by an average of 20 percent.
    <bullet> Eighty-nine percent of scholars improved their school 
attendance or maintained perfect school attendance.
    <bullet> Ninety-three percent graduate from college.

    Further, Higher Achievement is the subject of a ground-breaking, 
randomized, longitudinal study by Public/Private Ventures. Funded by 
the William T. Grant Foundation and Atlantic Philanthropies, this 
rigorous evaluation started in 2006 and will conclude in 2011, 
comparing Higher Achievement participants to an equivalent control 
group.
    These results are a testament to Higher Achievement's model. This 
data demonstrate that quality out-of-school time programs cannot only 
stop the ``middle school slide'' that widens the achievement gap--they 
can reverse it.
                                 ______
                                 
    Chairman Harkin, Ranking Member Enzi, and members of the committee. 
On behalf of Higher Achievement, I thank you for this opportunity to 
testify about meeting the needs of the whole student. Higher 
Achievement provides an after-school and summer program that aligns 
with schools' educational goals and coordinates with schools and 
communities to prepare middle school students for success in high 
school and beyond. In my 10 years as both a volunteer and staff member 
with Higher Achievement, I have worked with hundreds of students and 
seen the value of this approach firsthand. Our organization has seen 
concrete results for more than 35 years and I believe that Higher 
Achievement is particularly qualified to discuss the benefits of and 
approaches to extended learning opportunities.
                        about higher achievement
    Higher Achievement's rigorous after-school and summer academic 
program gives youth from at-risk communities their best opportunity to 
succeed in middle school--and in life. Our research-based program 
challenges middle school students to meet their full potential in three 
key areas: academics, social skills, and leadership. When students get 
the skills and support they need to invest in their own success, they 
discover that they can be scholars. On average, 95 percent of Higher 
Achievement scholars who complete the program advance to top academic 
high schools and 93 percent graduate from college.
    Founded in 1975, Higher Achievement currently serves more than 600 
scholars per year and, in partnership with local schools, operates 
achievement centers in Washington, DC; Alexandria, VA; and Baltimore, 
MD. The organization is expanding to an additional five cities in the 
next 5 years, with plans to serve 2,300 scholars per year by 2015. 
Higher Achievement is funded by support from foundations, businesses, 
government, and individuals. The organization has been honored with 
numerous national awards.
    Unique aspects of our program:

    <bullet>  Year-round, multi-year commitment.
    <bullet>  Intervention during the high-risk middle school 
transition.
    <bullet>  Every child has three weekly mentors.
    <bullet>  After-school and summer curriculum is aligned to school 
standards.
    <bullet>  Close partnership with schools.
    <bullet>  Measurable results, continual data-driven improvement.
    <bullet>  Project-based learning, college trips, field trips, and 
academic competitions to make learning fun.
                  how do we measure our effectiveness?
    Higher Achievement provides 650 additional hours of academic 
instruction and mentoring during out-of-school time, on top of the 900 
hours students spend in school. This intensity pays off with a proven 
track record of tangible results:

    <bullet>  Seventy-seven percent of scholars improved or maintained 
As and Bs in reading, and 65 percent in math, in 1 year.
    <bullet>  One-hundred percent of scholars improved their DC CAS 
(standardized test) score by an average of 20 percent, compared to an 
average improvement of 3 percent among DCPS students overall.
    <bullet>  Eighty-nine percent of scholars improved their school 
attendance or maintained perfect school attendance.
    <bullet>  Eighty-nine percent of scholars reduced their number of 
days tardy to school or maintained zero days tardy.
    <bullet>  Ninety-five percent advance to top academic high schools.
    <bullet>  Ninety-three percent graduate from college.

    Further, Higher Achievement is the subject of a ground-breaking, 
randomized, longitudinal study by Public/Private Ventures. Funded by 
the William T. Grant Foundation and Atlantic Philanthropies, this 
rigorous evaluation started in 2006 and will conclude in 2011, 
comparing Higher Achievement participants to an equivalent control 
group.
    These results are a testament to Higher Achievement's model. This 
data demonstrate that quality out-of-school time programs cannot only 
stop the ``middle school slide'' that widens the achievement gap--they 
can reverse it.
                    tariq: a portrait of achievement
    Numbers show that our proven model can lead to measurable outcomes 
that our scholars deserve--success in high school and beyond. Tariq's 
story shows what that outcome means in practice.
    Tariq should have been a statistic. He grew up the sixth of eight 
children in southeast DC in the late 90s. In our Nation's capital, 57 
percent of DC students drop out of high school and 91 percent \1\ do 
not finish college. In southeast, the community is riddled with 
violence.
---------------------------------------------------------------------------
    \1\ Gates Foundation, ``Double the Numbers'' 2008.
---------------------------------------------------------------------------
    This was Tariq's reality. But, his conditions did not define him. 
Tariq beat those odds with the help of Higher Achievement and his 
mentors. He dedicated his afternoons, evenings, and summers in middle 
school to Higher Achievement and it paid off. With the help of Higher 
Achievement and his mentors, Tariq was placed in a top high school. 
Since graduating high school, he has been busy. He has completed 
competitive internships with Microsoft and Deloitte, studied abroad in 
Madrid, led the student government, and started several nonprofits, 
including Access Sudan, a human rights advocacy group. Next month, 
Tariq is graduating from Stanford University, with honors. Booz Allen 
has been holding a job for him for 4 months.
    A testament to his compassion, at age 21, Tariq gives often and 
generously to Higher Achievement and will mentor with us when he 
returns to Washington. In his words, ``I grew up keenly aware of 
poverty and hopelessness, but also feeling incredibly empowered, and 
compelled to change the world in the ways that I can.''
                  after-school and summer instruction
    By drawing attention to ``meeting the needs of the whole student,'' 
this committee has recognized that although improvements to students' 
in-school experience are critical, our students need more. This is 
especially true for students living in underserved communities. We 
agree that every student should graduate from high school ready for 
college and a career. To realize this shared goal for our public 
education system, we need to provide high-quality out-of-school time 
educational opportunities that can be aligned with academic outcomes 
during the school year.
    At Higher Achievement, our curriculum is paced slightly ahead of 
the public school standards and it is delivered in small groups (3:1 
ratio) by volunteer mentors. Every child in our program has 3 weekly 
mentors, who teach lessons in math, literature, and elective seminars. 
Further, our scholars compete in academic contests that make learning 
fun, including a spelling bee, literary love poetry contest, debate 
contest, and more.
    Higher Achievement does not stop with after-school programming. Our 
underserved scholars, and truly all students, need more. It is 
abundantly clear that we need to increase our national commitment to 
quality summertime programming. More than half of the achievement gap 
between lower- and higher-income youth can be explained by unequal 
access to summer learning opportunities.\2\ Low-income students lose 
more than 2 months of grade equivalency in math and reading during 
summer months.\3\
---------------------------------------------------------------------------
    \2\ Alexander, 2007.
    \3\ Cooper, 1996.
---------------------------------------------------------------------------
    At Higher Achievement, we counteract this ``summer learning loss'' 
with our Summer Academy, which complements the after-school program and 
connects students' academic experience with their expectations for the 
future--including overnight trips to top universities like Penn State 
or Virginia Tech. The summer lessons in math, literature, science and 
social studies are aligned to the school standards at an accelerated 
pace. So, for example, if a student just finished 6th grade, she will 
learn 7th grade material in the summer. Further, our Summer Academy is 
replete with fun academic contests: Model UN, mock trial, science 
fairs, and the Olympics of the Mind, to name a few.
    The school year should not be the only time when young people are 
focused upon their education and future. In underserved communities, 
where the ``summer learning loss'' compounds existing achievement gaps, 
summer programming is critical.
      aligning after school and summer work with school standards
    When Higher Achievement enters a school district, we bring a 
commitment to our scholars and their community. We commit to help the 
scholars translate their hard work into opportunity. We meet this 
commitment by partnering with schools, districts, and communities to 
ensure that our programming is aligned with the standards that the 
students will have to meet. For example, Higher Achievement eighth 
graders study mass transit systems in order to practice setting up and 
solving linear equations and inequalities with one or two variables--a 
discrete math skill they are expected to master during their eighth 
grade year.
    Out-of-school time programs can and should be expected to measure 
their success in the context of a student's general academic success. 
The most effective OST academic experiences are those that align with 
what students learn in school, and act as a true partner to families 
and schools in supporting a child's academic growth. Higher Achievement 
does this by working closely with teachers of the students it serves, 
and with each family to monitor individual progress, and adjusting each 
student's learning plan accordingly.
                               conclusion
    The difference between the child who drops out of high school and 
the child who goes to college is not talent, but lack of opportunity. 
Equal access to opportunity is every child's right--and yet it does not 
exist. Therefore this must be our call to action.

    The Chairman. Very good. Thank you, Ms. Jefferies.
    Now we will turn to Ms. Henderson.

 STATEMENT OF ANNE T. HENDERSON, SENIOR CONSULTANT, COMMUNITY 
   ORGANIZING AND ENGAGEMENT, ANNENBERG INSTITUTE FOR SCHOOL 
                     REFORM, WASHINGTON, DC

    Ms. Henderson. Thank you for the opportunity to speak, Mr. 
Chairman, and for sponsoring a committee on such an important 
topic.
    Today, I am here as a member of the National Family, 
School, and Community Engagement Working Group, which is 
composed of leading practitioners, researchers, funders, and 
policy experts who are committed to family engagement. I hope I 
can address your question of how we get families involved.
    First, I would like to quell forever the misconception that 
family engagement is something soft and squishy that doesn't 
have any hard data to back it up. Because I have been tracking 
this now for 30 years--the research--and I can assure everybody 
in the room that engaging especially low-income and 
nontraditional families will raise student achievement. It will 
lower the dropout rate, and it will help close our achievement 
gap.
    We measure the effectiveness of family engagement not by 
the number of people who come to back-to-school night, but by 
its impact on student achievement. That is what counts.
    Let me give you an example of what happened when Austin 
Interfaith, which is a family and community organizing group, 
collaborated with the Austin Independent School District to 
turn around struggling schools in the poorest parts of the 
city. The schools that had the most intensive involvement in 
the initiative saw a 20 percent increase in the number of 
students who were passing the State test in a fairly short 
amount of time, and teachers and administrators and district 
officials all credited the work of the community group in 
turning that around.
    Yet despite all of this evidence that I have been tracking 
all these years, family engagement is a low priority, and 
schools are struggling with how to do it. Teachers say it is 
their No. 1 area where they feel least well prepared, and they 
think it is the most important thing they need to do. Clearly, 
there is a misfit.
    Rather than committing what our working group calls 
``random acts of parent involvement,'' we need to scale up 
innovative research-based approaches that are going to improve 
achievement and turn around our failing schools.
    Now, at the outset, I can remember--I am old enough to 
remember when the Elementary and Secondary Education Act was 
passed in 1965. It was part of the war on poverty, and a 
watchword was ``maximum feasible participation.'' It has always 
been a big part of this law, and I think it is very important 
that we strengthen and continue that commitment to our children 
and families because without family engagement, we are 
definitely dealing with just a part of the child.
    I offer four recommendations. The first of which is to let 
us move away from rigid compliance-based strategies to provide 
incentives to schools and districts and State education 
agencies to implement proven approaches through both continuing 
a mandatory set-aside so that even though it might be a low 
priority, they still have to do it, and competitive grants.
    And second, let us build the capacity of our schools and 
districts and our State agencies to engage families from early 
childhood all the way through college graduation. One way to do 
this will be to strengthen the parent involvement resource 
centers that are now in every State.
    Let us provide professional development to our teachers and 
school leaders on how to do this. And finally, invest in 
rigorous research.
    To close, if parents aren't onboard, we are going to leave 
the whole child behind.
    [The prepared statement of Ms. Henderson follows:]
                Prepared Statement of Anne T. Henderson
                                summary
    The evidence is clear--schools cannot close the achievement gap 
without partnering with families. Over 40 years of research has 
demonstrated that engaging families in their children's education 
improves student achievement, attendance, and behavior, and increases 
graduation rates.\1\ Children spend 70 percent of their waking hours 
outside of school, and how they spend that time is critical to their 
success in school.\2\ Modest investments in increasing families' 
knowledge and skills to support learning can leverage our larger 
investment in teacher quality and school improvement.
---------------------------------------------------------------------------
    \1\ Anne T. Henderson and Karen L. Mapp, A New Wave of Evidence: 
the Impact of Family, School, and Community Connections on Student 
Achievement (Austin, TX: Southwest Educational Development Laboratory, 
2002). H.B. Weiss, S.M. Bouffard, B.L. Bridglall and E.W. Gordon, 
Reframing Family Involvement in Education: Supporting Families to 
Support Educational Equity. Campaign for Educational Equity (Teachers 
College, Columbia University, December 2009).
    \2\ Reginald Clark, ``Ten Hypotheses about what predicts student 
achievement for African-American student and all other students: what 
the research shows,'' in Walter L. Allen ET al. (eds), African-American 
Education: Race, Community, Inequality and Achievement--A Tribute to 
Edgar G. Epps (Oxford, UK: Elsevier Science, 2002).
---------------------------------------------------------------------------
    Despite this strong evidence, there is a lack of capacity at the 
State, district, and school level for engaging families, and Federal 
and State policies offer few incentives to remedy the situation. 
Teachers have repeatedly identified parent involvement as one of the 
most important ways to improve education, yet they also list parent 
engagement as the area where they feel least prepared and least 
satisfied with their own performance.\3\
---------------------------------------------------------------------------
    \3\ The MetLife Survey of the American Teachers: Transitions and 
the Role of Supportive Relationships (NY: Harris Interactive, 2005).
---------------------------------------------------------------------------
    Instead, schools often commit ``random acts of parent 
involvement''--a back-to-school night or a flyer home on parent teacher 
conferences. Rather than focusing on scaling up innovative, research-
based practices that engage families, districts and States tend to 
direct their resources toward monitoring compliance with the law.
    The National Family, School, and Community Engagement Working 
Group, composed of leading researchers, practitioners, policy experts, 
and funders committed to effective family engagement, has developed a 
research-based definition of what effective family engagement should 
look like: a shared responsibility for student success, in which 
schools and community organizations are committed to engaging families 
in meaningful ways and families are committed to actively supporting 
their children's learning and development. This shared responsibility 
is continuous from birth through young adulthood and reinforces 
learning that takes place in the home, school, and community.
    The reauthorization of the Elementary and Secondary Education Act 
(ESEA) provides a critical opportunity to strengthen family engagement 
in education and build local capacity to scale up research-based 
practices that drive student achievement. Since 1965, Congress has 
recognized the involvement of parents as a key driver in school 
improvement, especially in title I and low-income schools. As Congress 
works to reauthorize ESEA, it must ensure that effective family 
engagement is again a cornerstone of the law.
    Below is a brief summary of our recommendations:

    1. Provide funding and incentives to promote effective family 
engagement at the school, district, and State level.
    2. Strengthen Parental Information and Resource Centers (PIRCs) and 
focus their role on capacity-building to scale up research-based family 
engagement practices that improve student achievement.
    3. Provide high-quality in-service and pre-service professional 
development to strengthen the knowledge and skills of teachers and 
principals to engage parents in raising student achievement.
    4. Build statewide capacity to develop, coordinate, and implement 
family engagement initiatives from cradle to career.
    5. Strengthen Federal support for research and coordination of 
cradle-to-career family engagement strategies and initiatives that 
reach families in underrepresented and underserved communities.
                                 ______
                                 
    Chairman Harkin, Ranking Member Enzi, committee members, and my 
fellow distinguished panelists, I am honored to participate in this 
important hearing on the reauthorization of the Elementary and 
Secondary Education Act (ESEA).
    I am here today as a member of the National Family, School, and 
Community Engagement Working Group (FSCE Working Group) to share 
lessons from the research and the field that demonstrate the urgent 
need for effective family and community engagement in raising student 
achievement and driving school reform.
    The FSCE Working Group is a group of leading researchers, 
practitioners, and funders committed to family engagement in education. 
We offer the diverse expertise of our members to inform the development 
and implementation of sound Federal policy on family and community 
engagement in education. We are dedicated to mobilizing cradle to 
career pathways and partnerships among families, schools, and 
communities to promote readiness from kindergarten to college, improve 
schools, and increase student achievement.
    Over 40 years of research and effective practice demonstrate that 
families play critical roles in student success. They support their 
children's learning, guide them through a complex school system, 
advocate for better learning opportunities, and collaborate with 
educators and community organizations to push for school improvement. A 
strong relationship between families and schools is essential to 
eliminating the achievement gap and preparing all students for success 
in school and in life.
    Effective family engagement positions families as agents of change, 
who from the day their children are born, keep them on track to be 
successful in school, college and the workforce. The FSCE Working Group 
has identified three proven components of effective family engagement, 
which together provide a picture of what robust family engagement in 
education should look like.
    First, family engagement is a shared responsibility among schools, 
communities and families. From their side, schools and other community 
agencies and organizations must make the effort to engage families in 
meaningful and culturally respectful ways. And reciprocally, families 
must actively support their children's learning and development.
    Second, family engagement is continuous across a child's lifespan. 
Family engagement is not confined to traditional K-12 schooling, but 
rather begins from infancy, moves into early childhood programs, and 
continues through college and career, to support children during all 
stages of their development.
    Third, family engagement is carried out everywhere that children 
learn--at home, in pre-kindergarten programs, in school, in afterschool 
programs, in faith-based institutions, and in community programs and 
activities.
        overview of research on family and community engagement
    I have spent the last 30 years tracking the research that links 
family and community engagement to student success and school 
improvement, and then identifying effective practice that carries it 
out.
    In my most recent review of research with Dr. Karen Mapp of the 
Harvard Graduate School of Education, we found that family engagement 
is critical to closing the achievement gap. Specifically, when families 
are engaged in the education of their children, students' test scores 
and grades increase, and their attendance, attitudes and behavior 
improve. In addition, students are more likely to take higher-level 
classes, graduate from high school and continue to post-secondary 
education. The positive impact of school practices to engage families 
is greatest for low-income children, and the disparity in capacity 
between middle and low-income families to be engaged effectively is an 
engine of the achievement gap.\4\
---------------------------------------------------------------------------
    \4\ Anne T. Henderson and Karen L. Mapp, A New Wave of Evidence: 
the Impact of Family, School, and Community Connections on Student 
Achievement (Austin, TX: Southwest Educational Development Laboratory, 
2002). H.B. Weiss, S.M. Bouffard, B.L. Bridglall and E.W. Gordon, 
Reframing Family Involvement in Education: Supporting Families to 
Support Educational Equity. Campaign for Educational Equity (Teachers 
College, Columbia University, December 2009).
---------------------------------------------------------------------------
    A recent study on whole school improvement efforts demonstrates 
that effective family engagement is essential to turning around 
struggling schools. In their book synthesizing 15 years of research on 
school improvement, Anthony Bryk, John Easton and the other 
distinguished authors identify parent involvement as one of the five 
``key ingredients'' to school improvement in low-income schools.
    This study, Organizing Schools for Improvement: Lessons from 
Chicago, demonstrates that engaging families is not an ``add-on'' 
activity, but rather a critical factor in improving academic 
achievement. Moreover, the study found that parental involvement is 
necessary to ensure the success of other school improvement efforts, 
including school leadership and curriculum alignment.\5\
---------------------------------------------------------------------------
    \5\ Anthony S. Bryk, Penny Bender Sebring, Elaine Allensworth, 
Stuart Luppescu, and John Q. Easton, Organizing Schools for 
Improvement: Lessons from Chicago (Chicago, IL: University of Chicago 
Press, 2010).
---------------------------------------------------------------------------
    In this difficult economic time, it is important to note that 
engaging families is a cost-effective way to raise student achievement. 
Partnering with parents and the community to increase student success 
leverages local resources and capacity to drive education reform. In 
2008, economists Andrew Houtenville and Karen Smith Conway published a 
study showing that schools would have to increase spending by over 
$1,000 per pupil to attain the same results that family engagement 
would yield.\6\
---------------------------------------------------------------------------
    \6\ Andrew Houtenville, and Karen Smith Conway, ``Parental Effort, 
School Resources, and Student Achievement.'' Journal of Human 
Resources. XLIII, (2008), 437-53.
---------------------------------------------------------------------------
    Not only does engaging families improve student achievement, but 
building the advocacy and leadership capacity of parents drives school 
reform and improvement. A series of studies by the Annenberg Institute 
for School Reform in Providence, RI found that organizing and 
empowering parent leaders contributed to these changes in schools:

    <bullet> Improved school leadership and staffing;
    <bullet> Upgraded school facilities;
    <bullet> New resources and programs to improve teaching and 
curriculum; and
    <bullet> Higher quality learning programs for students.\7\
---------------------------------------------------------------------------
    \7\ Kavitha Mediratta, Seema Shah, & Sara McAlister. Community 
Organizing for Stronger Schools: Strategies and Successes. (Cambridge 
MA: Harvard Education Press, 2009).

    Despite strong evidence that family engagement raises student 
achievement, decreases the dropout rate, and stimulates school 
improvement, the majority of current family engagement policy and 
practice is not strategic, sustained, or linked to children's learning 
and development. Instead, schools and districts often commit what we 
call random acts of parent involvement--a back-to-school night, a flyer 
home about parent-teacher conferences, or a 1-hour workshop on bullying 
practices. These practices do not engage parents in meaningful ways and 
fall short of achieving the desired effect--to raise student 
achievement and drive education reform.
    The dearth of effective family engagement practices at the local 
level does not stem from lack of interest from educators or parents. 
Both educators and parents want to work together in meaningful ways to 
increase student success, but they say they need guidance and support 
on how to form such a partnership. Despite contrary misperceptions, 
studies show that all parents, regardless of their income level or 
socioeconomic background, want to be involved in their child's 
education and understand the importance of going to college.\8\
---------------------------------------------------------------------------
    \8\ Henderson and Mapp, 2008.
---------------------------------------------------------------------------
    In a recent survey by Hart Research and Associates, teachers listed 
increasing parent involvement as one of the most effective ways to 
improve public education--ranking it even higher than school discipline 
and the quality of school resources and facilities.\9\ These findings 
corroborate a 2005 survey of American teachers conducted by the Metlife 
Foundation. According to the survey, the biggest challenge that new 
teachers say they face is communicating with and involving parents. New 
teachers also identified engaging families as the area where they feel 
least prepared. Not surprisingly, they also reported that their 
relationship with students' parents is the area where they are least 
satisfied.\10\
---------------------------------------------------------------------------
    \9\ Bridgeland, J.M., Dilulio, J., Streeter, R. & Mason, J.R. 
(2008). One Dream, Two Realities: Perspectives of Parents on America's 
High Schools. A report by Civic Enterprises in association with Peter 
D. Hart Research Associates for the Bill & Melinda Gates Foundation.
    \10\ The MetLife Survey of the American Teachers: Transitions and 
the Role of Supportive Relationships (2005). NY: Harris Interactive.
---------------------------------------------------------------------------
    Congress has always recognized parent involvement as essential to 
ensuring equity and opportunity for all students. Since its inception 
in 1965, ESEA has included parents in efforts to improve education in 
low-income communities and hold schools and districts accountable for 
raising student achievement. Congress must move this work forward to 
ensure that parent engagement remains a cornerstone of Federal 
education law.
     national family, school, and community engagement work group 
                     public policy recommendations
    Despite this historic commitment, schools, districts, and States 
lack incentives and capacity to develop and scale-up proven, innovative 
approaches to engaging families. The FSCE Working Group offers five 
recommendations for the upcoming reauthorization of ESEA:

    1. Provide incentives and funding for effective family engagement 
at the school, district, and State level.

    <bullet> Increase mandatory funding for family engagement at the 
district level and for State Education Agencies (SEAs) to provide 
technical assistance and professional development on proven, research-
based strategies that engage families to improve student learning.

    Increased guidance and incentives for implementing research-based 
strategies is needed to leverage the Federal investment in family 
engagement to prepare all students for college and career. For example, 
the collaboration among parents, the community organizing group Austin 
Interfaith, and the Austin Independent School District, led to 
significant improvements in school climate, parent engagement, teacher 
commitment and principal leadership. Schools that were deeply involved 
in this effort showed gains ranging from 15 to 19 points in the percent 
of students meeting minimum standards on the State test, compared to 
only 4 points in schools with lower levels of involvement.\11\
---------------------------------------------------------------------------
    \11\ Kavitha Mediratta, Seema Shah, and Sara McAlister. Building 
Partnerships to Reinvent School Culture: Austin interfaith (Providence, 
RI: Annenberg Institute for School Reform, 2009).

    <bullet> Engage families in ensuring all students are prepared for 
college and career by effectively communicating academic standards and 
assessment data and requiring that parents play an integral role in all 
---------------------------------------------------------------------------
school turnaround strategies.

    By engaging families in the school improvement process, schools and 
LEAs build capacity for systemic reform that will result in improved 
student achievement. When families and community members have ready 
access to the information and resources necessary to support their 
children's learning, they are in a stronger position to hold schools 
accountable.
    We ask you to leverage the substantial public and private 
investments in better data systems by ensuring that college- and 
career-ready standards, assessment, and performance data are 
communicated to families and communities in a language and variety of 
formats they can understand. In addition, this information must be 
disseminated via processes that enable them to play their multiple 
roles in keeping children on the pathway to college and career.

    2. Strengthen Parental Information and Resource Centers (PIRCs) and 
focus their role on capacity-building and technical assistance, so that 
schools, districts, and States can scale up research-based family 
engagement practices that improve student achievement.

    Schools, districts, and States cannot implement effective family 
engagement strategies alone, and the PIRCs can help. The PIRCs are the 
only Federal program dedicated to engaging families in their children's 
education from cradle to career. There are 62 PIRCs across the Nation, 
in all States and territories, and they serve over 16 million parents 
annually--over 70 percent of them in title I and low-income schools. 
Congress can strengthen this program to provide high-quality capacity 
building and technical assistance to schools, districts, and other 
grantees to scale up research-based and innovative approaches that 
engage families and raise student achievement. Several PIRCs have 
already moved in this direction and are providing leadership on family 
engagement in their State--and having a significant impact on student 
achievement.
    For example, Utah PIRC has trained parent liaisons to work in 26 
low-performing schools to focus specifically on family literacy and 
training for parents with limited English proficiency. The parent 
liaisons work with the district to create a curriculum for parents that 
offers not only literacy development but also strategies for 
reinforcing student learning at home and navigating the educational 
system. Over 90 percent of parents enrolled in this program report that 
their children's grades have improved.
    California PIRC-1 partners with 18 school districts to conduct 
parent leadership academies that build parent knowledge and skills on 
how to navigate the educational system and advocate for school 
improvement. A quasi-experimental study conducted in 2009 found that 
students with parents participating in this Project INSPIRE Parent 
Leadership Academy increased their English language arts score by 12.8 
points and their math score by 18.5 points on California's State test.

    3. Provide high-quality in-service and pre-service professional 
development to build the capacity of teachers and principals to engage 
parents in raising student achievement.

    Engaging parents in improving student achievement allows teachers 
and principals to share the responsibility of preparing all students 
for college and career. Unfortunately, teachers (especially new 
teachers) have identified family engagement as the primary area where 
they feel the most challenged and least prepared.\12\ It is critical to 
provide high-quality, job-embedded professional development to teachers 
and principals in effective and meaningful ways to engage families. 
Several districts and PIRCs across the country have already taken 
leadership on providing this training.
---------------------------------------------------------------------------
    \12\ The MetLife Survey of the American Teachers: Transitions and 
the Role of Supportive Relationships (NY: Harris Interactive, 2005).
---------------------------------------------------------------------------
    For example, the Iowa PIRC's iSPIN program provides professional 
development, training, and support to teachers, parents, and 
administrators on how to partner to increase student academic 
achievement. The Iowa PIRC is housed within the School Administrators 
of Iowa to ensure that systemic family engagement is part of the 
school's core academic program. A recent and rigorous evaluation of the 
Solid Foundation program, from which iSPIN has been adapted, showed 
that participating schools had increases in student achievement that 
were significantly higher than in non-participating schools.
    The University of Arizona's math department houses Math and Parent 
Partners, which trains parent leaders and teachers to facilitate math 
workshops for parents so that they can support their children's math 
learning. Originally based in four States in the southwest, MAPPS 
Programs are now in place in nine States around the country. Results 
include enhanced teacher quality in math content knowledge, new 
approaches to teaching and learning math, and knowledge of meaningful 
ways to work with parents in math. An evaluation in two districts found 
that students of participating families improved as much as 80 percent 
on their standardized test scores.
    The Grow Your Own teacher initiative in Illinois aims to create a 
pipeline of highly qualified teachers, many of whom are parents from 
underserved communities, to improve teacher retention in low-income 
schools and hard-to-fill positions, and to increase the cultural 
competence and community connections of teachers. As of March 2009, the 
program has 500 candidates in the pipeline, nearly 90 percent are 
people of color with strong ties to their communities.

    4. Build Statewide Capacity for Family Engagement.

    For too long, State education agencies have been agents of 
compliance, rather than creators of innovation. The reauthorization of 
ESEA provides an opportunity to build the capacity of States to provide 
leadership, support and compelling incentives for effective family 
engagement in education.

    <bullet> Provide resources for States to build local capacity and 
offer incentives family engagement such as creating competitive grant 
programs for family engagement, hosting parent leadership academies or 
designing professional development.

    SEAs should create infrastructure to support the development and 
scaling up of effective practice as well as partner with other agencies 
and institutions to offer technical assistance and professional 
development to local schools and districts. Developing statewide data 
collection and evaluation system on family engagement can identify 
schools that would benefit from training and support, as well as to 
identify effective practice.
    For example, the Connecticut Department of Education has partnered 
with the CT PIRC to launch a program that has transformed ineffective 
family-school compacts into dynamic agreements between teachers and 
families to meet the goals of their school improvement plans. The 
program consists of professional development for high-need title I 
schools in urban districts, on-site technical assistance to school 
staff and parents as they develop their plans, mini-grants to cover the 
costs of workshops and meetings, and a formative assessment to guide 
schools toward increasingly effective practice. The Theory of Change 
Diagram (attached) documents the strategies used, actions taken, 
changes in attitudes and practice, and improved outcomes for students, 
teachers and families.

    <bullet> Establish statewide family engagement coordinating 
councils comprised of parents, educators, the early learning, higher 
education, and business community, and community and faith-based 
organizations to coordinate family engagement initiatives across a 
child's lifespan and in all learning settings.

    Creating statewide councils will engage families and key 
stakeholders in building State capacity for integrating and 
coordinating family engagement policies, initiatives, and uses of funds 
from cradle to career--preventing fragmentation and create a statewide 
family engagement strategy that is systemic, sustained, and scalable.
    The Maryland Department of Education created M-PAC, the Maryland 
Parent Advisory Council, which works with key educational and community 
stakeholders to drive educational decisionmaking and ensure that family 
engagement is a core component of all educational programs beginning in 
early childhood and extending through college graduation.

    <bullet> Piloting local family engagement centers that serve the 
unique needs of families in local communities.

    During the last reauthorization of ESEA, Congress determined a 
critical need for direct services for families, which would be provided 
by community-based organizations. In response, Congress added a funding 
trigger that would establish Local Family Information Centers if PIRC 
funding reached $50 million. Because this threshold was never met, 
these local services have not been implemented to remove barriers to 
family engagement in education.
    The FSCE Working Group recommends that ESEA include a local family 
engagement demonstration program that provides direct services, such as 
leadership training and family literacy, to families and removes 
barriers to family engagement. Community-based organizations know the 
needs and strengths of local families and can most effectively engage 
and support parents' involvement in their local school and 
neighborhood.

    <bullet> Codify a research-based definition of and standards for 
effective family engagement.

    Codifying standards for effective family engagement policy and 
practice will provide schools and districts with a robust picture of 
what effective family engagement looks like in practice. Fifteen States 
have already adopted the National Parent Teacher Association's 
research-based Standards for Family-School Partnerships into law or 
State policy as guiding principles for schools and districts to use 
when developing their strategies for family engagement. These standards 
describe conditions that should be in place in every school, to provide 
an essential foundation for a high-achieving learning environment.

    1. Welcoming All Families into the School Community: Families are 
active participants in the life of the school, and feel welcomed, 
valued, and connected to each other, to school staff, and to what 
students are learning and doing in class.
    2. Communicating Effectively: Families and school staff engage in 
regular, two-way, and meaningful communication about student learning.
    3. Supporting Student Success: Families and school staff 
continuously collaborate to support students' learning and healthy 
development both at home and at school, and have regular opportunities 
to strengthen their knowledge and skills to do so effectively.
    4. Speaking Up for Every Child: Families are empowered to be 
advocates for their own and other children, to ensure that students are 
treated fairly and have access to learning opportunities that will 
support their success.
    5. Sharing Power: Families and school staff are equal partners in 
decisions that affect children and families and together inform, 
influence, and create policies, practices, and programs.
    6. Collaborating with Community: Families and school staff 
collaborate with community members to connect students, families, and 
staff to expanded learning opportunities, community services, and civic 
participation.\13\
---------------------------------------------------------------------------
    \13\ National PTA. National Standards, Goals and Indicators for 
Family-School Partnership, 2008. http://www.pta.org/Documents/
National_Standards_Assessment_Guide.pdf.

    Kentucky is the first State to adopt and codify State standards on 
family and community engagement. Developed by the Commissioner's Parent 
Advisory Council (CPAC), these State standards for family engagement 
align with the State's academic standards, and describe what practice 
looks like at the novice, apprentice, proficient and distinguished 
levels. (National PTA drew on these standards to develop their national 
standards.) Schools and districts in Kentucky use these standards to 
guide their school improvement plans and link parent involvement 
strategies to student achievement. When schools fail to improve student 
test scores 2 years in a row, they undergo a scholastic audit performed 
by a team appointed by the State education agency. The audit protocol 
includes a review of school practices to engage families in improving 
student achievement, based on the State standards.\14\
---------------------------------------------------------------------------
    \14\ Commissioner's Parent Advisory Council, The Missing Piece of 
the Proficiency Puzzle: Recommendations for Involving families and 
community in improving student achievement (Frankfurt, KY: Kentucky 
Department of Education, 2007) www.education.ky.gov/NR/rdonlyres/
45597738-F31B-4333-9BB9-34255F02BC6D/0/PACtheMissingPiecev2.pdf

    5. Strengthen Federal support and coordination of cradle to career 
family engagement strategies and initiatives, including a robust 
---------------------------------------------------------------------------
Federal research agenda.

    <bullet> Support a family engagement research and evaluation 
agenda.

    Develop a research agenda that uses rigorous methodology to 
identify evidence-based and promising practices that engage families to 
raise student achievement. In addition, research on promising school 
reform practices, including school turnarounds, should include metrics 
for family engagement practices and their effects.
    With the United States trailing other industrialized countries in 
college and career readiness, it is clear that schools and teachers 
cannot close the achievement gap alone. We must provide resources and 
leadership for schools, districts, and States to scale-up best 
practices and build local capacity to partner with parents to raise 
student achievement.

    <bullet> Ensure equity and opportunity for all students by 
extending family engagement to young people who are Native American, 
homeless, or in the juvenile justice and foster care system.

    It is critical to extend family engagement to all young people, 
especially those in high-risk situations such as the juvenile justice 
and foster care systems where traditionally poor transition and 
discharge planning leads to lower educational outcomes for students.

    <bullet> Engage families in ensuring a positive school climate and 
phasing out punitive discipline policies such as zero tolerance that 
keep students out of school and prevent them from learning.

    Engage families in assessing school climate and developing and 
implementing strategies to improve school climate, school discipline 
policies, school safety, and student physical and mental health and 
well-being. This includes providing incentives to phase-out punitive 
school suspension and zero tolerance policies and to support proven 
classroom-based behavioral interventions like Positive Behavior 
Interventions and Supports (PBIS).
    Research has shown that school districts' use of ``zero tolerance'' 
policies has led to the near doubling of students suspended from school 
annually, increasing from 1.7 million to 3.1 million per year, between 
1974 and 2003.\15\ Parents are key stakeholders in determining the 
comprehensive needs of students and their community, and should be 
engaged in developing strength-based interventions that improve student 
achievement, motivation, attendance, safety, and behavior.
---------------------------------------------------------------------------
    \15\ Losen, D. and Wald, J. (May 2003). Defining and Redirecting a 
School-to-Prison Pipeline: Framing Paper for the School to Prison 
Pipeline Research Conference. The Civil Rights Project at Harvard.

    <bullet> Encourage the replication of best practices and 
innovations in the field by requiring the Government Accountability 
Office to produce a report on the current status, barriers, and 
successes in State and district implementation of family engagement 
---------------------------------------------------------------------------
strategies.

    Over the last several years, many superintendents, principals, and 
teachers have approached members of the Working Group asking for 
guidance on how to use funds on strategies that research shows work. 
Providing them with this information encourages local solutions and 
flexibility by highlighting a number of successful strategies as well 
as identifying States, schools, and districts in need of more support.

    <bullet> Support the development of research-based metrics for 
assessing effective family engagement in schools and their impact on 
improving student achievement.

    Require the Secretary of Education to appoint a committee of 
leading researchers and expert practitioners to develop metrics that 
assess the impact of family engagement strategies on student 
achievement. These metrics should be aligned with State and district 
assessment systems of educational programs and policies, including 
surveys for the Safe, Healthy, and Successful Students Program, to 
provide additional support to districts and schools that demonstrate a 
need to strengthen family engagement.

    <bullet> Reduce duplication and fragmentation, and elevate family 
engagement in education by establishing dedicated staff for integrating 
family engagement initiatives within the U.S. Department of Education 
and across Federal agencies.

    Family, school, and community engagement should be a cross-cutting 
priority for all ESEA programs. A high level of coordination within the 
Department and across Federal agencies could ensure that educators, 
families, and community organizations have the resources and incentives 
to develop integrated, systemic, and sustained family and community 
engagement strategies that drive student achievement and school reform.
    Once again, I would like to thank the committee and the other 
panelists here today for their commitment to our country's children. We 
owe it to our children to work together--parents, teachers, principals, 
and community and business leaders--to ensure that all students have 
every opportunity to be successful in school and through life. 
Preparing America's students for college and career is imperative not 
only for our own children's future, but also for the future of our 
Nation.
                              attachments

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Chairman. Thank you very much, Ms. Henderson.
    Now, to close out, before we open it up for general 
discussion, Dan Cardinali, president of Communities In Schools. 
Dan.

  STATEMENT OF DANIEL J. CARDINALI, PRESIDENT, COMMUNITIES IN 
                     SCHOOLS, ARLINGTON, VA

    Mr. Cardinali. Thank you, Senator Harkin. Thank you to the 
committee and to you particularly for your ongoing support to 
Communities In Schools and the students that we serve.
    I would like to make a point that I think is central to 
what we just heard, which is we have an enormous number of 
insights about how to improve the way young people achieve 
academically. I think at the heart of the problem is the fact 
that we don't have an intentional strategy often to integrate 
them and align them with the other sets of school reform 
strategies.
    We hear an enormous amount about the importance of teacher 
quality and data systems and high standards, which we think are 
incredibly important. A holistic approach to a child takes 
those sets of resources of afterschool programming, mentoring 
and libraries and align them and integrate intentionally such 
that the principal and teachers have a whole bucket of 
resources as they are trying to educate children.
    The question is, can you, in fact, effectively, 
sustainably, and at scale integrate resources and produce 
academic outcomes? I want to offer Communities In Schools up as 
an example of being able to actually do that. What is the 
effectiveness of it? What is the data?
    We are just finishing a 5-year, third-party evaluation of 
our organization by ICF International, which runs a ``what 
works'' clearing house. And the data is very clear. When you 
integrate community resources in alignment with school 
improvement, you see lower dropout rates, improved graduation 
rates, improved math and reading proficiency scores at the 
fourth and eighth grade level.
    More importantly, you can look at two match comparison 
schools that are getting the same sets of resources. One of 
which is integrating it with an individual trained to do this 
with teachers and principals and one that is not. The one that 
has the integrator statistically outperforms the school that 
has the same sets of resources that are not being integrated.
    There is very clear evidence that integration of community 
resources is an effective school reform strategy. Not a silver 
bullet, must be put in alignment with other sets of reforms.
    Two, is it sustainable? CIS, Communities In Schools, has 
been working for 33 years. We started with 100 kids in Atlanta, 
GA, in one school, and now we are in 3,300 schools, working 
with 1.3 million young people and over 200,000 parents or 
guardians across the United States. We know that school 
systems, local philanthropic communities, as well as municipal 
and public school systems want CIS. There is more demand than 
we possibly can meet right now--there is more demand than we 
have supply.
    The final point I want to make is about scalability. In 
order for good education reform--integrated student services, 
in this case--to be effective, it must be able to work in 
urban, rural, and suburban communities across America. I am 
happy to say that our network is in 26 States and the District 
of Columbia. Half of our affiliates are in rural communities. 
Half are in suburban and urban.
    There is an effective way for us to meet the needs of 
whatever the presenting challenges kids have, and then be able 
to resource them by using the services available in that 
community.
    I would like to end by simply encouraging the committee to 
support the Keeping Parents and Communities Engaged Act. It is 
an effective strategy that we hope to get integrated into the 
reauthorization of ESEA that would help support this 
integration of the terrific work we have heard this morning.
    Thank you.
    [The prepared statement of Mr. Cardinali follows:]
               Prepared Statement of Daniel J. Cardinali
                                summary
    An introduction to Communities In Schools will include background 
on the organization and demographics of the people we serve.
    The importance of integrated student services and comprehensive 
supports as they relate to school reform and improvement proposals will 
be outlined. This includes the adverse consequences on other reform 
efforts if integrated student services are not included. Mr. Cardinali 
will provide an overview of the impact of integrated student services 
on improving academic performance, particularly among students with the 
greatest need.
    The testimony will also mention the results of an independent 
evaluation of the Communities In Schools Model, a description of the 
financial savings associated with the model, and the flexibility and 
mobility of the model to cover diverse communities.
    The testimony will close with the request for the inclusion of S. 
1411, the Keeping Parents and Communities Engaged (Keeping Pace) Act in 
the reauthorization of the Elementary and Secondary Education Act. This 
is the legislative vehicle that creates incentives for schools to work 
with communities and other stakeholders to provide integrated student 
services as well as supporting other parental engagement and community 
engagement strategies.
                                 ______
                                 
    Chairman Harkin, Ranking Minority Member Enzi and members of the 
committee, thank you very much for convening this panel to discuss 
issues critical to our Nation's future and for providing me an 
opportunity to testify today. Chairman Harkin, I would like to extend a 
special thanks to you for your strong support and leadership of our 
students over the years.
    My name is Daniel Cardinali and I am president of Communities In 
Schools. We are a national organization of 57,000 volunteers and 5,000 
professional staff working together to provide integrated student 
services to more than 1.3 million students in 3,300 schools and support 
to nearly 200,000 parents or guardians. Ninety-six percent of our 
students are eligible for free and reduced-price lunch and more than 80 
percent are students of color. Each year Communities In Schools lowers 
dropout rates and increases graduation rates. About 80 percent of the 
students we serve demonstrate academic improvement.
    This is an extraordinary time to be in education. We commend the 
committee, the Congress and the Administration for their initiatives to 
support schools and your efforts to drive the meaningful reforms 
essential to strengthening our education system. Ensuring that highly 
qualified teachers teach to high standards and sharing high 
expectations with students will prove critical to providing students 
with a globally competitive education. We also believe that measuring 
student progress with effective assessments and improved data systems, 
and enabling educators to identify troubling trends before they become 
serious challenges will provide real-time and evidence-based 
interventions to keep all students academically proficient.
    We firmly believe that these strategies are absolutely essential to 
improving public education and closing the achievement gap. However, 
our 33 years of experience also tells us that these reform efforts 
alone are insufficient. In order to achieve the full benefits of 
education reform, benefits essential to our students and Nation, we 
must include integrated student services as an integral part of these 
efforts. To this end we support the Keeping Parents and Communities 
Engaged or Keeping PACE Act that would support integrated student 
services and ensure its inclusion alongside these other important 
reform strategies.
    We must position students to achieve success. In public education, 
this means we must adopt a holistic view regarding the needs of 
students. Dropout risk factors can be present even before a student 
walks through the school door. If students are hungry, suffering from 
chronic (and preventable) health challenges, if students are worried 
about their personal safety, if students have no one to encourage them 
to aspire to post-secondary education and walk with them through the 
myriad challenges--especially those challenges faced by poor children 
in America on a daily basis--then even the best teachers using a 
terrific curriculum and the best data systems will not be successful 
unless there is a system in place to address these needs. Teachers 
cannot attend to these challenges nor should they be expected to do so. 
Quite simply teachers are professionals, not trained to address these 
needs and efforts to do so only serve to distract them from the 
critical roles they play.
    It is my belief that even the most effective school reform efforts 
can fall short because they fail to include a comprehensive student 
support strategy.
    Across the country there are a number of effective organizations 
that provide student support services. However, my comments will focus 
on the work of Communities In Schools as an effective, sustainable and 
scalable national example of a successful integrated student support 
model. After 33 years, Communities In Schools knows that integrating 
student services will ensure children are ready for that effective 
teacher, so that even the most economically challenged students in 
America have a shot at the American Dream.
    The evidence supports this conclusion. This year, Communities In 
Schools is completing a 5-year independent evaluation of its integrated 
student services model. ICF International, the esteemed research 
organization that manages the evidence reviews for the dropout 
prevention section of Department of Education's What Works 
Clearinghouse, conducted an analysis of our integrated student service 
programs. The results are very compelling: according to ICF, these 
programs reduce the dropout rate, increase graduation rates, and 
increase 4th and 8th grade math and reading proficiency scores. It is 
important to reiterate that these results are drawn from many of the 
poorest schools in America.
    As an organization, Communities in Schools has grown its work from 
serving 100 students in one school to serving more than 1.3 million 
students in 3,300 schools, because integrated student services programs 
work and remain affordable to schools and communities. Over the long 
term, integrated student services generate substantial savings. With an 
average cost of less than $200 per student, covering a student from K-
12 would cost $2,600. Compare that to the roughly $260,000 a high 
school dropout is estimated to cost society in the form of lost income 
and taxes, higher use of social services and increased likelihood of 
criminal justice costs.
    Our model adapts effectively to serve a wide range of communities 
in America. Operating in thousands of rural and urban school districts 
alike, CIS demonstrates that integrated student services is a 
transferable school reform strategy.
    As the committee considers the reauthorization of the Elementary 
and Secondary Education Act, we encourage you to include integrated 
student services as an essential element of these reforms. The Federal 
Government has a long history of driving effective reform at the State 
and local levels, often seeking to expand educational opportunities for 
some of our most vulnerable students. Including the Keeping PACE Act as 
part of the reauthorization is the next most important step in this 
evolution. By aligning integrated student services with school 
improvement, turnaround and reform strategies we will ensure that the 
American Dream remains within reach for our Nation's poorest youth.
    The Keeping PACE Act has been co-sponsored by a group of 25 
legislators and endorsed by 40 leading education, health and community 
organizations, all of whom have a stake in the success of our Nation's 
young people. As you work to reauthorize the Elementary and Secondary 
Education Act, we urge you to include comprehensive services as an 
element of school transformation in order to achieve the objectives of 
that landmark legislation and ensure every child has equal access to an 
excellent education.
    Thank you for your time and I look forward to answering any of your 
questions.

    The Chairman. Mr. Cardinali, thank you.
    Thank you all very, very much for being here and not only 
for your testimonies, but for so many years of your involvement 
in addressing the needs of the whole student.
    And speaking of students, I see that Senator Dodd brought 
his two children here today. I just remembered, today is Bring 
Your Daughter to Work Day. I used to bring mine, but now they 
are too old.
    [Laughter.]
    My granddaughter is only 18 months. She is a little young 
for this.
    Grace and Christina, welcome.
    Senator Dodd. Probably not a good idea, I realized when I 
did this, to bring them into a room on elementary and secondary 
education, and they are skipping school today. This is really--
--
    [Laughter.]
    Probably should have taken them to a financial reform 
regulation hearing.
    [Laughter.]
    It is being covered on C-SPAN, too. I am in trouble. But it 
is a good education process. I am listening carefully to what 
you are saying, having Christina, who goes to the Peabody 
School, a public school here in Washington. Her sister Grace 
goes to the Hyde School, a public school in the District, and 
both are very good students. I am delighted to have them here.
    The Chairman. And she is keeping diligent notes on what you 
are saying.
    [Laughter.]
    Well, listen, thank you again.
    I don't see any cards up. So I will turn mine up.
    In reading your testimonies last night and then listening 
to you this morning, the one thing that hits me is that, No. 1, 
we are talking about adding on different things to these 
students' responsibilities--things like longer school days. Ms. 
Jefferies was talking about adding 650 hours.
    Others were talking about longer school days. Mr. Schwarz, 
you talked about longer school years. It seems to me that you 
have to be careful about how you add time and in a way that 
will keep students interested.
    We know the attention span of young people. How do you keep 
them interested, and how do you deal with the students that are 
at the top end of learning, the AP kids that are very bright? 
How do you keep them interested without segregating them out 
into separate schools? We used to call them centers. Kids would 
go to centers and stuff like that. How do you do that?
    And second, if you are going to add all this stuff on, 
doesn't this require more personnel? I mean, can you ask a 
teacher, who is currently putting in 10 hours a day to put in 
16 hours a day? Can you say, ``you are now working 9 months, 
and then you go to professional development in the summer. Now 
you have to put in 11 months, and that extra month you have, 
you have participation in professional development. You don't 
get a vacation. You don't get time off for personal 
development?''
    It seems like as you add all this stuff on, you are going 
to have to add more staff, counselors, mentors, and librarians. 
I know the number of librarians in Iowa were reduced this year 
and last year.
    How do we accomplish all of this? Adding more people, and 
keeping kids interested? How do we prepare instructors and 
staff to work with them for a longer day and a longer school 
year?
    Ms. Pittman, you have your card up.
    Ms. Pittman. I think you are asking a very important 
question, and it is critical as we recognize the need to be 
intentional about making sure that young people have more 
learning opportunities during more of their waking hours that 
we not be bureaucratic about it. We have an opportunity to make 
this not the Elementary and Secondary Schools Act, but the 
Elementary and Secondary Education Act, and to have it live up 
to its name. Because education doesn't just happen in the 
school.
    Mr. Cardinali's comment about integrating the resources is 
so critical. The first thing that we really have to do, and 
this is one of the things that our organization does, is to 
help communities map the resources that exist that can be 
applied toward learning in school and out.
    You get those folks to the table and get them organized to 
have a shared commitment to fill that pipe, insulate that pipe, 
which doesn't mean that schools have to do it all. We often 
hear schools can't do it all. Then when we are challenged with 
these kind of ideas like extend the learning day, we 
automatically fall back on, well, schools need to do it.
    We know that we have a rich, rich array of organizations 
from nonprofits organizations to the faith community, to 
business community, to libraries and museums, our rec 
departments, that are really ready to take on this role. We 
haven't been intentional about first adding up the pieces that 
we have, seeing where they fall across the neighborhoods, and 
then deciding to bring them together to make a plan for how to 
do this.
    Where we see this happening so that the school really is 
being the central coordinator of those resources, but not 
assuming that it is its sole responsibility to do that is where 
we see the most progress.
    The Chairman. Thank you.
    I want to call on Mr. Schwarz, and then I am going to go to 
Senator Bennet.
    Mr. Schwarz.
    Mr. Schwarz. Thank you for raising the question. It is an 
important one, and I think the worst thing we could do is take 
a failing school with a disengaged kid and add more of the 
same. And that has been tried. A number of districts have just 
extended the day by an hour or two with the same teachers, 
using the same techniques. The research is in. It is not 
working.
    What can be done, though, in an expanded learning time 
environment and can be done well, is to use the extra time as a 
lever for reform in the whole day. It does need to be, what we 
have been referring to as a ``second shift'' of educators. Some 
of them are AmeriCorps members, recent college graduates, and 
community members serving as mentors, tutors, and trainers of 
the young kids.
    I think an afterschool or expanded learning time approach 
that adds those 3 or 4 hours of additional learning, but makes 
it different. It has to be hands-on, interesting, fun, 
engaging, get the kids out doing field trips to science museums 
and colleges, and doing the kind of things that have been too 
often squeezed out of the regular school day, adding back in 
arts, music, athletics, apprenticeships.
    If you do that, you are going to have a chance for kids to 
get engaged in learning, get excited about learning. You are 
going to give the teachers in the school more training 
opportunities. We see our regular school day teachers doing 
training alongside our AmeriCorps teaching fellows, and both of 
them learning a great deal. Then we bring into the mix 
scientists and other members of the community that can bring 
learning alive in powerful ways as well.
    The Chairman. Before I call on Senator Bennet, I am just 
going to say that one of the things I have been focused on for 
a long time is the lack of any physical exercise. I didn't say 
physical education. I always say physical exercise for kids in 
school because it is important for them to be active.
    You know, when I was a kid we had an hour of physical 
exercise a day. We had 15 minutes in the morning, 15 in the 
afternoon, and a half hour at lunch. You had 1 hour a day, when 
you had to go outside, run around, do things, get exercise. 
Kids need to burn off energy. How do you integrate physical 
exercise into the day also?
    Senator Bennet.

                      Statement of Senator Bennet

    Senator Bennet. Thank you, Mr. Chairman.
    I want to join Jack Reed and say welcome to Harris Wofford, 
who is here today, and a reminder to me, seeing Harris, the 
embodiment of an entire generation's commitment to civil rights 
in this country. I think that is really, to me, what these 
hearings ought to be about.
    When you hear Ms. Pittman cite the statistics that she did 
that 3 in 10 seniors in this country, high school seniors are 
college ready, that is a civil rights issue, in my view. When 4 
in 10 seniors or, I guess, 12th graders are work ready, that is 
a civil rights issue, I think. That comes after the 50 percent 
dropout rate that we are seeing in America's cities all across 
the United States.
    Because Geoffrey Canada is here and because I know of the 
work that he has done, I am going to ask him a very unfair 
question. Chancellor Klein was here last week or the week 
before, and I don't think he would mind. If you were in charge, 
based on what you have seen, what would you do to begin to 
change those profoundly unjust outcomes for America's children?
    Mr. Canada. Thank you, Senator Bennet, and I think you know 
from conversations how absolutely upset I am at the State of 
American education for huge numbers of our children. I happen 
to think it is a national security issue. I don't think we are 
going to stay competitive. I think that we have countries like 
China and India, which are intentionally outworking us in terms 
of building the infrastructure for education.
    One of the first things I would do, and this would be--I 
know that Senator Dodd is probably coming from or going to some 
hearings on the economic crisis. I would love to have in front 
of me and in front of America the people who are responsible 
for holding up a system that has failed our children and making 
it so difficult--for those of us who want to bring change--to 
bring change to that system.
    I think that needs to be exposed to the entire country, 
that when you begin to ask yourself why is it so difficult for 
us to do basic changes--to change the school day, to change the 
school year, to air condition our schools so they can be used 
in the summertime--you run into the interests of adults, 
powerful interests. When you look at the food and the nutrition 
in schools and why is it so terrible, you run into the 
interests of adults. I think that as a country, we have focused 
on other issues to the detriment of our children.
    If I had the authority, I would be having hearings. I would 
be exposing, I think, what--you see a place like Detroit, 3 
percent of the children in the fourth grade on grade level. You 
just say how can America sustain itself as a world power if we 
are allowing huge numbers of our--and who is responsible? And 
we have got to make some people responsible for that.
    So I am sorry. See, you knew you were going to get me 
going.
    [Laughter.]
    I said I wasn't going to get in trouble. But you know that, 
and I know Senator Dodd and some of the other folks who know 
me, Senator Franken, know that I think this is a real crisis in 
this country.
    I think that on both sides of the aisle, we have been 
unwilling to point to the issues where the unions come first, 
the issues where big business comes first, and our children 
come last. We can't afford to do that in this country any 
longer, in my opinion. And I think it is time to name names and 
point fingers and really bring some change to this system in a 
way that is going to make a lasting change.
    Sorry. I didn't mean to go on that long, but I got going.
    The Chairman. If you don't mind, I will call on Clare 
Struck and then Ms. Jefferies, and then I will go to Senator 
Dodd. Is that fair enough?
    Senator Dodd. Yes, sure.
    The Chairman. OK. Ms. Struck.
    Ms. Struck. Thank you, Mr. Chairman.
    When you talked about how to keep the kids engaged and 
interested, something that we have tried just recently this 
year at Price Lab School is project-based learning through J-
term, and we are preparing now for our May term courses. The 
classrooms really came alive with these mini-type week-long 
courses where the students got to choose their own topic or 
choose from a list of topics, where they were actively engaged 
in small groups.
    Our high school students, some of them did talk radio 
shows. Some of them were in experimental string theory. Our 
middle school students did a project on empathy, and they 
developed video vignettes on how to teach others about empathy 
and what to do if you see someone who is not being empathetic, 
who is bullying, who is harassing, or who is hurting other 
kids. They were quite powerful.
    Our elementary students--we had a garage sale at our 
school, and the students voted on what did they want to do with 
the profits they made? This was shortly after the devastation 
in Haiti, and they decided to give their money to the American 
Red Cross for Haiti.
    So much success. When it was time for the students to go to 
their mini courses, to their J-term, May term, literally, the 
exuberance was in the hallways. Also, we tied these to our Iowa 
core curriculum so they can be standard-based.
    One other point I would like to make is, we do need to get 
outside. We need to move. Our children need to move. Wellness 
is really important, not competition and PE. At Price Lab 
School, I have been there 27 years, and we have had daily PE. 
Our juniors and seniors have a healthy, active lifestyle where 
they begin to monitor their own time. They don't go to a 
regular PE course.
    Those are some suggestions that I would like to make in 
response to your questions.
    Thank you.
    The Chairman. Are you familiar with what Rick Schupbach has 
done at Grundy Center?
    Ms. Struck. Yes. Yes, in fact, our PE teacher, our former 
PE teacher Lori Smith has worked closely with him with that.
    The Chairman. Ms. Jefferies, and then I will go to Senator 
Dodd.
    Ms. Jefferies. Thank you so much, Senator Harkin.
    You asked what do you do? Is it too much time to ask of 
students? It is a question I get a lot when I bring guests to 
our centers, and they ask our scholars, ``What would you be 
doing if you weren't here? Isn't this too much?''
    Time and time again, our scholars say, ``I would be bored. 
I would be at home, playing video games. My parents wouldn't be 
there. I would be bored.''
    And just because they would be bored without our programs 
doesn't mean that they need to be forced into our programs. 
They need to have choices, and I think it is important to have 
options afterschool and in the summer and make those options 
really engaging.
    It was--coincidentally, when I got the call about this 
hearing last week, I was actually on a field trip with our 
scholars at the Four Seasons in Georgetown, and it was a day 
that the schools were closed, DC Emancipation Day. Our scholars 
were out there planting the vegetable garden for Bourbon Steak 
Restaurant, and then they learned all about healthy eating, and 
they had a farm-fresh meal.
    The executive chef taught them about it. They went home 
with herb gardens. They learned about things they never would 
have learned normally. It is very important not only to pique 
an interest in science, but also to teach them about nutrition 
and health.
    And we have incorporated physical education, which you also 
raised, into our programs. Once every day for an hour, they 
have opportunities to be physically active. We do general 
sports, but then we also do hip-hop dance and martial arts and 
all different kinds of things.
    The Chairman. The other part of my question was also about 
personnel, teachers, counselors and other support staff. How 
many more personnel do we need?
    Ms. Jefferies. Yes.
    The Chairman. I am sorry, I said Senator Dodd. I meant 
Senator Franken next because you had your card up.

                      Statement of Senator Franken

    Senator Franken. Thank you.
    I noted in your written testimony, Mr. Canada, you talked 
about when you finished with it, sort of the need to cultivate 
a culture of success rooted in passion, accountability, 
leadership, and teamwork. I was inspired by that, and I would 
urge all of us who have this enormous responsibility to 
reauthorize this act, all of us on this committee to work in a 
culture rooted in passion, accountability, leadership, and 
teamwork.
    I share Senator Bennet's and your passion and outrage at 
what we have now. This is kind of a question for everybody, and 
I am sorry to do that because maybe that is not the best way 
this works. I want to talk about return on investment. I want 
to ask a question about return on investment.
    What I see is things like--take Ms. Struck--school 
counselors. Minnesota, we have a ratio of 800 kids for each 
school counselor. OK? That is an actual funding issue, right?
    I want to extend school lunch, free school lunch to kids 
from 130 to 185 percent of poverty. A lot of them, it costs 40 
cents for lunch for the reduced lunch. A lot of parents run out 
of money, and kids don't have lunch or they have a cheese 
sandwich. Or they don't--they are embarrassed to have a cheese 
sandwich. So they don't have lunch.
    Kids can't learn if they don't have good, healthy food. We 
should be giving these kids breakfast and good, healthy 
breakfasts and good, healthy lunches. Sometimes they said, 
``well, we need these soda machines in there so that we can pay 
for an afterschool program.''
    All of you, so many of you have talked about this not being 
about school, it is about being from birth to when you 
graduate, meaning early childhood. We know what the return on 
investment is on early childhood. We reap. It is either do that 
or send them to prison at the end of the day for $50,000 a 
year.
    Afterschool programs, I see schools in Minnesota cutting 
the afterschool programs, cutting the arts, cutting athletics 
because they don't have the funding. Many of you talked about 
extending the hours of learning and the number of days. These 
schools can't pay for it because of special ed. They have to 
pay for special ed.
    I guess my question is, if we really care about our 
finances, our fiscal shape in this country, what is the best 
investment for our children and our grandchildren? Anybody want 
to deal with that?
    Mr. Canada.
    Mr. Canada. Thank you, Senator.
    Look, I am a real believer that the Nation's children are 
going to really be in trouble because of the States' budget 
issues that every State that I know of is facing right now. 
They are cutting not the fat anymore. I think they are cutting 
into the muscle when it comes to education, and I just think 
that we have missed an opportunity to really rethink the 
contract that America has to have with its schools and its 
educators.
    I think you are right about return on investment. There are 
a lot of programs that, quite honestly, aren't very good, 
right? A lot of them keep getting funded, and they are just not 
doing the job. We should get rid of those programs. They really 
should be defunded, and that is very tough to do.
    The taxpayer, I think, is willing to invest in their 
children if they believe there is a return, if it is just not 
going to be another dollar that doesn't produce an impact.
    Senator Franken. That would be very helpful to us to know 
what to cut, so that we can do the things that work.
    Mr. Canada. I just think that that is one of the--that a 
lot of us here are looking at this issue of outcomes, and can 
you really demonstrate that the investment is paying off in a 
way that is real? And I think that is important.
    But I think you raise a larger question that I would just 
like to take 10 seconds. Are we investing enough in our 
children in this Nation? I think the answer is no.
    I think that there are huge areas in this country that all 
the children need to be in a full-day early education program 
if they are going to be able to be competitive. We just don't 
have the support, and we don't have the funding for it.
    Afterschools when parents are working and kids have no one 
at home, afterschool programs aren't a luxury. They are a 
necessity for those young people. There is not a funding source 
for that kind of a situation. I think that we have got to hold 
those of us in this business accountable for results, but we 
also have to be willing to pay for what we would consider 
realistic investment.
    One counselor to 800 kids is a joke. That is not going to 
produce the kind of support young people need, right? We are 
probably not even going to be able to hold onto that with the 
State budgets being in the condition they are in.
    I just think that, as a Nation, we have got to really do a 
real investment in education to support things broadly across 
this country. We have got to hold people accountable.
    Senator Franken. Would anybody care to just say one program 
that doesn't work, or would you like to submit that in writing 
to us?
    [Laughter.]
    Mr. Canada. I will tell you the famous one that people 
quote all the time, and some people have heard that. I don't 
know that it is publicly funded, but I have just heard that the 
DARE program is a program that pretty clear it doesn't produce 
the kind of results that--yet it is funded all over the 
country. I am sure the police forces will all be coming after 
me for making that statement.
    [Laughter.]
    But I think you are raising the right question. There are 
other ones, and we have not been transparent, those of us in 
the business, right, about putting those programs on the table. 
And we need to do that.
    The Chairman. Yes, we have another one called Abstinence 
Only.
    [Laughter.]
    If you want to get into things that we spend a lot of money 
on which we have data that show that doesn't work.
    Ms. Greene had hers up, and then Senator Dodd. Ms. Green, 
Senator Dodd, and then I will go to Senator Hagan.
    Ms. Greene. Thank you.
    There have been a few questions on the table I would like 
to address. First of all, you asked about student interest in 
lengthening the day. I would like to talk about how our 
libraries do that.
    In our libraries, we have inquiry-based learning. That is, 
what is the student connected to? What are they interested in 
learning about that creates the passion for their learning? 
Libraries help foster the habits of mind that will have 
students want to go beyond the school day to continue to learn.
    Our libraries are often open before and afterschool for 
children to have access to. Our libraries have a Web presence, 
which makes materials available 24/7 through databases and 
online resources.
    I know myself, personally, have worked on summer reading 
programs where I have blogged all summer on our Rhode Island 
Children's Book Award, encouraging student reading and having 
our students respond online to what they are reading and having 
contact with me all summer long.
    We also have the students engaged because they are creating 
knowledge. They are creating Wikis and blogs, video 
productions.
    I have parents who help me in the library all the time. 
Afterschool, I have students wanting to stay late to create 
videos with me. They want to be there. And through parent help 
and with my working with them, they are able to do those things 
that they are interested in.
    We have also talked about unjust outcomes. Certainly, all 
children deserve equal access to library and library 
instruction. And as far as return on investment, my background 
before I was a school librarian, I was in accounting. I 
certainly understand the need for a balanced budget.
    I can tell you our school libraries are a very wise 
investment. In Rhode Island, 40 percent of our students have 
access to a consortium of school libraries that share 
materials. That means we might have a few thousand books in our 
individual libraries, but through sharing, our students have 
access to over a million. But only 40 percent of our schools 
are able to afford to take part in that at this time.
    The Chairman. Senator Dodd and then Dr. Sugai, followed by 
Senator Reed and then Senator Hagan.
    Senator Dodd. Thank you very much, Mr. Chairman.

                       Statement of Senator Dodd

    Let me echo Michael Bennet's comments about Harris Wofford. 
Harris, I don't know if you are still here or not back there?
    The Chairman. Yes, he is right there.
    Senator Dodd. Harris, it is wonderful to see you, and 
again, I underscore the points. Harris and I worked together as 
former Peace Corps volunteers. Harris was present at the 
creation of these programs going back decades ago. It is 
wonderful to see you in the room. Thank you, once again, for 
being here.
    Dr. Sugai, I appreciate your being here. I would be remiss 
if I didn't recognize a constituent. He does a wonderful job at 
the University of Connecticut, working in special education 
from classroom teachers to lending authorities and the whole 
positive behavioral support system. We thank you for your work.
    I want to pick up on two things. As my colleagues all know, 
I am winding down here with a few months left of serving in the 
U.S. Senate. Having arrived here the same day with the fellow 
here to my right a few years ago.
    I spent a lot of time and started the Children's Caucus 
with Arlen Specter in the Senate. My first real legislative 
efforts were the Child Care and Development Block Grant 
Program, beginning some 20 years ago. I wrote the Family and 
Medical Leave Act, which took 7 years, several vetoes. Tom 
Harkin was my great ally in that effort. Head Start programs, 
infant screening.
    All of this collaborative notion, I think, Ms. Pittman, you 
were absolutely correct. Utilizing other institutions within a 
community, mapping them out, determining what is there and how 
to access them rather than just the school-centric focus.
    I want to raise the question that has been raised by Mr. 
Canada and you, Ms. Henderson--did I pronounce your name 
correctly? It is, yes. Anne Henderson. Because I happen to 
agree with the notion that by the age of 3, the achievement gap 
is already there.
    So, we have to prioritize. We can't do everything, 
obviously. I think Al was correct, and so we have to be 
selective. But I think there is a general understanding and 
agreement that how a child begins those early days, long before 
they end up in any of your classrooms or doing anything else, 
so much has already been pre-determined.
    Whether or not you have a great afterschool program or a 
very creative system that gives them all sorts of access to 
wonderful new things that weren't available even a generation 
ago, if you don't begin right, nothing else works anyway. So if 
you have to prioritize, you have got to start, it seems to me, 
at the very foundation of all of this.
    That begins with parents and having the ability, to go to 
your point, Mr. Canada, that we have tried over the years--by 
the way, family and medical leave is to deal with illnesses or 
problems of parents and children. I have tried for years to get 
24 hours a year so that a parent could be away from work 
without losing their job if they could go to a PTA meeting, 
attend a sporting event, just that connection.
    I would like you to talk about this because if, in fact, 
Mr. Canada is correct--and I believe he is--and I would like to 
hear from other than Mr. Canada, Ms. Henderson, how you respond 
to this, as teachers and as educators, this notion of 0 to 3, 
that family involvement, that beginning process here. How that 
child starts their education and the ability to make a 
difference there, and then how that relates to these other 
questions.
    If anyone wants to comment, I would be very interested in 
hearing your thoughts. If I had to prioritize, that is where I 
have always tried to focus--the beginning. Getting that right 
doesn't mean you are going to get everything else right. But if 
you get that wrong, it doesn't make any difference what you do 
on the other end. That achievement gap--I shouldn't say it 
doesn't make any difference, but it is harder, much harder.
    The Chairman. I might just add--I raised with Secretary 
Duncan the other day and with others on numerous occasions, 
that maybe, just maybe, we ought to think about redefining 
elementary education. Education begins at birth, not when 
children show up in your schools.
    Who wants to respond to Senator Dodd?
    Senator Dodd. How do we incorporate that in ESEA, if you 
can? I mean, can we do that?
    The Chairman. I don't know. I am throwing that out there. 
Who wants to respond to Senator Dodd?
    Ms. Pittman. I will jump in. I would be happy to start.
    I think that the issue of early investment is absolutely 
critical. I mean, the research has been in for a long time on 
the importance of not just preschool, but really those first 3 
years. And so, parents as first teachers leading up to this, 
and so we have to do everything that we can on that side.
    We have seen a push for universal pre-K. We have seen 
pushing that back from age 4 to age 3. We have seen a 
progressive shift at the State level of having the formal 
education system back up to grab those early years because it 
is important.
    Equally important, we have seen much better partnerships 
between the early childhood community and schools and, on the 
other side, early childhood really defining themselves up to 
age 8. So you have that overlap.
    I would suggest, with the idea of focus, clearly, if we 
understand development, we have to start early. Everything that 
we know, including the studies now from Jim Heckman, who gave 
us the first data on the importance of investing in early 
childhood, is that we need early and sustained investment. As 
important as it is to start early, we can't forget about the 
other kids.
    But if we are going to get a good return on investment, 
every dollar that we put in, we have to figure out how we are 
going to sustain that investment. I would leave you with sort 
of a simple equation, which is I think quantity minus quality 
equals zero.
    What we have right now is an education structure that 
allows us to keep kids in shells of buildings that can hardly 
be called educational institutions. But they come in, and they 
sit there, and we feel OK about it. That is quantity. We are 
moving them into buildings. We really need a definition of 
quality education that is a holistic definition.
    If this is the panel to talk about the whole child, we 
really need this Elementary and Secondary Education Act to back 
up and define what quality education is from birth through 
young adulthood that addresses academic, civic, social 
competencies, basic health and exercise issues, that 
understands that education doesn't just happen in the school.
    Dan Domenech, the president of the American Association of 
School Administrators, has challenged superintendents to get 
over what he calls the ``edifice complex,'' the idea that 
everything happens inside the building. I do think we have the 
partners. They are not evenly distributed in all neighborhoods, 
but we can find them and begin to invest in them.
    If we have a definition of quality that is unrelenting, not 
down to the name of the program, because for every branded 
program, I can tell you some of them are good and some of them 
are bad, even under a brand name. We need standards for quality 
that we come in and look at building by building, organization 
by organization, and then we either ask them to improve or get 
out of Dodge.
    The Chairman. Does anyone else really want to weigh in?
    Mr. Canada. Can I just weigh--and I know he asked for 
someone other than me. But, Senator, there are two things. One, 
one of the things you may not know is I am the chairman of the 
Children's Defense Fund board, and all of us owe you and this 
Nation a debt of gratitude. We are very aware of your 
leadership around these issues of education.
    I am going to speak on behalf of all of the other members 
in saying one of the saddest days of my, I think, career will 
be the day that you are no longer Senator from Connecticut. I 
just wanted to thank you for all that you have done for 
children in this Nation and to say that I think Karen is right 
on this issue.
    I call it the ``superhero bit.'' You wait until kids are 12 
and are 4 years behind, and then you have to turn into a 
superhero to save them. Where you knew that very kid--we all 
know where these kids are. We know where they are right now. 
Why don't we intervene early to make sure these kids start life 
off on even footing?
    I think it has been a mistake. I think we have separated 
the education arena as if learning doesn't start from birth, 
which it does, and that these kids don't start falling behind 
from birth, which they do. Then you have got to connect it. It 
has to be connected to strong programs. Otherwise, it is not 
going to work.
    I think that is something that we have to continue to push. 
The one thing that I will say and what I pushed the Secretary 
of Education on with Promise Neighborhoods was that we keep a 
pool of money that is able to do that very thing. Connect early 
with elementary, with middle and high school so you really can 
get that pipeline all the way through, which is what I think we 
believe it really takes.
    I agree with you, and I agree that Karen is right. We have 
got to sustain that effort.
    The Chairman. Mr. Cardinali, do you want to respond to 
that?
    Mr. Cardinali. Just a simple kind of almost philosophical 
point because I agree so much with Karen and Geoff.
    Often when we get asked this question when we are out in 
communities, I turn the question back and say, as parents, when 
are you going to invest most in your child? When they are 3 and 
then abandon them? Or when they are 7 and then say, ``good, 
good luck?''
    We know that, in fact, kids from when they are born to 
probably when they are 21, 25, 28 now, need some form of 
ongoing support, love, set of resources, abilities to expand 
their horizons, opportunities when they fall down that someone 
picks them up, whether it is their health or trouble in school.
    The question, I think, is for this community in the United 
States, are we committed to our children the way a parent is 
committed to his or her child? If that is the case, then I do 
believe in the system there are sufficient resources.
    The data is very clear. It looks like a U, right? When you 
are investing early on, you see pretty strong outcomes for 
young people. As the investment drops off, you hit the bottom, 
and then those that can somehow squeak through, the investment 
goes up. All of a sudden, they are doing quite well.
    I don't think it is rocket science. At this point, I think 
it is about public will, coupled with a kind of rigor of 
delivery and excellence that outputs simply are no longer good 
enough, that there have to be clear, measurable ways that we 
hold ourselves accountable as a community, the same way a 
parent knows that when she or he sends their child off to that 
school that is failing, it is intolerable and they figure out 
something to do.
    The Chairman. Does anybody else feel like they really want 
to say something about this? I want to turn to Senator Reed. I 
know he has to leave. We have a vote at noon.
    Ms. Henderson. I would just like to put in a plug for the 
approach they use in the child parent centers in Chicago, which 
start when children are 3 and would be better if it started 
early, but the idea of starting off well is half done. 
Promoting kindergarten readiness because that is a powerful 
predictor of how well children will do the rest of their time 
in school.
    These centers take kids when they are 3 and move them 
through the school until age 9, giving parents support all the 
way along, showing them ways to be engaged at home. You talked 
about what kind of investments we make and to be careful of our 
scarce resources. Investing in families to work with their 
children at home and guide them through our complicated school 
system and advocate for their kids when they are falling behind 
really pays off.
    For families who stay with the program the full 6 years, 
the graduation rate for their kids--these are low-income title 
I kids--is 85 percent, compared with about 50 percent for the 
rest of the system. The kids are much less likely to need 
special ed or disciplinary attention, and they are much more 
likely to pass and be promoted and go on. This is a modest 
investment, and it really pays off.
    The Chairman. Senator Reed.
    Senator Reed. Thanks, Tom.
    I want to thank you all for just tremendous insights, and 
particularly something that Karen said about how so much of 
learning now is happening outside the school building. And how 
so much is influencing the child outside the school building 
that we have to get outside the building and beyond the 9 
o'clock to 5 o'clock.
    One of the aspects of this, particularly in this Internet 
age, is that children get lots of information, but not a lot of 
knowledge. I wonder how you are factoring all of this new 
technology in. One of the ironies is that even in the schools 
that lack good technology or up-to-date and robust libraries, 
many kids can still play video games--which I couldn't even do 
because I couldn't even turn these games on. It is this 
discrepancy that we should be addressing by harnessing these 
aspects for education, and we are not.
    I don't know if anyone wants to take a turn at responding--
Jamie?
    Ms. Greene. Absolutely. Thank you for the question.
    Using the Internet is certainly part of a library 
curriculum. We teach students Internet safety, how to access 
information, and perhaps more importantly is how to evaluate 
it, how to weed out through the millions of hits that they 
might get what is appropriate.
    My students gave me some thoughts. ``I also know how to 
search the web safely because of the library. We learn how to 
get a good Web site for information we could understand.''
    We are starting it at the early grades in elementary 
school, scaffolding, so that when students get to be in middle 
and high school they are able to be effective users of 
information, understanding bias, understanding plagiarism and 
crediting their sources, creating new knowledge, new 
understandings from the information that they know how to 
evaluate and find and use and create.
    The Chairman. Mr. Canada, my staff informs me you have a 
flight to catch, that you have to leave pretty soon?
    Mr. Canada. I do, and I really apologize for that. Can I 
respond to Senator Reed?
    The Chairman. Yes.
    Mr. Canada. Because one of the things I have been beating 
up on the technology companies about is that I think this issue 
of technology is going to further separate children who are 
advantaged from children who are disadvantaged. Disadvantaged 
children tend to be end-users of video games and other things, 
but not the users of technology that advance educational 
research and aspirations.
    If we don't really make that technology available to young 
people so that they can have the power of the Internet at their 
fingertips for education, we are going to broaden the gap 
between poor children and children who are middle class. In 
thinking about technology--I was in West Virginia with Senator 
Rockefeller, and he was talking about the eRate and broadband 
and some of the things that have been pushed to try and get 
these schools to get technology and get accessible to 
technology.
    A lot of schools in Harlem, they are not even wired. You 
can't even bring it in there because the wiring system is so 
old that you can't wire the place. Well, maybe wireless will 
help. But here is a challenge.
    Central Park is wireless, right? So everybody who lives 
around Central Park can go on the Internet for free. In Harlem, 
the park, you can't do that. So here, the people who don't need 
free Internet service get it and the people who really need 
free Internet service don't have it, and I think that kind of 
discrepancy we have to change if we are going to make sure 
technology doesn't widen the disadvantaged group.
    I would just like to thank you, Chairman, for the 
opportunity and apologize to the Senators for having to leave.
    The Chairman. Very good. Thank you very much. Whenever you 
have to leave, you have to leave.
    Before I turn to others, Senator Bennet.
    Senator Bennet. Thank you, Mr. Chairman. I appreciate it.
    Just to jump off of what Mr. Canada was talking about, one 
of the things that is staggering to me--and I have three little 
girls at home that are Chris's kids age--is that--and they 
don't like it when they hear me say this because they get angry 
about it. They really do.
    But the idea that we have $12 trillion of debt on our 
balance sheet, but we haven't been able to make somehow the 
kind of investments that everybody here is talking about in our 
human capital and the infrastructure in this country, really 
does make people scratch their head and say, ``What in the 
world is going on back here?''
    That is a broader conversation that we need to have, I 
think, about the policy choices that we are making. With 
respect to public education generally--and again, bringing the 
perspective of a former superintendent here and trying to hold 
on to the agony of that--by the way, thank you all for working 
with our kids--the agony that so many of you go through because 
so many decisions we made were made because this stream of 
resources was coming in this place. This stream of resources 
was coming from this place, this stream from this place. It 
contorted the ability for people to deliver what they knew 
would be better for kids.
    I think about Chairman Dodd's point that he made about 
early childhood education. Maybe we don't have to decide here 
how all this money is spent. Maybe we can figure out ways of 
allowing local communities to make those judgments. Some places 
may decide they want to spend it on early childhood. Some might 
decide they want to spend it on libraries.
    Right now, everybody at the local level is wrestling with a 
diminished level of resources than what they had before and a 
bunch of rules and regulations that may or may not actually 
reflect outcomes for kids or be the best things for kids. I 
wonder if there is anybody here on the panel that either 
believes notionally that anything I have said is true or wrong? 
I was an urban school superintendent so you can't hurt my 
feelings. It has been beaten out of me a long time ago.
    Does this prompt any thoughts? Maybe I will start with Mr. 
Schwarz just because we haven't heard from him, and then 
whoever else.
    Mr. Schwarz. I want to thank you for the question and 
reinforce what several panelists have said around the need for 
greater investment overall in education. And yet ask us to 
think hard about why we are not getting bigger gains in places 
where we are investing healthy amounts of money today.
    I was in Newark, NJ, yesterday, where a Citizen School has 
been operating for several years. They are spending $19,000 to 
$20,000 per student in that district and not getting good 
results. I think part of it is because of the issues you raised 
of funding streams that are very specific, rules and 
regulations around them. I support the idea of finding more 
ways to open up funding to creative results-based programs and 
let those decisions be made at the local level.
    I think this is an effort to try to find ways in the 
afterschool and expanded learning time space to increase 
resources, but also increase flexibility and allow school 
systems and nonprofits to move forward with an expanded 
learning approach and/or an afterschool approach that fits 
their needs.
    I also think it may make sense in some areas to look at 
nationally administered competitive grant programs that can 
help identify the strongest programs, the most effective 
interventions, and try to scale them and do better research 
around them so that we can build the knowledge base around what 
is working, and we can have the capital to support high-quality 
initiatives that are getting results for kids and create 
through that better results that will get synergy and get 
momentum at the local level.
    Senator Reed. Ms. Pittman.
    Ms. Pittman. I think you are absolutely right, and I am 
glad you brought this up. It is clearly true in education, and 
it is true across all of our human services that, again, our 
insistence that once we identify a problem, we want to come up 
with a very specific solution and drill that down has led to 
enormous fragmentation. I am going to pull us out of education 
just for a second because these are the partners that we are 
talking about, and these are the resources that we are talking 
about, which are available at the Federal level.
    Right now there are over 300 Federal programs that address 
one of the problems that we were talking about today, spread 
across 13 different departments. You have fragmentation inside 
of education in terms of how we send education funding down. 
But if we are really looking for those partners and we are 
looking for those dollars and we are looking for those staff, 
we really need to do what we did almost two decades ago now, in 
the Clinton administration--I was the Director of the 
President's Crime Prevention Council and charged with bringing 
all those agencies together to identify the range of things we 
were looking at to prevent which was from dropout prevention to 
pregnancy, violence, etc.
    We picked 50 of those discretionary programs across the 
departments and looked at very specific ways to be able to give 
communities that flexibility, based on their being able to, 
first, map their resources, decide their goals, decide their 
needs, and come up with what for them was a comprehensive 
strategy that they thought was going to be effective and then 
be able to draw down on those resources.
    I think those are the kinds of things, as we are looking at 
reauthorizing this, that we can be very targeted about reaching 
out to suggest that the dollars that are in this act can be 
blended with dollars across other departments to get to this 
larger whole. I think communities are eager and ready for this, 
as we talk to them.
    The Chairman. Dr. Sugai, you put up your card, I wonder if 
you had a specific answer or response to that, and then we will 
go on.
    Dr. Sugai. I just had a couple of general comments about 
the discussion so far. The Elementary and Secondary Education 
Act is about schools and thinking about schools as being a very 
important social change agent, and how do we create schools 
that are actually going to be effective and efficient and so 
forth, as everybody has described here?
    The equity issues, the civil rights issues, the funding 
issues make my head spin. I don't know how to take those on in 
particular. I think we can change how schools function by 
helping them with guidance about how to use their current 
resources better.
    I need to brag just a second about my wife. Senator Dodd, 
let the record show that I bragged about my wife, OK?
    [Laughter.]
    She is a principal. And she volunteered to be a principal 
of a school that is in trouble, a school in need of 
improvement. When you get designated as a school in need of 
improvement, you are given 16 things to do. If you are a school 
that is not in need of assistance, you only have to do a couple 
things, you know?
    And if you think about it, schools that are the most in 
trouble probably have the least capacity to be able to 
implement those 16 mandates with high fidelity and with big 
impact. One of the things I was thinking about as everyone was 
describing what was going on here is how do we really create 
guidelines, policies that help schools make good decisions 
about what is effective practice? How do we hold them 
accountable for selecting those? How do we make sure they 
implement with fidelity and produce the outcomes that we are 
really interested in for students?
    I would also argue that schools are maybe one of our best 
change agents for families in the sense that if you think about 
schools, they are probably the second family for most of our 
kids. When kids go through our education system, they are 
actually being taught how to become a family member for the 
future.
    I think when kids are successful academically as well as 
socially, they actually are going to take those skills as a 
parent and use them better as well. So, I think you are 
absolutely right. Early intervention is the way to go, but I 
think we also need to be investing in the future parents who 
are probably the kids going through our school systems now.
    My spin on it is that we probably don't spend enough time 
on the social/emotional side of kids' growth, going back to the 
whole student idea. I am not sure that we have formalized a 
curriculum of effective strategies for social skills 
instruction, for social/emotional problem-solving, how to 
handle conflict, and so forth. We basically set up places where 
kids move through routines, and we are not experiencing things 
that are very effective.
    The Chairman. Senator Bennet, to get back, Mr. Schwarz said 
he was up in New Jersey, and they were spending $19,000 per 
student. This is in a district, in a school district. With 
that, I mean, they ought to be great.
    So why $19,000 a student per year, per annum, and you are 
saying they are not getting good results? I mean, that is mind-
boggling. Is it what Mr. Canada said? They are just spending 
more money doing the same old thing, and they are not getting 
anything changed?
    Mr. Schwarz. I think part of it is inertia, sort of piling 
more things on without getting rid of the things that aren't 
working. Part of it is speaking more to the interests of adults 
than the interests of kids. Part of it is a lack of rigor 
around taking new approaches and, when things work, invest more 
to grow----
    The Chairman. What we have to recognize here also is that 
elementary and secondary education is a local responsibility. 
And while we have had a role since 1965, mostly supporting low-
income kids, through title I as well as for kids with 
disabilities.
    We have made investments, but basically education is still 
a local matter. How do we answer these questions when locals 
are making significant investments in local education systems, 
and they are not getting any results?
    Senator Bennet. I wish that--I want to come back as a 
panelist, not as a Senator.
    [Laughter.]
    If I could do that, because I would have loved to have had 
this chance to talk to somebody here when I was there. We spend 
roughly $8,000 a kid in Denver. I think we get better results 
probably than Newark.
    But in terms of materiality, of moving children who are 
born into one zip code into another zip code on the economic 
ladder or in reality, there isn't a material difference from 
Denver to Los Angeles to New York to Detroit, as Geoffrey 
Canada mentioned. Our Federal spending is roughly 9 percent of 
what we spend on K-12 education, right?
    The Chairman. That is about right.
    Senator Bennet. Even if you doubled that, which we are not 
going to be able to do, the question is, would you make a 
material difference in terms of the work that any of these 
people are trying to do or all the teachers and principals 
across the United States of America are trying to do every 
single day?
    The way I think about it is that layering the 9 percent on 
top of a system that is out of date and where the incentives 
and disincentives are really very unaligned from the outcomes 
that everybody wants for kids probably is not a great way of 
helping. But figuring out how to use that 9 percent to inspire 
people to try new things, knowing that we don't have all the 
answers here because it is a local thing may be a better way of 
thinking about it.
    The Chairman. Response, somebody? Mr. Cardinali.
    Senator Bennet. Having said all that, we would gladly take 
$18,000 a kid in the Denver Public Schools.
    Mr. Cardinali. That is right.
    Senator Bennet. At all the schools across Colorado.
    Mr. Cardinali. I want to make a couple of comments. First, 
I want to directly respond to Senator Bennet's point about at 
the user end, the superintendent or principal end, that by the 
time the money arrives, the restrictions are extremely painful 
to deal with.
    There are two elements to that. One is that administrative 
leaders and teachers are often having to figure out more how to 
get access to the dollars than actually how to deploy them and 
make a difference. The second is that the purpose of this 
conversation I understood to be invited was about the holistic 
side of the conversation.
    I would like to suggest that as we talk about all of these 
resources, to beat a slightly dead horse about the integration 
of them, that communities and schools developed, in a sense, a 
technology to resolve this problem. It is not just ours. We 
actually want it in the reauthorization of ESEA because we 
believe it is so difficult to systemically break down these 
barriers that, actually, at the user end, if there is someone 
dedicated to working with teachers and principals, community 
resources, and other streaming resources that sit outside the 
school and allocate them against very clear, measurable 
differences, you can solve this problem relatively easily, 
relative to having to rework the entire system.
    I just think there is actually a way to think about this 
that allows for all of these excellent programs to be held 
accountable to their own results. There is a discipline around 
afterschool programming, around mentoring and tutoring, which 
we want. And then the alignment of those against school 
outcomes, which is, at the end of the day, what we want to see. 
We want to see Newark rocketing up.
    I think that there are elements about what happens in that 
school building or virtually, however you want to define it, 
and then there is the use of those resources in an accelerator 
to make that all work more effectively.
    The Chairman. Ms. Jefferies, you had something to add?
    Ms. Jefferies. I did. Thank you.
    I wanted to propose that we think about ESEA and also 
concurrent work that is going on with the Serve America Act. 
Higher Achievement is involved in sort of both conversations, 
and I think volunteers are an important aspect of this 
conversation that helps save money to some extent, which I know 
is important. It also helps build the social fabric in our 
communities.
    It connects across different classes. It exposes young 
people to new worlds of opportunity, and I think they can also 
become individual donors, which help organizations become more 
self-sufficient. There is a lot of benefit when you can begin 
to tap into the base of volunteers and also inspire more people 
to volunteer to help our children.
    One other point that I haven't heard raised is the 
importance of summer, and you can actually explain--the Hopkins 
study showed that you can explain half, more than half of the 
achievement gap between classes based on unequal access to 
summer programs. It is essential, and it is uneven across the 
board.
    Underserved students may be forced to go to summer school, 
but that is more of the same. Just what Eric said, that is not 
going to solve the problem. If we can have engaging summer 
opportunities for all students, that money will be well spent.
    Senator Bennet. What is amazing about that study is what it 
says about the middle class kids, is that they actually gain 
ground during the summer when they are not in the programs.
    Ms. Jefferies. Exactly.
    Senator Bennet. When they are not in the school. Which 
means the gap just gets bigger.
    The Chairman. Senator Franken, do you have something you 
want to interject here?
    Senator Franken. Yes. Dr. Sugai was talking, and I read his 
testimony and also that you brought up something that just made 
me think of something very specific that has been on my mind, 
which is you were talking about the environment of the school, 
about the socialization of the kids.
    I have a very specific thing that I am going to be actually 
introducing a bill about, which is LGBT youth being bullied. 
Right now, we have laws that prohibit bullying on pretty much 
everything, on the basis of race and religion and other things, 
but not on that, on gender identity and on gay and lesbian 
kids.
    The evidence is that gay kids are bullied a lot, and that 
their achievement goes down. There is a lot of absenteeism. 
There is even suicide.
    I just maybe would like you to speak to not just that 
specific issue, but the issue of how you create an environment 
that kids learn in where they are working together, and what is 
the best way to create a positive behavioral environment?
    Dr. Sugai. Great question. First response is our basic 
response in general to bullying has been a reactive management 
strategy. Zero tolerance. Punish the kids. Create environments 
of control. Much of the literature suggests that if that is 
your response, it is going to be ineffective in supporting 
those kids or any kid inside the school.
    If you look again at the risk prevention literature and the 
violence literature, it is very clear about what is needed. One 
is you need to create a schoolwide environment where kids are 
academically and socially confident, meaning they are taught 
social skills. The instruction is the most effective at 
producing good academic success. Kids who experience academic 
success and social success are better able to deal with 
teasing, with bullying, and so forth. They are also less likely 
to do it because they are getting their needs met in other 
ways.
    Going back to that literature, it is about targeted social 
skills instruction for all kids and more specific instruction 
for those kids who might have some risk factors--the bullies, 
if you will.
    A third feature is academic success. The fourth one is that 
adults have to model what we want the kids to be able to 
display. Our research indicates that it is really hard to teach 
kids not to bully when they are seeing bullying around them, 
and it is clearly a factor that contributes to it. The adults 
have to actually change their interaction patterns with the 
kids for that to be successful.
    Underlying all of that is this administrative structure 
that actually endorses more prevention-based, proactive models. 
If the teachers are told to do something and there are no 
incentives or contingencies for staff members to contribute to 
a safe and caring environment, we are in trouble.
    Just to brag again about my wife. She is at an elementary 
school of 500 kids. She greets every single kid at the door 
when they come into school every single day. The effect of that 
is that kids enter the classroom ready to learn and also 
interacting with others as they meet them in the hallway. That 
is a big deal for us.
    Parents see her greeting the kids. Parents perceive the 
school as a more welcoming place, and guess what happens to 
parent involvement as a result of that? A specific example that 
is intended to indicate that the larger school-wide climate for 
all kids is really important.
    The Chairman. Excuse me. I am sorry. Senator Dodd had to 
leave.
    Senator Franken. May I just say something?
    The Chairman. Sure.
    Senator Franken. I think we should call Senator Bennet as a 
witness at one of these hearings.
    [Laughter.]
    The Chairman. I am sorry, Ms. Struck, you had something to 
add?
    Ms. Struck. I would like to respond to Senator Franken's 
comments and questions as well that when we talk about the 
whole child, we are talking about school-wide initiatives like 
school-wide character education programs that are integrated 
into the curriculum but also immersed into the school climate 
and culture.
    It is not just signs on the wall. It is not just these fun, 
creative lessons we do in the classrooms. One of the most 
important factors is what adults model. And so, adults modeling 
acceptance, awareness, teaching about diversity--that can be 
taught. Those character education ideas can be taught across 
the curriculum.
    Also, we need to look at policy. In Iowa, we did pass a 
bullying and harassment law, and in that bullying and 
harassment law, there is protection for kids on sexual 
orientation or perceived sexual orientation. But we, as the 
adults, have to be the models, and we have to be comfortable to 
acknowledge realistically that that does happen in our schools.
    You are right on, Senator Franken. That is one of the 
harshest, worst kinds of bullying and harassment that happens 
in schools all around the country.
    Ms. Henderson. I just want to add one final thing, which is 
kids spend 70 percent of their waking hours outside school, and 
most of that time is under the care and direction of their 
families. When schools are initiating any anti-bullying and 
other kinds of positive social behavior programs, parents need 
to be there and understand what it is so they can use those 
strategies at home and in the community with their kids. 
Because that will start to change the tenor of the whole 
context.
    The Chairman. Yes, Ms. Greene.
    Ms. Greene. I just wanted to add to that that one of the 
places that our students are exposed to bullying is online, 
maybe afterschool hours. I know that part of our library 
learning is we address and talk about that online community and 
how we behave on that online community.
    We are also offering evening programs where parents can 
come and learn about Internet safety and about cyber bullying 
and what their role should be in making sure that that doesn't 
happen.
    The Chairman. Let me ask you--we are going to have to wrap 
up here--have you all looked at the proposed Common Core 
standards that I think 48 States have agreed to adopt?
    Do the standards focus specifically on math, science, and 
reading or do they focus on the needs of the whole child? Dan?
    Mr. Cardinali. Not so much looked at them in terms of the 
content, per se, but what they do is they create a national, a 
stable national goal that allows both the institution, the 
public institution--LEAs, SEAs, and Federal Government--to then 
partner with local, State, and national communities. As we talk 
about a holistic approach for children, we then can hold 
ourselves accountable for clear ways--Eric made a very good 
point earlier about holding ourselves accountable to effective 
programming.
    Well, if we know what proficiency looks like across the 
country, then our effective afterschool programming can then 
also be held accountable across the country. I think it allows 
for a marketplace and transparency of effective practice that 
will only accelerate our ability to make selections when we 
have to make difficult choices around resource allocation, 
which are the best programs that are treating the whole child.
    Ms. Pittman. I would say that having looked at the 
standards, the good news is that they do mention these 21st 
century skills--social, emotional competencies, things like 
that--when you read the opening paragraph. The bad news is that 
there is no specificity.
    The Chairman. There is no, what?
    Ms. Pittman. There is no specificity behind that 
commitment. In the opening, we want standards for language 
arts. We want standards for math, etc. Those are laid out in 
extreme detail.
    That last bullet of and we want to make sure that young 
people have social and emotional competencies, 21st century 
skills, etc., has no detail behind it. That is a place where we 
need to come, or we are not going to get attention to these 
sort of things that we are talking about today.
    Mr. Schwarz. I would love to applaud the approach you are 
all taking on the committee to move the standards forward, and 
Secretary Duncan for his effort and his statement to be strong 
and clear on outcomes and loose on means.
    What the standards can do, if they are done right, is be 
very clear about the destination, where we are trying to get 
all of our kids to a level of proficiency across a broad set of 
skills, including 21st century skills, including thinking 
skills.
    Then it is up to the programs on this panel and those we 
represent and thousands more like us to figure out the best way 
to get there. To do that in very creative ways that are 
engaging and hands-on and fun. Because you can get a kid to 
proficiency in algebra in a number of ways. Too often the 
current methods have not been working. So most kids are not 
getting to proficiency in algebra.
    We are finding some success with developing curriculum 
around video game design, just to give that one example where 
kids are learning algebraic concepts. They are also learning to 
be producers, not just consumers of technology. They are 
learning algebra, and they are getting to those high standards 
and getting the high thinking skills through a hands-on, real-
world approach.
    I think that is what some of the folks on this panel can 
do, and clear standards can create the environment for that 
kind of creativity to happen.
    The Chairman. Last word from the panel.
    Ms. Henderson.
    Ms. Henderson. I just want to put in a plug for the 
national PTA, who has put out standards for family and 
community engagement because we didn't think that the national 
standards project would go beyond academics and include this. I 
had the honor of working with them to produce them.
    I can say the State of Kentucky is the first, I know of, to 
adopt standards very like those. They customized them for their 
own context, and they are now part of what scholastic 
improvement teams go and look at in schools that have not made 
progress for 2 years in a row. Not only do they look at 
academics, but they use these State standards to look at the 
extent to which the schools are working with and engaging 
families and community organizations and helping to make 
progress with their students. I would absolutely recommend that 
this approach be encouraged nationally.
    The Chairman. Ms. Pittman.
    Ms. Pittman. If I could make one final comment? We are 
talking a lot today about both social/emotional skills and the 
larger competencies that we want young people to have, and we 
are talking about curricula and things that we can do to change 
schools. One of probably the most important things I think we 
could do is to just have an annual way to understand the 
nonacademic side of young people.
    The Gallup organization has implemented a student poll that 
is now being made available for free for school districts 
across the country for the next 10 years because they want to 
build up a national poll. They measure three things--hope, 
engagement, and well-being.
    Only one in four students in our public schools, 5th 
through 12th grade, measure well on all three of those things. 
Only 50 percent of kids are hopeful. Only 50 percent of them 
say that they are engaged in school, and those numbers decline 
steadily. For every year they are in school, they are less 
engaged in school. And then only about two-thirds are thriving.
    If we had measures like that up on the screen every year 
telling us as a country that our young people are coming to 
school, they are coming into buildings, but they are leaving 
not hopeful, not engaged, not thriving, we can't expect any of 
the outcomes that we are talking about to really be a 21st 
century community.
    The Chairman. Well, thank you all very much.
    This has been one of the best panels we have had, and the 
conversation could go on.
    Just to close up a couple of things. Mr. Canada asked about 
structure, and talked about doing the same thing with the same 
structures in place. I have asked this question before. 
Society, writ large, has changed a great deal in the last 300, 
400 years if you think about it. Just think about how much we 
have changed not just in the last 10 years or 50, but in the 
last 400 years.
    In spite of these many changes, the structure of the 
classroom remains the same as the structure that we had 400 
years ago. One teacher, desks lined up in rows. Is that the 
best structure to support the whole student in the 21st 
century? Society has also become more fragmented.
    Kids have tough lives. Some of these kids come from tough 
homes, single parents. They see violence, and struggle with 
poverty. Some don't have access to good healthcare, dental care 
or eye glasses. A lot of things are weighing on these kids.
    Students are not only dealing with academic challenges, 
they are also dealing with social and emotional problems, 
whether it is their diet, whether it is the influence of 
substances or peers. There are a lot of things out there. How 
do we deal with the need of the whole student because their 
lives are not fragmented?
    Perhaps we ought to be thinking the classroom should have 
more than a teacher. Maybe we need a counselor, someone who is 
well-trained in child behavior and development, to be there, 
too. An instructor to teach and another professional to attend 
to the social and emotional well-being of each child.
    Maybe you don't need one in every classroom, but maybe one 
for every couple of classrooms. Someone who can actually make 
home visits and follow up with the child, to find out what is 
happening in the home to get involved with the families. It is 
hard to get families in, to get them involved. It is something 
I wrestle with all the time. How do you get families involved?
    Well, if you had a full-time counselor or child behavioral 
scientist, someone who is well-trained to work with kids and to 
work with parents and families in a nonthreatening way, you 
could attend to the needs of the whole child.
    I am thinking, maybe this whole structure is wrong and we 
need to change it.
    Senator Dodd talked about early childhood. I keep waving 
this book around. It is sort of a staple of mine here.
    The first year I came here it was in 1985. the first year I 
came here. Then-President Ronald Reagan said that he wanted a 
study done on education, and these are my own words, not his. 
Here is what I heard him say. I don't want any of these pointy-
headed liberals, and I don't want any of these soft-headed 
teachers and stuff. I want hard-headed business people to look 
at this and tell us what we need in education to prepare for 
the future.
    So they put together this Committee on Education, CED. A 
group of CEOs of some of our largest corporations. The head of 
the study was James Renier, the head of Honeywell, and they 
went on and completed this whole study.
    I forgot about it. I came to the Senate and got on this 
committee in 1988. By 1991, I was chairman of the 
Appropriations Subcommittee on Education. And Jim Renier, whom 
I had never met, asked to meet with me. He came into my office, 
plunked this book down on my desk and reminded about the study.
    I could read you the list of the corporate executives that 
are on this committee. I mean, the head of Texas Instruments, 
the Freeman Company, Aetna Life, Sun Company, Ciba-Geigy, and 
on and on and on, Mellon Bank. And so, he put that study down 
on my desk. And do you know what their executive summary was, 
these hard-headed business people, the CEOs of these big 
corporations? Do you know what they said we had to do in 
education?
    Here was their executive summary, ``We must understand that 
education begins at birth, and the preparation for education 
begins before birth.'' It is all here, from 20 years ago. They 
talked about the importance of maternal and child healthcare 
programs, early learning programs, early intervention programs 
for children. Twenty years ago, they said that, and we haven't 
done a darn thing about it.
    The last thing I think about relates to what Mr. Bennet 
said. Senator Bennet said 9 percent of education funding is 
Federal funding. So you wonder how much we can do.
    I think No Child Left Behind shows that we can provoke 
change, for good or bad.
    How can we use the limited amount of money available to get 
these changes, to promote this kind of change at the local 
level?
    Again, I just say we just have to do something about 
getting people to think about the needs of the whole student. 
If a kid comes to school and he comes from a low-income family 
and has no access to healthcare--maybe he has got bad teeth, 
and he hasn't got dental care--when he's in class he can't 
focus because he is in pain and you wonder why they are not 
learning.
    Or for too many students, their diet consists of sugar, 
salts, and fats, you know? You wonder why they cycle between 
extreme highs and lows, because that is their diet.
    I think we just really have to understand that education 
can't stand by itself. It just can't stand by itself. It has 
got to involve the social fabric, the family, the community, 
the health and well-being of that child, both physical as well 
as emotional and mental aspect of these kids.
    Unless and until we do that, I think Mr. Canada is right. 
We are just going to continue to just do the same thing over 
and over and over again unless we challenge some of these 
structures and the way we have been doing these things.
    This was a great panel. You have provoked a lot of thinking 
in me. I know all of us here thank you very much for being 
here.
    I ask you to continue to be involved with us as we proceed 
on in ESEA reauthorization. I encourage you to come in and give 
us your best thoughts. I have my own Web site. It is called 
esea
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="95f6faf8f8f0fbe1e6d5fdf4e7fefcfbbbe6f0fbf4e1f0bbf2fae3bb">[email&#160;protected]</a>
    I ask that any time you have some thoughts--you have heard 
us say something, you have heard something come up, you think 
you want to give some input, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="86e3f5e3e7e5e9ebebe3e8f2f5c6eee7f4edefe8a8f5e3e8e7f2e3a8e1e9f0a8">[email&#160;protected]</a> I 
ask you to continue to be involved with us on that.
    Thank you all very much. We will leave the record open for 
10 days until May 6, 2010.
    Again, thank you all, and this hearing is adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                    Prepared Statement of Al Brandel
    I would like to begin by thanking Chairman Tom Harkin, Ranking 
Member Mike Enzi and members of this distinguished committee for the 
opportunity to provide this testimony on Reauthorization of the 
Elementary and Secondary Education Act (ESEA). I would also like to 
congratulate you, Mr. Chairman, and your colleagues, for examining the 
way organizations can collaborate with the Federal Government in 
addressing the needs of the whole student and improving educational 
opportunities.
    Lions Clubs International represents the largest and most effective 
NGO service organization presence in the world. Awarded and recognized 
as the #1 NGO organization for partnership globally by The Financial 
Times 2007, Lions Clubs International also holds the highest four star 
(highest) rating from the Charity
Navigator.com (an independent review organization). Lions and its 
official charity arm, Lions Clubs International Foundation (LCIF), have 
been world leaders in serving the vision, hearing, youth development, 
and disability needs of millions of people in America and around the 
world, and we work closely with other NGOs such as Special Olympics 
International to accomplish our common service goals.
    Since LCIF was founded in 1968, it has awarded more than 9,000 
grants, totaling more than US $640 million for service projects. All 
administrative costs are paid for through interest earned on 
investments, allowing LCIF to maximize out impact on the community and 
demonstrating the motto ``We Serve.''
    Soon after its founding in Chicago in 1917, Lions Clubs became a 
service-oriented ``export'' to the World. Our current 1.3 million-
member global membership, representing over 200 countries, serves 
communities through the following ways: protect and preserve sight; 
provide disaster relief; combat disability; promote health; and serve 
youth. The 14,000 individual Lions Clubs representing 400,000 
individual citizens in North America are constantly expanding to add 
new programs and its volunteers are working to bring health and 
educational services to as many communities as possible.
    Today, our school-aged children face many complex challenges, from 
bullying, violence, and drugs that harm their healthy development. I 
will offer a brief summary of my remarks through an overview of where 
Lions Clubs International is involved with youth, and recommendations 
for stronger Federal partnerships and involvement.
                   ``lions quest'' education programs
    Lions Clubs International's youth development initiatives, known 
collectively as ``Lions Quest,'' have been a prominent part of school-
based K-12 programs since 1984. Fulfilling its mission to teach 
responsible decisionmaking, effective communications and drug 
prevention, Lions Quest has been involved in training more than 350,000 
educators and other adults to provide services for over 11 million 
youth in programs covering 43 States. LCIF currently invests more than 
$2 million annually in supporting life skills training and service 
learning, and that funding is matched by local Lions, schools and other 
partners.
    Lions Quest curricula incorporate parent and community involvement 
in the development of health and responsible young people in the areas 
of: life skills development (social and emotional learning), character 
education, drug prevention, service learning, and bullying prevention. 
There is even a physical fitness component to this program that can 
assist Federal goals of reducing obesity in school-aged children.
    These Lions Quest programs provide strong evidence of decreased 
drug use, improved responsibility for students own behavior, as well as 
stronger decisionmaking skills and test scores in math and reading. In 
August 2002, Lions Quest received the highest ``Select'' ranking from 
the University of Illinois at Chicago-based Collaborative for Academic, 
Social and Emotional Learning (CASEL) for meeting standards in life 
skills education, evidence of effectiveness and exemplary professional 
development.
    Lions Quest has extensive experience with Federal programs. Lions 
Quest Skills for Adolescence received a ``Promising Program'' rating 
from the U.S. Department of Education Safe and Drug Free Schools and a 
``Model'' rating from the U.S. Department of Health and Human Services 
Substance Abuse and Mental Health Services Administration (SAMHSA).
    Lions Quest also has extensive experience of partnering with State 
service commissions to reach more schools and engage more young people 
in service learning. Successful partnerships have been active in 
Michigan, New York, Oklahoma, Tennessee and West Virginia with progress 
being made in Texas and Ohio.
Service Learning Initiatives
    Lions Clubs strongly support Congressional efforts to fund the 
Edward M. Kennedy Serve America Act that was signed into law 1 year 
ago. The Serve America Act authorizes the Corporation for National and 
Community Service to expand existing programs and add several new 
programs and initiatives to provide service learning school-based 
programs for students as well as Innovative and Community-Based 
Service-Learning Programs and Research. Another program of value that 
was authorized by the Edward M. Kennedy Act is the Social Innovation 
Fund that provides growth capital and other support so that the most 
effective programs can be identified.
Social and Emotional Learning Programs
    In addition, Lions Clubs recommends expanded congressional support 
for social and emotional learning (SEL) programs that stimulate growth 
among schools nationwide through distribution of materials and teacher 
training, and to create opportunities for youth to participate in 
activities that increase their social and emotional skills. Not only do 
SEL curricula contribute to the social and emotional development of 
youth, but they also provide invaluable support to students' school 
success, health, well-being, peer and family relationships, and 
citizenship.
    While still conducting scientific research and reviewing the best 
available science evidence, over time Lions Clubs and its SEL partners 
have increasingly worked to provide SEL practitioners, trainers and 
school administrators with the guidelines, tools, informational 
resources, policies, training, and support they need to improve and 
expand SEL programming. Lions Clubs share a commitment with SEL 
partners on this important issue, and we have long been an important 
voice for this school reform in conjunction with the Collaborative for 
Academic, Social and Emotional Learning (CASEL) staff.
    Overall, SEL training programs and curricula have outstanding 
benefits for school-aged children:

    <bullet> SEL prevents a variety of problems such as alcohol and 
drug use, violence, truancy, and bullying. SEL programs for urban youth 
emphasize the importance of cooperation and teamwork.
    <bullet> Positive outcomes increase in students who are involved in 
social and emotional learning programming by an average of 11 
percentile points over other students.
    <bullet> With greater social and emotional desire to learn and 
commit to schoolwork, participants benefit from improved attendance, 
graduation rates, grades, and test scores. Students become caring, 
concerned members of their communities.

    The Bank of America Foundation recently partnered with the Lions 
Quest program to support growth in Chicago public schools. Lions Quest 
has a positive presence in this schools system, a critical at-risk 
region where the high school graduation rate of just over 50 percent, 
more than 83 percent of students are low income, and less than two-
thirds of high school students met or exceeded standards for their 
grade level. By reaching out to these high-risk students in Chicago and 
many other urban and rural areas, LCIF and Bank of America are helping 
reverse some of these trends on a school-by-school basis.
    We recently expressed our support for House legislation (H.R. 4223 
introduced in December by Representatives Dale E. Kildee, Judy Biggert, 
and Tim Ryan), and it is our hope that a companion bill will be 
introduced soon in the Senate. Furthermore, we urge its inclusion in 
ESEA re-authorization of the Elementary and Secondary Education Act. 
There are several benefits in this legislation for the Department of 
Education's goals for ``successful, safe, and healthy students.'' These 
include:

    <bullet> expand district and State SEL initiatives,
    <bullet> evaluate the impact of SEL programs, and
    <bullet> create a national center to provide training and technical 
support.

    Lions Clubs remains committed to positive youth development and 
youth service programs that engage our schools and teachers. Today, 
students face many challenges, and Lions Clubs International 
understands the importance not only of academic excellence, healthy 
living, and community service but of instilling those values among 
members of our next generation. The success of non-profit entities such 
as Lions Clubs show what the service sector can do for the economic and 
social development of students, many of whom are hard hit by the 
recession, and we are committed to forming more effective alliances and 
partnerships to increase our domestic impact among youth.
    Mr. Chairman, we look forward to working with you and your 
colleagues on addressing these important challenges.
               Prepared Statement of Lynn E. Linde, Ed.D.
    The American Counseling Association (ACA), the Nation's largest 
non-profit organization representing school counselors and other 
professional counselors working in different settings, is grateful for 
the opportunity to submit written testimony on meeting the needs of the 
whole student in the context of reauthorizing the Elementary and 
Secondary Education Act (ESEA). We applaud the committee for devoting 
time and attention to this important issue.
    Professional school counselors play an important role in ensuring 
that students are ready to learn, and able to reach their maximum 
potential. All States require graduate-level training in school 
counseling as an entry-level prerequisite for credentialing as a school 
counselor, and 44 States require completion of a master's degree in 
school counseling or related field. School counselors receive 
substantial training in a range of areas encompassing children's growth 
and development within the education system, including in human 
development, counseling interventions, assessment, academic 
development, and research and evaluation. Professional school 
counselors provide the full range of students--across general- and 
special-education populations--essential ``9 a.m. to 3 p.m.'' school 
counseling services and academic supports, as well as consultation, 
collaboration, and coordination with teachers, principals, families and 
community-based professionals providing the ``3 p.m. to 9 p.m.'' 
services for students and families requiring more intensive support.
    Studies document that high-quality school counseling services 
increase academic achievement, and can help narrow the college-access 
gap between lower-income and higher-income student groups. School 
counseling services help increase students' well-being, improve student 
behavior, reduce incidence of bullying and other disruptive behavior, 
and foster more productive school environments.

    <bullet> A recent meta-analysis of school counseling outcome 
research involving 117 studies of 153 school counseling interventions 
with 16,296 students found a significant effect size (ES) of .30.\1\ 
This means that the students who participated in the school counseling 
interventions improved almost a third of a standard deviation more than 
their peers who did not receive the interventions. In other words, 
school counseling interventions have a larger effect size than aspirin 
for preventing heart attacks (ES of .06) and larger than the overall 
effectiveness of acetaminophen, a.k.a. Tylenol (ES of .19).\2\
---------------------------------------------------------------------------
    \1\ Whiston, S.C. & Quinby, R.F. (2009). Review of school 
counseling outcome research. Psychology in the Schools, 46(3), 267-272.
    \2\ Dimmitt, C. (March 24, 2010). Evidence-based practice in school 
counseling: using data and research to make a difference. National 
Center for School Counseling Outcome Research and Evaluation. 
University of Massachusetts--Amherst. Slide presentation.
---------------------------------------------------------------------------
    <bullet> Surveying 22,601 students, and after researchers 
controlled for socioeconomic status and enrollment size, students 
attending middle schools with more fully implemented comprehensive 
counseling programs reported earning higher grades, having fewer 
problems related to the physical and interpersonal milieu in their 
schools, feeling safer attending their schools, having better 
relationships with their teachers, believing that their education was 
more relevant and important to their futures, and being more satisfied 
with the quality of education available to them in their schools.\3\
---------------------------------------------------------------------------
    \3\ Lapan, R.T., Gysbers, N.C., & Petroski, G.F. (2001). Helping 
seventh graders be safe and successful: A statewide study of the impact 
of comprehensive guidance and counseling programs. Journal of 
Counseling and Development, 79, 320-330.
---------------------------------------------------------------------------
    <bullet> A statewide study of Missouri high schools found that 
students in schools with more fully implemented school counseling 
programs were more likely to report that they had earned higher grades, 
their education was better preparing them for the future, their school 
made more career and college information available to them, and their 
school had a more positive climate (greater feelings of belonging and 
safety at school, classes less likely to be interrupted, peers behaving 
better). After controlling for school enrollment size and socioeconomic 
status, positive program effects were still found.\4\
---------------------------------------------------------------------------
    \4\ Lapan, R.T., Gysbers, N.C., & Sun, Y. (1997). The impact of 
more fully implemented guidance programs on the school experiences of 
high school students: A statewide evaluation study. Journal of 
Counseling & Development, 75, 292-302.

    Professional school counselors and related personnel are 
instrumental in implementing individual and schoolwide interventions 
(e.g., Response to Intervention (RTI), Positive Behavior Interventions 
and Supports (PBIS), Social and Emotional Learning (SEL), school 
climate surveys, etc.), expanding family and community engagement in 
education, and managing linkages that make community schools 
successful. As our education system continues to evolve, we believe 
there will be an even greater need for professional school counselors 
and their colleagues to help students, teachers, principals and entire 
schools succeed. We believe ESEA reauthorization must continue to 
invest in professional school counselors and related school-based 
personnel as key partners with teachers and principals, in order to 
achieve maximum improvements in academic achievement and economic 
competitiveness.
    ACA is very concerned about proposals to eliminate the Elementary 
and Secondary School Counseling Program (ESSCP). ESSCP was first 
established as a demonstration project in 1994, under Senator Harkin's 
leadership. Since that time the program has come to serve as a key 
resource for often cash-strapped State and local education agencies. 
ESSCP is the only Federal program that provides funds dedicated 
exclusively to hiring professional school counselors, school social 
workers and school psychologists to develop and expand comprehensive 
and collaborative school counseling programs. The need for ESSCP is all 
too clear. The current funding level ($55 million for fiscal year 2010) 
allows support of only about 1 in 10 applications. In 2009, the program 
helped more than 429,000 students in some 850 schools across 29 States 
get counseling services through new grants to establish or expand 
counseling programs. ESEA reauthorization must continue to provide 
focused support for school counselors and related school-based 
personnel, who are working daily to prepare students for academic and 
personal success.
    We would welcome the opportunity to work with the committee to 
develop safeguards and standards to ensure that Federal support for 
counseling services and personnel is increased, not eliminated, under 
ESEA reauthorization. For future correspondence, please contact Dominic 
W. Holt, MSW, MFA in the ACA Office of Public Policy and Legislation at 
(703) 823-9800, ext. 242, or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2c48444340586c4f4359425f494045424b02435e4b02">[email&#160;protected]</a> Thank you again for 
this opportunity.

    [Whereupon, at 12:08 p.m., the hearing was adjourned.]



         
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
